                             AUDIT OF THE
                     U.S. DEPARTMENT OF JUSTICE
                    ANNUAL FINANCIAL STATEMENTS
                           FISCAL YEAR 2013

                 OFFICE OF THE INSPECTOR GENERAL
                    COMMENTARY AND SUMMARY

       This audit report contains the Annual Financial Statements of the
U.S. Department of Justice (Department) for the fiscal years (FY) ended
September 30, 2013, and September 30, 2012. Under the direction of the Office of
the Inspector General (OIG), KPMG LLP performed the Department’s audit in
accordance with auditing standards generally accepted in the United States of
America. Effective for FY 2013, auditing standards generally accepted in the United
States of America use the term “unmodified” opinion instead of “unqualified”
opinion. The definition of the two terms is substantially the same. An unmodified
opinion means that the financial statements present fairly, in all material respects,
the financial position and the results of the entity’s operations in accordance with
U.S. generally accepted accounting principles. The FY 2013 audit resulted in an
unmodified opinion on the financial statements. For FY 2012, the Department
received an unqualified opinion on its financial statements (OIG Audit Report
No. 13-01).

       KPMG LLP also issued reports on internal control over financial reporting and
on compliance and other matters. The auditors did not identify any material
weaknesses, nor did they report any significant deficiencies in the FY 2013
Independent Auditors’ Report on Internal Control over Financial Reporting Based on
an Audit of Financial Statements Performed in Accordance with Government
Auditing Standards. During FYs 2009 through 2013, the Department made
measurable progress toward implementing the Unified Financial Management
System. However, it is important to note that the Department does not yet have a
unified financial management system to readily support ongoing accounting
operations and preparation of financial statements. As discussed in past years, we
believe the most important challenge facing the Department in its financial
management is to successfully implement an integrated financial management
system to replace the two remaining major non-integrated legacy accounting
systems used by Department components.

       No instances of non-compliance or other matters that are required to be
reported under Government Auditing Standards were identified during the audit in
the FY 2013 Independent Auditors’ Report on Compliance and Other Matters Based
on an Audit of Financial Statements Performed in Accordance with Government
Auditing Standards. Additionally, KPMG LLP’s tests disclosed no instances in which




                                        -i-
the Department’s financial management systems did not substantially comply with
the Federal Financial Management Improvement Act of 1996.

       The Department’s financial statements are comprised of nine reporting
entities as described in Note 1.A. to the financial statements. Five of these entities
(Assets Forfeiture Fund and Seized Asset Deposit Fund, U.S. Marshals Service,
Federal Bureau of Investigation, Federal Bureau of Prisons, and Federal Prison
Industries, Inc.) prepare separate audited annual financial statements which are
available on the OIG’s website shortly after issuance.

       The OIG reviewed KPMG LLP’s reports and related documentation and made
necessary inquiries of its representatives. Our review, as differentiated from an
audit in accordance with Government Auditing Standards, was not intended to
enable us to express, and we do not express, an opinion on the Department’s
financial statements, conclusions about the effectiveness of internal control,
conclusions on whether the Department’s financial management systems
substantially complied with the Federal Financial Management Improvement Act of
1996, or conclusions on compliance with laws and regulations and other matters.
KPMG LLP is responsible for the attached auditors’ reports dated December 12,
2013, and the conclusions expressed in the reports. However, our review disclosed
no instances where KPMG LLP did not comply, in all material respects, with auditing
standards generally accepted in the United States of America.




                                         - ii -
                              AUDIT OF THE
                      U.S. DEPARTMENT OF JUSTICE
                     ANNUAL FINANCIAL STATEMENTS
                            FISCAL YEAR 2013

                              TABLE OF CONTENTS

                                                                                       PAGE

MANAGEMENT'S DISCUSSION AND ANALYSIS ................................................... 3

INDEPENDENT AUDITORS’ REPORTS

  REPORT ON THE FINANCIAL STATEMENTS .................................................. 31

  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING
     BASED ON AN AUDIT OF FINANCIAL STATEMENTS PERFORMED IN
      ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS .................... 35

  REPORT ON COMPLIANCE AND OTHER MATTERS
      BASED ON AN AUDIT OF FINANCIAL STATEMENTS PERFORMED IN
     ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS .................... 37

PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES

  CONSOLIDATED BALANCE SHEETS ............................................................. 40

  CONSOLIDATED STATEMENTS OF NET COST ............................................... 41

  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION ...................... 42

  COMBINED STATEMENTS OF BUDGETARY RESOURCES ................................. 44

  COMBINED STATEMENTS OF CUSTODIAL ACTIVITY ...................................... 45

  NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS .................................... 46

REQUIRED SUPPLEMENTARY INFORMATION

  COMBINING STATEMENTS OF BUDGETARY RESOURCES................................ 96

REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION

  CONSOLIDATED STEWARDSHIP INVESTMENTS ...........................................103

OTHER INFORMATION

  CONSOLIDATING AND COMBINING FINANCIAL STATEMENTS .......................106

  COMBINED SCHEDULE OF SPENDING ........................................................116
This page intentionally left blank.
Management’s Discussion and Analysis

             Unaudited




               -1-
This page intentionally left blank.




                 -2-
Divisions. The Office of Justice Programs (OJP), the Office on Violence Against Women (OVW), and the
Office of Community Oriented Policing Services (COPS) provide leadership and assistance to state, local, and
tribal governments. Other major Departmental components include the Executive Office for U.S. Trustees
(UST), the Justice Management Division (JMD), the Executive Office for Immigration Review (EOIR), the
Community Relations Service (CRS), the Office of the Inspector General (OIG), and several offices that
advise the Attorney General on policy, law, legislation, tribal justice matters, external affairs, and oversight.
Headquartered in Washington, D.C., the Department conducts its work in offices located throughout the
country and overseas.




                                                    -5-
                                 Table 1. Sources of DOJ Resources
                                           (Dollars in Thousands)



                     Source                                FY 2013          FY 2012        % Change
Earned Revenue:                                              $3,113,417      $3,115,804         (0.1)%
Budgetary Financing Sources:
  Appropriations Received                                    28,123,027      27,693,689           1.6%
  Appropriations Transferred-In/Out                             255,845         330,471        (22.6)%
  Nonexchange Revenues                                        1,496,352       2,803,960        (46.6)%
  Donations and Forfeitures of Cash and Cash
    Equivalents                                                1,826,480      4,194,465         (56.5)%
  Transfers-In/Out Without Reimbursement                         140,230        109,395           28.2%
  Other Adjustments                                          (2,576,563)      (192,761)      (1,236.7)%
Other Financing Sources:
  Donations and Forfeitures of Property                         185,772        120,275           54.5%
  Transfers-In/Out Without Reimbursement                          2,080        (12,623)         116.5%
  Imputed Financing from Costs Absorbed by
    Others                                                      801,659        878,014          (8.7)%
  Other Financing Sources                                        (6,166)        (5,199)        (18.6)%
                              Total DOJ Resources          $33,362,133      $39,035,490        (14.5)%


                              Table 2. How DOJ Resources Were Spent
                                           (Dollars in Thousands)



                 Strategic Goal (SG)                          FY 2013        FY 2012       % Change
         Prevent Terrorism and Promote the Nation’s
   1
         Security Consistent with the Rule of Law
                                             Gross Cost        $5,294,213     $5,727,278
                                 Less: Earned Revenue             415,488        470,233
                                                Net Cost        4,878,725      5,257,045       (7.2)%
         Prevent Crime, Protect the Rights of the
   2
         American People, and Enforce Federal Law
                                             Gross Cost        15,020,702     20,059,682
                                 Less: Earned Revenue           1,432,577      1,115,263
                                                Net Cost       13,588,125     18,944,419      (28.3)%
         Ensure and Support the Fair, Impartial,
         Efficient, and Transparent Administration of
   3
         Justice at the Federal, State, Local, Tribal,
         and International Levels
                                             Gross Cost        13,949,532     15,523,414
                                 Less: Earned Revenue           1,265,352      1,530,308
                                                Net Cost       12,684,180     13,993,106       (9.4)%

                                   Total Gross Cost           34,264,447      41,310,374
                        Less: Total Earned Revenue             3,113,417       3,115,804
                        Total Net Cost of Operations         $31,151,030     $38,194,570      (18.4)%




                                                       -8-
to effects of the sequestration in FY 2013 which significantly decreased appropriations and mandated
rescissions.

Net Outlays: The Department’s FY 2013 Combined Statement of Budgetary Resources shows $30.2 billion
in net outlays, a decrease of $1.4 billion from the previous year’s total net outlays of $31.6 billion. This
decrease is related to budget reductions and spending authority.




                                                 -11-
                                         FY 2013 Key Performance Measures

    [ ] Designates the reporting       FY 2013        FY 2013        Target Achieved/
    entity                              Target         Actual           Not Achieved
No. Strategic Goal I: Prevent Terrorism and Promote the Nation’s Security Consistent
    with the Rule of Law
1    Number of counterterrorism                                 10,000                    13,111                          Achieved
     intelligence products shared with
     the U.S. Intelligence Community,
     state and local Law Enforcement
     Community partners, and foreign
     government agencies [FBI]
     Strategic Goal II: Prevent Crime, Protect the Rights of the American People, and
     Enforce Federal Law
2    Number of criminal enterprises                               385                      493                           Achieved
     engaging in white-collar crimes
     dismantled [FBI]
                                                                                                                                       1
3    Percent increase in gang arrests                             2%                       -19%                       Not Achieved
     resulting from coordination of gang
     investigations [FBI, ATF, DEA]
     1
      This measure represents collective data from FBI, ATF, and DEA. FY 2013 actual numbers for FBI, ATF, and DEA were lower than their
     FY 2011 baseline numbers. Thus FY 2013 collective target was not met.

4    Number of intelligence products to                           47                       132                          Achieved
     support federal, state, and local law
     enforcement [FBI]
5    Number of matters/investigations of                        5,057                     5,172                         Achieved
     child sexual exploitation and human
     trafficking resolved [CRT, CRM,
     USAs]
     Consolidated Priority Organizations
     Target (CPOT)-linked drug
     trafficking organizations [DEA, FBI
     (Consolidated data - OCDETF)]
6        Dismantled                                               145                      219                          Achieved
7        Disrupted                                                340                      500                          Achieved
     Percent of cases favorably resolved:
     [ENRD, ATR, CRM, USA, TAX, CIV,
     CRT (Consolidated data -
     JMD/Budget Staff)]
8        Criminal Cases                                          90%                      92%                           Achieved
9          Civil Cases                                           80%                      85%                           Achieved
     Strategic Goal III: Ensure and Support the Fair, Impartial, Efficient, and Transparent
     Administration of Justice at the Federal, State, Local, Tribal, and International Levels
10   Percent of system-wide crowding in                          38%                      36%                           Achieved
     federal prisons [BOP]
                                                                                                                                       2
11   Number of inmate participants in the                       16,044                   15,891                      Not Achieved
     Residential Drug Abuse Program
     [BOP]
     2
      Fiscal year end results are 153 less than projected. This slightly lower result was due to brief delays in implementing 4 of the 18 new
     RDAPs in FY 2013.
                                                                                                                                       3
12   Number and percent of primary                             34,765                    34,470                      Not Achieved
     felony fugitives apprehended or
     cleared [USMS]
     3
         Target was not met due to lower number of arrests and fugitives received in FY 2013.




                                                                          -14-
Priority Goal 2, Reduce Gang Violence: By September 30, 2013, in conjunction with state and local law
enforcement agencies, reduce the number of violent crimes attributed to gangs by achieving 5 percent
increases on 3 key indicators:

    •   Youths who exhibited a change in targeted behaviors as a result of participation in DOJ gang
        prevention program
    •   Coordination on gang investigations among federal, state, and local law enforcement resulting in
        gang arrests
    •   Intelligence products produced in support of federal, state, and local investigations that are
        focused on gangs posing a significant threat to communities

Gangs and gun violence pose a serious threat to public safety in many communities throughout the United
States. Too many youth are exposed to violence and gangs. Too many families continue to face substantial
challenges in keeping their children safe and free from the conditions that can lead to violence. While data
shows that overall violent crime in the United States is decreasing, many communities continue to experience
high levels of gun violence and gang-related crimes. Gang members are increasingly migrating from urban to
suburban, rural, and tribal communities and are responsible for a growing percentage of crime and violence in
many communities. The Department’s efforts to protect our citizens from violence will be carried out through
collaboration with our state, local, and tribal partners. Through the United States Attorneys and our violent
crime task forces, the Department will work with individual jurisdictions to address the impact of gang-related
crimes on communities. The federal, state, local, and tribal efforts will be enhanced through increased
coordinated enforcement efforts and intelligence sharing. Additionally, prevention of gang violence and gang
membership is a necessary element of our strategy to address violent crime. The Department will utilize a
number of evidence-based programs to assist state, local, and tribal governments in their efforts to deter youths
from participation in gangs through these data-driven prevention programs, which are designed to prevent
increases in gang membership and to deter youth violence.

Status: The Department met or exceeded its FY 2012 and FY 2013 targets for the three performance measures
for the Violent Crime Priority Goal. The percentage of program youth who exhibited a change in targeted
behaviors while participating in DOJ prevention programs to reduce youth crime and violence exceeded its
FY 2012 target and met its FY 2013 target. For the measure concerning number of intelligence products
produced, the Department met the FY 2012 target and exceeded the FY 2013 target. A total of 132 separate
intelligence products were produced in support of Federal, State, and local investigations that were focused on
gangs posing a significant threat to communities, exceeding the FY 2013 target of 47 products by 85 products
or 281%. For the performance measure the number of cases supported by the National Gang Targeting,
Enforcement and Coordination Center (GangTECC), the Department exceeded the FY 2012 and FY 2013
targets. A total of 918 cases were supported in FY 2013.

During FY 2012 – 2013, the Violent Crime Priority Goal conducted targeted marketing and liaison activities to
state and local law enforcement agencies in order to increase the number of registered users and queries of
National Gang Intelligence Center (NGIC) Online. NGIC partnered with the National Alliance of Gang
Investigators Association, which is composed of 22 state and regional gang investigator associations. Through
this partnership, NGIC is able to reach over 20,000 individuals directly involved in gang investigations across
the country. These combined outreach and education efforts have been essential to relaying NGIC’s message
to state and local law enforcement officials who are currently combating gang violence. These efforts have
also aided in the expanded use of NGIC Online. In the fourth quarter FY 2013, NGIC Online usage increased
14% from 57,838 queries as compared to the fourth quarter FY 2012 50,679 queries. NGIC Online queries
exceeded its FY 2013 target (180,834) by 44,619 queries or 25%.




                                                        -16-
Priority Goal 3, Protect the American people from Financial and Healthcare fraud: In order to
efficiently and effectively address financial fraud and healthcare fraud, by the end of FY 2013, increase
by 5 percent over FY 2011 levels, the number of investigations completed per Department of Justice
attorney working on financial fraud and healthcare fraud cases

The recent financial crisis, which has impacted every American, has resulted in fraud and deception in the
finance and housing markets as well as fraudulent schemes that misuse the public’s unprecedented investment
in economic recovery. Criminals who commit mortgage fraud, securities and commodities fraud, and other
types of fraud relating to the response to the economic crisis, including the funds disbursed through the
American Recovery and Reinvestment Act and the Troubled Asset Relief Program, victimize the American
public as a whole. Similarly, those who defraud Medicare, Medicaid, and other government health care
programs defraud every American. Fraudsters take critical resources out of our health care system—thus
contributing to the rising cost of health care for all Americans and endangering the short-term and long-term
solvency of these essential health care programs. The Department will continue to address these critical
problems by vigorously investigating and prosecuting both health care fraud and financial fraud, in order to
protect American businesses, consumers, and taxpayers.

Status: Over the past two years, the Department’s focus for the Financial and Healthcare Priority Goal had
been to increase by 5 percent the number of investigations completed per DOJ attorney working on financial
fraud and healthcare fraud cases. While the Department made progress during FY 2012-2013, it fell short of
the FY 2013 target of 12.21 investigations completed per DOJ attorney attaining an actual of 11.49
investigations per attorney. Several factors contributed to this result. Over the last several years, including
the FY 2011 baseline year, the number of health care fraud and financial fraud cases reached all-time highs.
Given the outstanding results of FY 2011, it proved difficult to achieve further increases in the ensuing two-
year timeframe. The complexity of health care fraud and financial fraud cases continued to increase, e.g.,
number of defendants and methods of fraud. As complexity increased, more attorney effort was expended on
these complex cases, thereby reducing the overall number of investigations completed.

Supporting the Financial and Healthcare Priority Goal activity of efficiently and effectively increasing the
number of health care fraud investigations completed, the Department targeted 260 Department personnel and
law enforcement partners to be trained on Medicare claims data analysis. The trainings served to better triage
and support existing caseloads and to evaluate pending health care fraud investigations. At the end of fourth
quarter FY 2013, 401 people had been trained, exceeding its FY 2013 target by 54%. This success contributed
to the increased number of investigations completed in the fourth quarter FY 2013 (2,462), a 5% increase
compared to fourth quarter FY 2012 (2,336).

Overall, the Department will continue to vigorously investigate and prosecute both financial fraud and health
care fraud related cases, in order to protect American businesses, consumers, and taxpayers. As an example,
the Department, along with federal and state partners, came to a $13 billion settlement with JPMorgan - the
largest settlement with a single entity in American history - to resolve federal and state civil claims arising out
of the packaging, marketing, sale and issuance of residential mortgage-backed securities by JPMorgan, Bear
Stearns and Washington Mutual prior to January 1, 2009. The settlement represents another significant step
towards holding accountable those banks which exploited the residential mortgage-backed securities market
and harmed numerous individuals and entities in the process.




                                                    -17-
response to new legislation, OMB initiatives, and OIG and GAO recommendations, as discussed later in this
section and in Appendix A of the Agency Financial Report (AFR).

Departmental management continued in FY 2013 to further strengthen and maximize the effectiveness of its
annual assessment of internal control over financial reporting. Examples of such actions include:

   •   Refining the assessment framework,

   •   Enhancing the oversight process to ensure prompt implementation of corrective actions,

   •   Providing direct assistance to components with previously identified reportable conditions, and

   •   Continuing to support and commit resources to Departmental component internal review programs.




                                                 -19-
Federal Financial Management Improvement Act of 1996

The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to advance federal
financial management by ensuring that federal financial management systems provide accurate, reliable, and
timely financial management information to the government’s managers. Compliance with the FFMIA
provides the basis for the continuing use of reliable financial management information by program managers,
as well as by the President, Congress, and public. The FFMIA requires agencies to have financial
management systems that substantially comply with federal financial management system requirements,
applicable federal accounting standards, and the application of the U.S. Government Standard General Ledger
(USSGL) at the transaction level. Guidance for implementing the FFMIA in FY 2013 was provided through
OMB Circular A-127, Financial Management Systems.

FFMIA Compliance Determination

During FY 2013, the Department assessed its financial management systems for compliance with the FFMIA
and determined that, when taken as a whole, they substantially comply with the FFMIA. This determination
is based on the results of FISMA reviews and testing performed for OMB Circular A-123, Appendix A.
Consideration was also given to issues identified during the Department’s financial statement audit.
A summary of the Department’s compliance with the specific requirements of the FFMIA is provided at the
end of this sub-section.

Financial Management Systems Strategy, Goals, and Framework

The Department’s financial management systems strategy is to ultimately replace the two remaining major
non-integrated legacy accounting systems in use in the Department with the single, integrated financial
management system the Department is deploying – the Unified Financial Management System (UFMS).
UFMS delivers standard, core accounting processes, as well as the data needed for effective financial and
budget management. In FYs 2009 through 2013, the Department made measurable progress in implementing
UFMS. In FY 2009, the DEA successfully migrated to UFMS and, importantly, obtained an unqualified audit
opinion on its financial statements produced from UFMS that year and in every year since. As expected, the
DEA project was a large, complex, and difficult migration, but one that helped to lay the foundation for the
migrations of the ATF, USMS, and the Assets Forfeiture Fund, which occurred in FYs 2011 and 2013, and the
migration of the FBI, which is underway and scheduled for completion in FY 2014. The migration of the
USMS replaced one of the three major non-integrated legacy accounting systems, leaving two in use in the
Department. The UFMS implementation goals, such as the migrations of the USMS and FBI, leverage lessons
learned from previous migrations and are based on and aligned with operational risks and requirements unique
to each component.

The Department’s UFMS implementation has already enabled components to improve financial and budget
management and realize increased efficiencies. Additional improvements and efficiencies are guaranteed to be
realized as additional components fully migrate to UFMS. For example, UFMS has standardized and
integrated financial processes to more effectively support accounting operations, provide accurate and timely
financial information throughout the year, facilitate preparation of financial statements, and streamline audit
processes.




                                                  -21-
Summary of Financial Statement Audit and Management Assurances

The two tables on the following page summarize the results of the Department’s financial statement audit and
management assurances regarding the effectiveness of internal control over programmatic operations and
financial reporting (FMFIA § 2), conformance with financial system requirements (FMFIA § 4), and
compliance with the FFMIA.

                             Table 3. Summary of Financial Statement Audit

 Financial Statement Audit Opinion and Material Weaknesses

 Audit Opinion                 Unmodified

 Restatement                   No
                                    Beginning                                                     Ending
    Material Weaknesses
                                     Balance       New            Resolved      Consolidated      Balance

 None                                  0            0                0               0               0

 Total Material Weaknesses             0            0                0               0               0




                                                        -22-
Independent Auditors’ Reports




          -29-
This page intentionally left blank.




                -30-
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




                      Independent Auditors’ Report on the Financial Statements


Inspector General
U.S. Department of Justice


United States Attorney General
U.S. Department of Justice


We have audited the accompanying consolidated financial statements of the U.S. Department of Justice
(Department) which comprise the consolidated balance sheets as of September 30, 2013 and 2012, and the
related consolidated statements of net cost, and changes in net position, and the combined statements of
budgetary resources and custodial activity (hereinafter referred to as “consolidated financial statements”)
for the years then ended, and the related notes to the consolidated financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these consolidated financial
statements in accordance with U.S. generally accepted accounting principles; this includes the design,
implementation, and maintenance of internal control relevant to the preparation and fair presentation of the
consolidated financial statements that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these consolidated financial statements based on our audits
and the reports of other auditors. We did not audit the fiscal year 2012 financial statements of the following
components of the Department: the U.S. Marshals Service (USMS); the Federal Prison Industries, Inc.
(FPI); and the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), which statements reflect total
assets of $2.0 billion, and total net costs of $2.9 billion as of and for the year ended September 30, 2012.
Those financial statements were audited by other auditors whose reports have been furnished to us, and our
opinion, insofar as it relates to the amounts included for those components, is based solely on the reports of
the other auditors. We conducted our audits in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States; and Office of Management and Budget
(OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and
OMB Bulletin No. 14-02 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
consolidated financial statements. The procedures selected depend on the auditors’ judgment, including the
assessment of the risks of material misstatement of the consolidated financial statements, whether due to
fraud or error. In making those risk assessments, the auditors consider internal control relevant to the
entity’s preparation and fair presentation of the consolidated financial statements in order to design audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an opinion on
the effectiveness of the entity’s internal control. Accordingly, we express no such opinion. An audit also

                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.


                                                          -31-
includes evaluating the appropriateness of accounting policies used and the reasonableness of significant
accounting estimates made by management, as well as evaluating the overall presentation of the
consolidated financial statements.
We believe that the audit evidence we have obtained, based on our audits and the reports of the other
auditors, is sufficient and appropriate to provide a basis for our audit opinion.
Opinion on the Financial Statements

In our opinion, based on our audits and the reports of other auditors, the consolidated financial statements
referred to above present fairly, in all material respects, the financial position of the U.S. Department of
Justice as of September 30, 2013 and 2012, and its net costs, changes in net position, budgetary resources,
and custodial activity for the years then ended in accordance with U.S. generally accepted accounting
principles.

Emphasis of Matters

As discussed in Note 1.V to the consolidated financial statements, the Department adopted Statement of
Federal Financial Accounting Standards No. 43, Funds from Dedicated Collections: Amending Statement
of Federal Financial Accounting Standards No. 27, Identifying and Reporting Earmarked Funds, effective
October 1, 2012. The fiscal year 2012 consolidated financial statements have been adjusted for the
retrospective application of the new accounting guidance. Our opinion is not modified with respect to this
matter.

As discussed in Note 26 to the consolidated financial statements, the Department has elected to change its
capitalization thresholds for real property, personal property, and internal use software, effective October 1,
2012. Our opinion is not modified with respect to this matter.

Other Matters

Required Supplementary Information

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis, Required Supplementary Information, and Required Supplementary Stewardship
Information sections be presented to supplement the consolidated financial statements. Such information,
although not a part of the consolidated financial statements, is required by the Federal Accounting
Standards Advisory Board who considers it to be an essential part of financial reporting for placing the
consolidated financial statements in an appropriate operational, economic, or historical context. We and the
other auditors have applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the United States of America, which consisted of
inquiries of management about the methods of preparing the information and comparing the information
for consistency with management’s responses to our inquiries, the consolidated financial statements, and
other knowledge we obtained during our audits of the consolidated financial statements. We and the other
auditors do not express an opinion or provide any assurance on the information because the limited
procedures do not provide us with sufficient evidence to express an opinion or provide any assurance.




                                                 -32-
Other Information

Our audits were conducted for the purpose of forming an opinion on the consolidated financial statements
as a whole. The consolidating information and Combined Schedule of Spending is presented for purposes
of additional analysis and is not a required part of the consolidated financial statements. Such information
has not been subjected to the auditing procedures applied in the audits of the consolidated financial
statements, and accordingly, we and the other auditors do not express an opinion or provide any assurance
on it.

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our fiscal year 2013 report dated
December 12, 2013 on our consideration of the Department’s internal control over financial reporting, and
our fiscal year 2013 report dated December 12, 2013 on our tests of its compliance with certain provisions
of laws, regulations, contracts, and grant agreements and other matters. The purpose of those reports is to
describe the scope of our testing of internal control over financial reporting and compliance and the results
of that testing, and not to provide an opinion on the internal control over financial reporting or on
compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards in considering the Department’s internal control over financial reporting and
compliance.




December 12, 2013




                                                -33-
This page intentionally left blank.




                -34-
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




 Independent Auditors’ Report on Internal Control over Financial Reporting Based on an Audit of
       Financial Statements Performed in Accordance with Government Auditing Standards


Inspector General
U.S. Department of Justice


United States Attorney General
U.S. Department of Justice


We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the consolidated financial statements of
the U.S. Department of Justice (Department), which comprise the consolidated balance sheets as of
September 30, 2013 and 2012, and the related consolidated statements of net cost, and changes in net
position, and the combined statements of budgetary resources and custodial activity (hereinafter referred to
as “consolidated financial statements”) for the years then ended, and the related notes to the consolidated
financial statements, and have issued our report thereon dated December 12, 2013. We did not audit the
fiscal year 2012 financial statements of the following components of the Department: the U.S. Marshals
Service (USMS); the Federal Prison Industries, Inc. (FPI); and the Bureau of Alcohol, Tobacco, Firearms
and Explosives (ATF) as of and for the year ended September 30, 2012. Those financial statements were
audited by other auditors whose reports have been furnished to us, and our report, insofar as it relates to the
amounts included for those components, is based solely on the reports of the other auditors. As discussed
in Note 1.V to the consolidated financial statements, the Department adopted Statement of Federal
Financial Accounting Standards No. 43, Funds from Dedicated Collections: Amending Statement of
Federal Financial Accounting Standards No. 27, Identifying and Reporting Earmarked Funds, effective
October 1, 2012. The fiscal year 2012 consolidated financial statements have been adjusted for the
retrospective application of the new accounting guidance. Our opinion is not modified with respect to this
matter. Also, as discussed in Note 26 to the consolidated financial statements, the Department has elected
to change its capitalization thresholds for real property, personal property, and internal use software,
effective October 1, 2012. Our opinion is not modified with respect to this matter.

Internal Control over Financial Reporting

In planning and performing our audit of the consolidated financial statements as of and for the year ended
September 30, 2013, we considered the Department’s internal control over financial reporting (internal
control) to determine the audit procedures that are appropriate in the circumstances for the purpose of
expressing our opinion on the consolidated financial statements, but not for the purpose of expressing an
opinion on the effectiveness of the Department’s internal control. Accordingly, we do not express an
opinion on the effectiveness of the Department’s internal control. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982.


                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.


                                                          -35-
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies. Given these limitations, during our audit we did not identify any
deficiencies in internal control that we consider to be material weaknesses. However, material weaknesses
may exist that have not been identified.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the results of
that testing, and not to provide an opinion on the effectiveness of the Department’s internal control. This
report is an integral part of an audit performed in accordance with Government Auditing Standards in
considering the Department’s internal control. Accordingly, this communication is not suitable for any
other purpose.




December 12, 2013




                                                  -36-
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




  Independent Auditors’ Report on Compliance and Other Matters Based on an Audit of Financial
            Statements Performed in Accordance with Government Auditing Standards


Inspector General
U.S. Department of Justice


United States Attorney General
U.S. Department of Justice


We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the consolidated financial statements of
the U.S. Department of Justice (Department), which comprise the consolidated balance sheets as of
September 30, 2013 and 2012, and the related consolidated statements of net cost, and changes in net
position, and the combined statements of budgetary resources and custodial activity (hereinafter referred to
as “consolidated financial statements”) for the years then ended and the related notes to the consolidated
financial statements, and have issued our report thereon dated December 12, 2013. We did not audit the
fiscal year 2012 financial statements of the following components of the Department: the U.S. Marshals
Service (USMS); the Federal Prison Industries, Inc. (FPI); and the Bureau of Alcohol, Tobacco, Firearms
and Explosives (ATF) as of and for the year ended September 30, 2012. Those financial statements were
audited by other auditors whose reports have been furnished to us, and our report, insofar as it relates to the
amounts included for those components, is based solely on the reports of the other auditors. As discussed
in Note 1.V to the consolidated financial statements, the Department adopted Statement of Federal
Financial Accounting Standards No. 43, Funds from Dedicated Collections: Amending Statement of
Federal Financial Accounting Standards No. 27, Identifying and Reporting Earmarked Funds, effective
October 1, 2012. The fiscal year 2012 consolidated financial statements have been adjusted for the
retrospective application of the new accounting guidance. Our opinion is not modified with respect to this
matter. Also, as discussed in Note 26 to the consolidated financial statements, the Department has elected
to change its capitalization thresholds for real property, personal property, and internal use software,
effective October 1, 2012. Our opinion is not modified with respect to this matter.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Department’s consolidated financial
statements are free from material misstatement, we performed tests of its compliance with certain
provisions of laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts, and certain provisions of
other laws and regulations specified in OMB Bulletin No. 14-02. However, providing an opinion on
compliance with those provisions was not an objective of our audit, and accordingly, we do not express
such an opinion. The results of our tests of compliance disclosed no instances of noncompliance or other
matters that are required to be reported herein under Government Auditing Standards or OMB Bulletin
No. 14-02.

                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.


                                                          -37-
We also performed tests of its compliance with certain provisions referred to in Section 803(a) of the
Federal Financial Management Improvement Act of 1996 (FFMIA). Providing an opinion on compliance
with FFMIA was not an objective of our audit, and accordingly, we do not express such an opinion. The
results of our tests of FFMIA disclosed no instances in which the Department’s financial management
systems did not substantially comply with the (1) federal financial management system requirements,
(2) applicable federal accounting standards, and (3) application of the United States Government Standard
General Ledger at the transaction level.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the results of that
testing, and not to provide an opinion on the Department’s compliance. This report is an integral part of an
audit performed in accordance with Government Auditing Standards in considering the Department’s
compliance. Accordingly, this communication is not suitable for any other purpose.




December 12, 2013




                                                 -38-
           Principal Financial Statements
                  and Related Notes

See Independent Auditors’ Report on the Financial Statements




                          -39-
                                                      U. S. Department of Justice
                                                     Consolidated Balance Sheets
                                                  As of September 30, 2013 and 2012

Dollars in Thousands                                                                                                   2013             2012

ASSETS (Note 2)
      Intragovernmental
          Fund Balance with U.S. Treasury (Note 3)                                                 $         23,226,071       $   24,745,298
          Investments, Net (Note 5)                                                                           6,650,960            6,213,903
          Accounts Receivable, Net (Note 6)                                                                     452,327              324,327
          Other Assets (Note 10)                                                                                 92,370              266,573
      Total Intragovernmental                                                                                30,421,728           31,550,101

      Cash and Monetary Assets (Note 4)                                                                         174,798              260,682
      Accounts Receivable, Net (Note 6)                                                                          81,892              115,612
      Inventory and Related Property, Net (Note 7)                                                              132,814              166,609
      Forfeited Property, Net (Note 8)                                                                          141,354              145,111
      General Property, Plant and Equipment, Net (Note 9)                                                    10,017,323           10,186,144
      Advances and Prepayments                                                                                  444,174              760,870
      Other Assets (Note 10)                                                                                      4,677                5,585
Total Assets                                                                                       $         41,418,760       $   43,190,714

LIABILITIES (Note 11)
      Intragovernmental
          Accounts Payable                                                                         $                339,253   $      302,575
          Accrued Federal Employees' Compensation Act Liabilities                                                   266,865          260,652
          Custodial Liabilities (Note 21)                                                                         1,174,698        1,114,298
          Other Liabilities (Note 15)                                                                               204,056          368,713
      Total Intragovernmental                                                                                     1,984,872        2,046,238

      Accounts Payable                                                                                        4,203,261            4,108,056
      Accrued Grant Liabilities                                                                                 387,629              604,119
      Actuarial Federal Employees' Compensation Act Liabilities                                               1,632,616            1,474,278
      Accrued Payroll and Benefits                                                                              269,621              653,909
      Accrued Annual and Compensatory Leave Liabilities                                                         826,369              838,252
      Environmental and Disposal Liabilities (Note 12)                                                           76,676               74,441
      Deferred Revenue                                                                                          621,440              556,464
      Seized Cash and Monetary Instruments (Note 14)                                                          1,485,687            1,587,167
      Contingent Liabilities (Note 16)                                                                           26,571               28,671
      Capital Lease Liabilities (Note 13)                                                                         8,763               17,096
      Radiation Exposure Compensation Act Liabilities (Note 25)                                                 660,465              731,237
      September 11th Victim Compensation Fund (Note 25)                                                       2,751,712            2,766,400
      Other Liabilities (Note 15)                                                                               411,311              455,657
Total Liabilities                                                                                  $         15,346,993       $   15,941,985

NET POSITION
      Unexpended Appropriations - Funds from Dedicated Collections (Note 17)                       $             35,768       $       25,963
      Unexpended Appropriations - All Other Funds                                                             8,649,121           10,568,815
      Cumulative Results of Operations - Funds from Dedicated Collections (Note 17)                          11,940,472           10,949,539
      Cumulative Results of Operations - All Other Funds                                                      5,446,406            5,704,412
Total Net Position                                                                                 $         26,071,767       $   27,248,729

Total Liabilities and Net Position                                                                 $         41,418,760       $   43,190,714




                                     The accompanying notes are an integral part of these financial statements.




                                                                      -40-
                                                     U. S. Department of Justice
                                                Consolidated Statements of Net Cost
                                      For the Fiscal Years Ended September 30, 2013 and 2012

Dollars in Thousands

                                      Gross Costs                                     Less: Earned Revenues                       Net Cost of
                       Intra-          With the                              Intra-         With the                              Operations
           FY      governmental           Public            Total       governmental          Public             Total            (Note 18)



Goal 1    2013      $ 1,353,549      $    3,940,664    $    5,294,213    $    399,097     $       16,391    $      415,488    $        4,878,725
          2012      $ 1,426,981      $    4,300,297    $    5,727,278    $    439,321     $       30,912    $      470,233    $        5,257,045



Goal 2    2013         3,649,282         11,371,420        15,020,702         712,127            720,450          1,432,577           13,588,125
          2012         3,361,356         16,698,326        20,059,682         468,597            646,666          1,115,263           18,944,419



Goal 3    2013         2,325,612         11,623,920        13,949,532         665,460            599,892          1,265,352           12,684,180
          2012         2,729,014         12,794,400        15,523,414         867,132            663,176          1,530,308           13,993,106



Total     2013      $ 7,328,443      $ 26,936,004      $ 34,264,447      $   1,776,684    $    1,336,733    $     3,113,417   $       31,151,030
          2012      $ 7,517,351      $ 33,793,023      $ 41,310,374      $   1,775,050    $    1,340,754    $     3,115,804   $       38,194,570



Goal 1   Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
Goal 2   Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
Goal 3   Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal,
         State, Local, Tribal, and International Levels




                                   The accompanying notes are an integral part of these financial statements.




                                                                        -41-
                                                      U. S. Department of Justice
                                           Consolidated Statements of Changes in Net Position
                                             For the Fiscal Year Ended September 30, 2013

Dollars in Thousands

                                                                                                 2013
                                                          Funds from                 All Other
                                                      Dedicated Collections           Funds                  Eliminations           Total
Unexpended Appropriations
  Beginning Balances                              $                   25,963    $         10,568,815     $                  -   $     10,594,778

  Budgetary Financing Sources
     Appropriations Received                                          80,267              28,042,760                        -         28,123,027
     Appropriations Transferred-In/Out                                 5,343                 250,502                        -            255,845
     Other Adjustments                                                (3,419)             (2,547,144)                       -         (2,550,563)
     Appropriations Used                                             (72,386)            (27,665,812)                       -        (27,738,198)

  Total Budgetary Financing Sources                                    9,805              (1,919,694)                       -         (1,909,889)

  Unexpended Appropriations                       $                   35,768    $          8,649,121     $                  -   $      8,684,889



Cumulative Results of Operations
  Beginning Balances                              $               10,949,539    $          5,704,412     $                  -   $     16,653,951

  Adjustments (Note 26)
     Changes in Accounting Principles                                 (2,091)               (272,557)                       -           (274,648)
  Beginning Balances, as Adjusted                                 10,947,448               5,431,855                        -         16,379,303

  Budgetary Financing Sources
     Other Adjustments                                                     -                 (26,000)                       -            (26,000)
     Appropriations Used                                              72,386              27,665,812                        -         27,738,198
     Nonexchange Revenues                                          1,496,030                     322                        -          1,496,352
     Donations and Forfeitures of Cash and
        Cash Equivalents                                           1,826,480                       -                        -          1,826,480
     Transfers-In/Out Without Reimbursement                                -                 140,230                        -            140,230

  Other Financing Sources
     Donations and Forfeitures of Property                           185,769                       3                        -           185,772
     Transfers-In/Out Without Reimbursement                           (7,280)                  9,360                        -             2,080
     Imputed Financing from Costs Absorbed
        by Others (Note 19)                                           15,218                 807,510               (21,069)              801,659
     Other Financing Sources                                               -                  (6,166)                    -                (6,166)
  Total Financing Sources                                          3,588,603              28,591,071               (21,069)           32,158,605

  Net Cost of Operations                                          (2,595,579)            (28,576,520)               21,069           (31,151,030)

  Net Change                                                         993,024                  14,551                        -          1,007,575

  Cumulative Results of Operations                $               11,940,472    $          5,446,406     $                  -   $     17,386,878

Net Position                                      $               11,976,240    $         14,095,527     $                  -   $     26,071,767




                                    The accompanying notes are an integral part of these financial statements.




                                                                     -42-
                                                      U. S. Department of Justice
                                           Consolidated Statements of Changes in Net Position
                                             For the Fiscal Year Ended September 30, 2012

Dollars in Thousands

                                                                                                 2012
                                                          Funds from                 All Other
                                                      Dedicated Collections           Funds                  Eliminations           Total
Unexpended Appropriations
  Beginning Balances                              $                   21,727    $         11,952,581     $                  -   $     11,974,308

  Budgetary Financing Sources
     Appropriations Received                                          72,044              27,621,645                        -         27,693,689
     Appropriations Transferred-In/Out                                     -                 330,471                        -            330,471
     Other Adjustments                                                     -                (152,761)                       -           (152,761)
     Appropriations Used                                             (67,808)            (29,183,121)                       -        (29,250,929)
  Total Budgetary Financing Sources                                    4,236              (1,383,766)                       -         (1,379,530)

  Unexpended Appropriations                       $                   25,963    $         10,568,815     $                  -   $     10,594,778

Cumulative Results of Operations
  Beginning Balances                              $                9,066,816    $          8,482,489     $                  -   $     17,549,305

  Budgetary Financing Sources
     Other Adjustments                                                     -                 (40,000)                       -            (40,000)
     Appropriations Used                                              67,808              29,183,121                        -         29,250,929
     Nonexchange Revenues                                          2,802,985                     975                        -          2,803,960
     Donations and Forfeitures of Cash and
        Cash Equivalents                                           4,194,465                       -                        -          4,194,465
     Transfers-In/Out Without Reimbursement                                -                 109,395                        -            109,395

  Other Financing Sources
     Donations and Forfeitures of Property                           120,245                      30                        -           120,275
     Transfers-In/Out Without Reimbursement                         (149,908)                137,285                        -           (12,623)
     Imputed Financing from Costs Absorbed
        by Others (Note 19)                                           15,446                 887,286               (24,718)              878,014
     Other Financing Sources                                               -                  (5,199)                    -                (5,199)
  Total Financing Sources                                          7,051,041              30,272,893               (24,718)           37,299,216

  Net Cost of Operations                                          (5,168,318)            (33,050,970)               24,718           (38,194,570)

  Net Change                                                       1,882,723              (2,778,077)                       -           (895,354)

  Cumulative Results of Operations                $               10,949,539    $          5,704,412     $                  -   $     16,653,951

Net Position                                      $               10,975,502    $         16,273,227     $                  -   $     27,248,729




                                    The accompanying notes are an integral part of these financial statements.




                                                                     -43-
                                                  U. S. Department of Justice
                                        Combined Statements of Budgetary Resources
                                   For the Fiscal Years Ended September 30, 2013 and 2012

Dollars in Thousands                                                                                2013               2012


Budgetary Resources:
  Unobligated Balance, Net, Brought Forward, October 1                               $         4,036,432     $    3,882,323

  Recoveries of Prior Year Unpaid Obligations                                                  1,029,004            877,535
  Other Changes in Unobligated Balance                                                           (18,946)           (12,383)
  Unobligated Balance from Prior Year Budget Authority, Net                                    5,046,490          4,747,475
  Appropriations (discretionary and mandatory)                                                29,174,293         33,346,750
  Spending Authority from Offsetting Collections (discretionary and mandatory)                 5,275,914          7,193,483
  Total Budgetary Resources                                                          $        39,496,697     $   45,287,708


Status of Budgetary Resources:
  Obligations Incurred (Note 20)                                                              35,501,730         41,251,276
  Unobligated Balance, End of Period:
     Apportioned                                                                               2,757,986          2,730,163
     Exempt from Apportionment                                                                   266,607            218,191
     Unapportioned                                                                               970,374          1,088,078
  Total Unobligated Balance - End of Period                                                    3,994,967          4,036,432
Total Status of Budgetary Resources                                                  $        39,496,697     $   45,287,708

Change in Obligated Balance:
  Unpaid Obligations:
    Unpaid obligations, Brought Forward, October 1                                   $         16,930,377    $    16,676,653
    Obligations Incurred                                                                       35,501,730         41,251,276
    Outlays, Gross (-)                                                                        (36,605,083)       (40,120,017)
    Recoveries of Prior Year Unpaid Obligations (-)                                            (1,029,004)          (877,535)
    Unpaid Obligations, End of Period                                                          14,798,020         16,930,377
  Uncollected Payments:
    Uncollected Payments from Federal Sources, Brought Forward, October 1 (-)                  (1,890,361)        (1,790,659)
    Change in Uncollected Customer Payments from Federal Sources                                  223,456            (99,702)
    Uncollected Customer Payments from Federal Sources                                         (1,666,905)        (1,890,361)
  Memorandum (non-add) Entries:
    Obligated balance, Start of Period                                               $        15,040,016     $   14,885,994
    Obligated balance, End of Period                                                 $        13,131,115     $   15,040,016



Budgetary Authority and Outlays, Net:
  Budgetary Authority, Gross (discretionary and mandatory)                           $        34,450,207     $   40,540,233
  Less: Actual Offsetting Collections (discretionary and mandatory)                            5,499,369          7,093,777
  Change in Uncollected Customer Payments from Federal Sources                                   223,456            (99,702)
     (discretionary and mandatory)
  Budget Authority, Net (discretionary and mandatory)                                $        29,174,294     $   33,346,754

  Outlays, Gross (discretionary and mandatory)                                       $        36,605,083     $   40,120,017
  Less: Actual Offsetting Collections (discretionary and mandatory)                            5,499,369          7,093,777
  Outlays, Net (discretionary and mandatory)                                                  31,105,714         33,026,240
  Less: Distributed Offsetting Receipts                                                          933,877          1,425,127
  Agency Outlays, Net (discretionary and mandatory)                                  $        30,171,837     $   31,601,113




                             The accompanying notes are an integral part of these financial statements.




                                                                      -44-
                                                   U. S. Department of Justice
                                           Combined Statements of Custodial Activity
                                        For the Years Ended September 30, 2013 and 2012

Dollars in Thousands                                                                                                    2013              2012

Revenue Activity
Sources of Cash Collections
    Delinquent Federal Civil Debts as Required by the Federal
         Debt Recovery Act of 1986                                                                        $       5,595,261     $   6,995,798
    Fees and Licenses                                                                                                43,392            36,710
    Fines, Penalties and Restitution Payments - Civil                                                                86,845            21,554
    Fines, Penalties and Restitution Payments - Criminal                                                             42,603            39,970
    Miscellaneous                                                                                                    42,030             4,619
         Total Cash Collections                                                                                   5,810,131         7,098,651
Accrual Adjustments                                                                                                    (914)            (1,405)
Total Custodial Revenue                                                                                           5,809,217         7,097,246

Disposition of Collections
    Transferred to Federal Agencies
         Library of Congress                                                                                            (509)                -
         U.S. Department of Agriculture                                                                             (136,258)         (105,670)
         U.S. Department of Commerce                                                                                  (6,000)           (3,746)
         U.S. Department of the Interior                                                                             (36,174)         (129,015)
         U.S. Department of Justice                                                                                  (99,558)          (21,085)
         U.S. Department of Labor                                                                                     (3,897)           (9,175)
         U.S. Postal Service                                                                                         (26,790)           (7,675)
         U.S. Department of State                                                                                     (2,208)          (26,613)
         U.S. Department of the Treasury                                                                          (2,025,807)         (917,662)
         Office of Personnel Management                                                                              (43,447)         (157,714)
         National Credit Union Administration                                                                             (1)                -
         Federal Communications Commission                                                                              (757)             (310)
         Social Security Administration                                                                                 (699)             (921)
         Smithsonian Institution                                                                                          (8)               (8)
         U.S. Department of Veterans Affairs                                                                        (123,179)         (125,354)
         Equal Employment Opportunity Commission                                                                          (2)                -
         General Services Administration                                                                             (51,966)         (130,087)
         Securities and Exchange Commission                                                                               (3)             (411)
         Federal Deposit Insurance Corporation                                                                          (419)              (59)
         Railroad Retirement Board                                                                                      (414)             (288)
         Tennessee Valley Authority                                                                                     (291)               (8)
         Environmental Protection Agency                                                                            (185,060)         (189,137)
         U.S. Department of Transportation                                                                            (5,185)          (13,674)
         U.S. Department of Homeland Security                                                                       (131,067)          (66,585)
         Agency for International Development                                                                        (44,212)             (511)
         Small Business Administration                                                                               (14,792)           (6,371)
         U.S. Department of Health and Human Services                                                             (1,151,278)       (1,283,167)
         National Aeronautics and Space Administration                                                                (5,288)             (725)
         Export-Import Bank of the United States                                                                     (13,855)          (17,264)
         U.S. Department of Housing and Urban Development                                                            (24,226)       (1,129,547)
         National Archives & Records Administration                                                                        -               (29)
         U.S. Department of Energy                                                                                   (10,585)           (3,313)
         U.S. Department of Education                                                                                (23,219)          (14,452)
         Independent Agencies                                                                                       (114,607)          (63,619)
         Treasury General Fund                                                                                      (676,060)         (705,503)
         U.S. Department of Defense                                                                                 (120,707)         (217,607)
    Transferred to the Public                                                                                       (416,166)         (508,622)
    (Increase)/Decrease in Amounts Yet to be Transferred                                                             (51,378)         (566,077)
    Refunds and Other Payments                                                                                      (104,834)         (513,185)
    Retained by the Reporting Entity                                                                                (158,311)         (162,057)
Total Disposition of Collections                                                                                  (5,809,217)       (7,097,246)

Net Custodial Activity (Note 21)                                                                          $                -    $            -



                                     The accompanying notes are an integral part of these financial statements.




                                                                      -45-
               FY 2013 U.S. Department of Justice Annual Financial Statements

                        Notes to the Principal Financial Statements
                              (Dollars in Thousands, Except as Noted)

Note 1. Summary of Significant Accounting Policies

A.     Reporting Entity

       The Department of Justice (Department) has a wide range of responsibilities which include:
       detecting, apprehending, prosecuting, and incarcerating criminal offenders; operating federal
       prison factories; upholding the civil rights of all Americans; enforcing laws to protect the
       environment; ensuring healthy competition of business in the United States’ free enterprise
       system; safeguarding the consumer from fraudulent activity; carrying out the immigration laws of
       the United States; and representing the American people in all legal matters involving the U.S.
       Government. Under the direction of the Attorney General, these responsibilities are discharged
       by the components of the Department.

       For purposes of these consolidated/combined financial statements, the following components
       comprise the Department=s reporting entity:

              Assets Forfeiture Fund and Seized Asset Deposit Fund (AFF/SADF)
              Offices, Boards and Divisions (OBDs)
              U.S. Marshals Service (USMS)
              Office of Justice Programs (OJP)
              Drug Enforcement Administration (DEA)
              Federal Bureau of Investigation (FBI)
              Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF)
              Bureau of Prisons (BOP)
              Federal Prison Industries, Inc. (FPI)




                           These notes are an integral part of the financial statements.




                                                      -46-
            FY 2013 U.S. Department of Justice Annual Financial Statements

                      Notes to the Principal Financial Statements
                              (Dollars in Thousands, Except as Noted)

B.   Basis of Presentation

     These financial statements have been prepared from the books and records of the Department in
     accordance with United States generally accepted accounting principles issued by the Federal
     Accounting Standards Advisory Board (FASAB) and presentation guidelines in the Office of
     Management and Budget (OMB) Circular A-136, Financial Reporting Requirements. These
     financial statements are different from the financial reports prepared pursuant to OMB directives
     which are used to monitor and control the use of the Department=s budgetary resources. The
     accompanying financial statements include the accounts of all funds under the Department=s control.
     To ensure that the Department financial statements are meaningful at the entity level and to enhance
     reporting consistency within the Department, Inventory and Related Property, Other Assets, and
     Other Liabilities, as defined by OMB Circular A-136, have been disaggregated on the Consolidated
     Balance Sheets. These include Forfeited Property, Net; Advances and Prepayments; Accrued Grant
     Liabilities; Accrued Federal Employees’ Compensation Act (FECA) Liabilities; Custodial
     Liabilities; Accrued Payroll and Benefits; Accrued Annual and Compensatory Leave Liabilities;
     Deferred Revenue; Seized Cash and Monetary Instruments; Contingent Liabilities; Capital Lease
     Liabilities; Radiation Exposure Compensation Act (RECA) Liabilities; and September 11th Victim
     Compensation Fund Liabilities.

C.   Basis of Consolidation

     The consolidated/combined financial statements of the Department include the accounts of the
     AFF/SADF, OBDs, USMS, OJP, DEA, FBI, ATF, BOP, and FPI. All significant proprietary
     intra-departmental transactions and balances have been eliminated in consolidation. The
     Statements of Budgetary Resources and Statements of Custodial Activity are combined
     statements for FYs 2013 and 2012, and as such, intra-departmental transactions have not been
     eliminated.

D.   Basis of Accounting

     Transactions are recorded on the accrual and budgetary bases of accounting. Under the accrual
     basis, revenues are recorded when earned and expenses are recorded when incurred, regardless of
     when cash is exchanged. Under the budgetary basis, however, funds availability is recorded
     based upon legal considerations and constraints. As a result, certain line items on the proprietary
     financial statements may not equal similar line items on the budgetary financial statements. FPI
     is non-appropriated and self-sustaining. While FPI performs budgetary accounting in preparing
     its financial statements, FPI does not record budgetary information at the transaction level.

     Custodial activity reported on the Combined Statements of Custodial Activity is prepared on the
     modified cash basis. Civil and Criminal Debt Collections are recorded when the Department
     receives payment from debtors. Accrual adjustments are made related to collections of fees and
     licenses.

     The financial statements should be read with the realization that they are for a component of the
     U.S. Government, a sovereign entity. One implication of this is that liabilities cannot be
     liquidated without legislation that provides resources and legal authority to do so.

                           These notes are an integral part of the financial statements.




                                                      -47-
               FY 2013 U.S. Department of Justice Annual Financial Statements

                         Notes to the Principal Financial Statements
                               (Dollars in Thousands, Except as Noted)

E. Non-Entity Assets

   Non-entity assets are not available for use by the Department and consist primarily of restricted
   undisbursed civil and criminal debt collections, seized cash, accounts receivable, and other monetary
   assets.

F. Fund Balance with U.S. Treasury and Cash

   Funds with the Department of the Treasury (Treasury) represent primarily appropriated, revolving,
   and trust funds available to pay current liabilities and finance future authorized purchases. The
   Treasury, as directed by authorized certifying officers, processes cash receipts and disbursements.
   The Department does not, for the most part, maintain cash in commercial bank accounts. Certain
   receipts, however, are processed by commercial banks for deposit into individual accounts maintained
   at the Treasury. The Department=s cash and other monetary assets consist of undeposited collections,
   imprest funds, cash used in undercover operations, cash held as evidence, and seized cash.

G. Investments

   Investments are market-based Treasury securities issued by the Bureau of Public Debt. When
   securities are purchased, the investment is recorded at face value (the value at maturity). The
   Department=s intent is to hold investments to maturity, unless the invested funds are needed to sustain
   operations. No provision is made for unrealized gains or losses on these securities because, in the
   majority of cases, they are held to maturity. The market value of the investments is the current
   market value at the end of the reporting period. It is calculated by using the “End of Day” price listed
   in The FedInvest Price File which can be found on the Bureau of Public Debt website
   (http://www.fedinvest.gov/). Investments are reported on the Consolidated Balance Sheets at their net
   value, the face value plus or minus any unamortized premium or discount. Premiums and discounts
   are amortized over the life of the Treasury security. The interest method is used for the amortization
   of premium and discount of Treasury notes and the straight-line method is used for Treasury bills.
   Amortization is based on the straight-line method over the term of the securities.

   The AFF, the U.S. Trustee System Fund, and the Federal Prison Commissary Fund are three Funds
   from Dedicated Collections that invest in Treasury securities. The Treasury does not set aside assets
   to pay future expenditures associated with Funds from Dedicated Collections. Instead, the cash
   generated from Funds from Dedicated Collections is used by the Treasury for general government
   purposes. When these funds redeem their Treasury securities to make expenditures, the Treasury will
   finance the expenditures in the same manner that it finances all other expenditures.

   Treasury securities are issued to the funds as evidence of fund receipts and provide the funds with the
   authority to draw upon the U.S. Treasury for future authorized expenditures. Treasury securities held
   by Funds from Dedicated Collections are an asset of the fund and a liability of the Treasury, so they
   are eliminated in consolidation for the U.S. Government-wide financial statements.




                            These notes are an integral part of the financial statements.




                                                       -48-
            FY 2013 U.S. Department of Justice Annual Financial Statements

                      Notes to the Principal Financial Statements
                              (Dollars in Thousands, Except as Noted)

H.   Accounts Receivable

     Net accounts receivable includes reimbursement and refund receivables due from federal
     agencies and the public, less the allowance for doubtful accounts. Generally, most
     intragovernmental accounts receivable are considered fully collectible. The allowance for
     doubtful accounts for public receivables is estimated based on past collection experience and
     analysis of outstanding receivable balances at year end.

I.   Inventory and Related Property

     Inventory is maintained primarily for the manufacture of goods for sale to customers. This
     inventory is composed of three categories: Raw Materials, Work in Process, and Finished Goods.
     Raw material inventory value is based upon moving average costs. Inventories are valued at the
     lower of average cost or market value (LCM) and include materials, labor and manufacturing
     overhead. Market value is calculated on the basis of the contractual or anticipated selling price,
     less allowance for administrative expenses. DOJ values its finished goods and sub-assembly
     items at a standard cost that is periodically adjusted to approximate actual cost. DOJ has
     established inventory allowances to account for LCM adjustments and obsolete items that may
     not be utilized in future periods.

     Additional inventories consist of new and rehabilitated office furniture, equipment and supplies
     used for the repair of airplanes, administrative supplies and materials, commissary sales to
     inmates (sundry items), metals, plastics, electronics, graphics, and optics.

J.   General Property, Plant and Equipment

     DOJ Financial Management Policy Memorandum (FMPM) 13-12, Capitalization of General
     Property, Plant and Equipment and Internal Use Software, was issued in FY 2013 with an
     effective date for reporting periods ending after September 30, 2014. Early implementation of the
     policy’s increased thresholds was encouraged beginning October 1, 2012. The majority of the
     Department’s components implemented or partially implemented the increased capitalization
     thresholds in FY 2013. Partial implementation included Internal Use Software only. Full
     implementation is required for DOJ components by the beginning of FY 2015.

                                         FY 2013                       FY 2013
      Department Components         Fully Implemented           Partially Implemented     FY 2014 or beyond
      AFF/SADF                              
      OBDs                                  
      USMS                                                                  
      OJP                                    
      DEA                                                                   
      FBI                                    
      ATF                                                                                        
      BOP                                                                   
      FPI                                   N/A                            N/A                  N/A


                          These notes are an integral part of the financial statements.




                                                     -49-
             FY 2013 U.S. Department of Justice Annual Financial Statements

                       Notes to the Principal Financial Statements
                             (Dollars in Thousands, Except as Noted)


J.   General Property, Plant and Equipment (continued)

     FPI, as a revolving fund, is an exception to FMPM 13-12, which states that “Revolving Funds,
     Working Capital Funds, and Trust Fund entities may establish their own thresholds on
     capitalization of general PP&E and IUS projects.” These thresholds must not conflict with
     FMPM 13-12, but may be more restrictive, at the discretion of the entity. Appropriation funded
     projects must comply with the capitalization thresholds as outlined in FMPM 13-12, as listed
     below.

           Type of Property         New Capitalization Threshold Old Capitalization Threshold
       Real Property                                        $250                        $100
       Personal Property                                     $50                          $25
         Aircraft                                           $100                        $100
       Internal Use Software                              $5,000                        $500

     Except for land, all general PP&E will be capitalized when the cost of acquiring or improving the
     property meets the threshold noted in the table above and has a useful life of two or more years.
     Land is capitalized regardless of the acquisition cost. Except for land, all general PP&E is
     depreciated or amortized, based on historical cost, using the straight-line method over the
     estimated useful life of the asset.

     For FY 2012, except for BOP and FPI, Department acquisitions of personal property, excluding
     internal use software, costing $25 or more is capitalized if the asset has an estimated useful life of
     two or more years. BOP and FPI capitalize personal property acquisitions over $5 and $10,
     respectively. Personal property is depreciated, based on historical cost, using the straight-line
     method over the estimated useful life of the asset. Land is never depreciated.

K.   Advances and Prepayments

     Advances and prepayments, classified as assets on the Consolidated Balance Sheets, consist
     primarily of funds disbursed to grantees in excess of total expenditures made by those grantees to
     third parties, funds advanced to state and local participants in the DEA Domestic Cannabis
     Eradication and Suppression Program, and travel advances issued to federal employees for
     official travel. Travel advances are limited to meals and incidental expenses expected to be
     incurred by the employees during official travel. Payments in advance of the receipt of goods and
     services are recorded as prepaid charges at the time of payment and are recognized as expenses
     when the goods and services are received.




                          These notes are an integral part of the financial statements.




                                                     -50-
            FY 2013 U.S. Department of Justice Annual Financial Statements

                       Notes to the Principal Financial Statements
                             (Dollars in Thousands, Except as Noted)

L.   Forfeited and Seized Property

     Forfeited property is property for which the title has passed to the U.S. Government. This
     property is recorded at the estimated fair market value at the time of forfeiture and is not adjusted
     for any subsequent increases and decreases in estimated fair market value. The value of the
     property is reduced by the estimated liens of record.

     Property is seized in consequence of a violation of public law. Seized property can include
     monetary instruments, real property, and tangible personal property of others in the actual or
     constructive possession of the custodial agency. Most non-cash property is held by the USMS
     from the point of seizure until its disposition. This property is recorded at the estimated fair
     market value at the time of seizure and is not adjusted for any subsequent increases and decreases
     in estimated fair market value.

M.   Liabilities

     Liabilities represent the monies or other resources that are likely to be paid by the Department as
     the result of a transaction or event that has already occurred. However, no liability can be paid by
     the Department absent proper budget authority. Liabilities that are not funded by the current year
     appropriation are classified as liabilities not covered by budgetary resources in Note 11. Accrued
     payroll and benefits are accrued based on the number of days in a pay period earned but not paid
     to employees at the end of the fiscal year.

N.   Accrued Grant Liabilities

     Disbursements of grant funds are recognized as expenses at the time of disbursement. However,
     some grant recipients incur expenditures prior to initiating a request for disbursement based on
     the nature of the expenditures. The OBDs and OJP accrue a liability for expenditures incurred by
     grantees prior to receiving grant funds for expenditures. The amount to be accrued is determined
     through an analysis of historic grant expenditures. These estimates are based on the most current
     information available at the time the financial statements are prepared.

     Estimates for the grant accrual contain assumptions that have an impact on the financial
     statements. The key assumptions used in the grant accrual are: grantees have consistent spending
     patterns throughout the life of the grant, grantees will drawdown throughout the life of the grant,
     and the grant has a determined end date. The primary elements of these assumptions include, but
     are not limited to, type of grant that has been awarded, grant period, accounting basis used by the
     grantees, and the grant expenditure rate.




                          These notes are an integral part of the financial statements.




                                                     -51-
            FY 2013 U.S. Department of Justice Annual Financial Statements

                       Notes to the Principal Financial Statements
                             (Dollars in Thousands, Except as Noted)

O.   Contingencies and Commitments

     The Department is involved in various administrative proceedings, legal actions, and claims. The
     Consolidated Balance Sheets include an estimated liability for those legal actions where
     management and the Chief Counsel consider adverse decisions “probable” and amounts are
     reasonably estimable. Legal actions where management and the Chief Counsel consider adverse
     decisions “probable” or “reasonably possible” and the amounts are reasonably estimable are
     disclosed in Note 16. However, there are cases where amounts have not been accrued or
     disclosed because the amounts of the potential loss cannot be estimated or the likelihood of an
     unfavorable outcome is considered “remote”.

P.   Annual, Sick, and Other Leave

     Annual and compensatory leave is expensed with an offsetting liability as it is earned and the
     liability is reduced as leave is taken. Each year, the balance in the accrued annual leave liability
     account is adjusted to reflect current pay rates. To the extent current or prior year appropriations
     are not available to fund annual and compensatory leave earned but not taken, funding will be
     obtained from future financing sources. Sick leave and other types of nonvested leave are
     expensed as taken.

Q.   Interest on Late Payments

     Pursuant to the Prompt Payment Act, 31 U.S.C. ' 3901-3907, the Department pays interest on
     payments for goods or services made to business concerns after the due date. The due date is
     generally 30 days after receipt of a proper invoice or acceptance of the goods or services,
     whichever is later.

R.   Retirement Plan

     With few exceptions, employees of the Department are covered by one of the following
     retirement programs:

     1. Employees hired before January 1, 1984, are covered by the Civil Service Retirement System
        (CSRS). For employees covered by CSRS, the Department contributes 7% of the employees’
        gross pay for regular and 7.5% for law enforcement officers’ retirement.

     2. Employees hired between January 1, 1984 and December 31, 2012, are covered by the
        Federal Employees Retirement System (FERS). For employees covered by FERS, the
        Department contributes 11.9% of the employees’ gross pay for regular and 26.3% for law
        enforcement officers’ retirement.

     3. Employees hired after January 1, 2013, are covered by the Federal Employees Retirement
        System-Revised Annuity Employees (FERS-RAE) System. For employees covered by
        FERS-RAE, the Department contributes 9.6% of the employees’ gross pay for regular and
        24.0% for law enforcement officers’ retirement.


                          These notes are an integral part of the financial statements.




                                                     -52-
            FY 2013 U.S. Department of Justice Annual Financial Statements

                       Notes to the Principal Financial Statements
                             (Dollars in Thousands, Except as Noted)

R.   Retirement Plan (continued)

     All employees are eligible to contribute to the Federal Thrift Savings Plan (TSP). For those
     employees covered by the FERS and FERS-RAE, a TSP account is automatically established to
     which the Department is required to contribute an additional 1% of gross pay and match
     employee contributions up to 4%. No government contributions are made to the TSP accounts
     established by the CSRS employees. The Department does not report CSRS, FERS, or
     FERS-RAE assets, accumulated plan benefits, or unfunded liabilities, if any, which may be
     applicable to its employees. Such reporting is the responsibility of the Office of Personnel
     Management (OPM). Statement of Federal Financial Accounting Standards (SFFAS) No. 5,
     Accounting for Liabilities of the Federal Government, requires employing agencies to recognize
     the cost of pensions and other retirement benefits during their employees= active years of service.
     Refer to Note 19, Imputed Financing from Costs Absorbed by Others, for additional details.

S.   Federal Employee Compensation Benefits

     The FECA provides income and medical cost protection to covered federal civilian employees
     injured on the job, employees who have incurred a work-related occupational disease, and
     beneficiaries of employees whose death is attributable to a job-related injury or occupational
     disease. The total FECA liability consists of an actuarial and an accrued portion as discussed
     below.

     Actuarial Liability: The Department of Labor (DOL) calculates the liability of the federal
     government for future compensation benefits, which includes the expected liability for death,
     disability, medical, and other approved costs. The liability is determined using the paid-losses
     extrapolation method calculated over the next 37-year period. This method utilizes historical
     benefit payment patterns related to a specific incurred period to predict the ultimate payments
     related to that period. The projected annual benefit payments are discounted to present value.
     The resulting federal government liability is then distributed by agency. The Department’s
     portion of this liability includes the estimated future cost of death benefits, workers'
     compensation, medical, and miscellaneous cost for approved compensation cases for the
     Department employees. The Department liability is further allocated to component reporting
     entities on the basis of actual payments made to the FECA Special Benefits Fund (SBF) for the
     three prior years as compared to the total Department payments made over the same period.

     The FECA actuarial liability is recorded for reporting purposes only. This liability constitutes an
     extended future estimate of cost, which will not be obligated against budgetary resources until the
     fiscal year in which the cost is actually billed to the Department. The cost associated with this
     liability cannot be met by the Department without further appropriation action.

     Accrued Liability: The accrued FECA liability is the amount owed to the DOL for the benefits
     paid from the FECA SBF directly to Department employees.




                          These notes are an integral part of the financial statements.




                                                     -53-
            FY 2013 U.S. Department of Justice Annual Financial Statements

                      Notes to the Principal Financial Statements
                             (Dollars in Thousands, Except as Noted)

T.   Intragovernmental Activity

     Intragovernmental costs and exchange revenue represent transactions made between two
     reporting entities within the federal government. Costs and earned revenues with the public
     represent exchange transactions made between the reporting entity and a non-federal entity. The
     classification of revenue or cost as “intragovernmental” or “with the public” is defined on a
     transaction-by-transaction basis. The purpose of this classification is to enable the federal
     government to prepare consolidated financial statements, not to match public and
     intragovernmental revenue with the costs incurred to produce public and intragovernmental
     revenue.

U.   Revenues and Other Financing Sources

     The Department receives the majority of funding needed to support its programs through
     Congressional appropriations. The Department receives annual, multi-year, and no-year
     appropriations that may be used, within statutory limits, for operating and capital expenditures.
     Additional funding is obtained through exchange revenues, nonexchange revenues, and transfers-
     in.

     Appropriations Used are recognized as budgetary financing sources at the time the related
     program or administrative expenses are incurred. Exchange revenues are recognized when
     earned, for example, when goods have been delivered or services rendered. Nonexchange
     revenues are resources that the Government demands or receives, for example, forfeiture revenue
     and fines and penalties.

     The Department=s exchange revenue consists of the following activities: licensing fees to
     manufacture and distribute controlled substances; services rendered for legal activities; space
     management; data processing services; sale of merchandise and telephone services to inmates;
     sale of manufactured goods and services to other federal agencies; and other services. Fees are
     set by law and are periodically evaluated in accordance with OMB guidance.

     The Department=s nonexchange revenue consists of forfeiture income resulting from the sale of
     forfeited property, penalties in lieu of forfeiture, recovery of returned asset management cost,
     judgment collections, and other miscellaneous income. Other nonexchange revenue includes the
     OJP Crime Victims Fund receipts, ATF fees from firearms and ammunition industries, and
     AFF/SADF interest on investments with the Treasury.

     The Department’s deferred revenue includes licenses with DEA that are valid for multiple years.
     These monies are recorded as liabilities in the financial statements. Deferred revenue also
     includes forfeited property held for sale. When the property is sold, deferred revenue is reversed
     and forfeiture revenue in the amount of the gross proceeds of the sale is recorded.




                          These notes are an integral part of the financial statements.




                                                     -54-
             FY 2013 U.S. Department of Justice Annual Financial Statements

                       Notes to the Principal Financial Statements
                             (Dollars in Thousands, Except as Noted)

V.   Funds from Dedicated Collections

     SFFAS No. 27, Identifying and Reporting Earmarked Funds, as amended by SFFAS 43 Funds
     from Dedicated Collections: Amending Statement of Federal Financial Accounting Standards
     27, Identifying and Reporting Earmarked Funds (SFFAS No. 27, as amended), defines ‘Funds
     from Dedicated Collections’ as being financed by specifically identified revenues, provided to the
     government by non-federal sources, often supplemented by other financing sources, which
     remain available over time. These specifically identified revenues and other financing sources
     are required by statute to be used for designated activities, benefits or purposes, and must be
     accounted for separately from the Government’s general revenues. The three required criteria for
     a fund from dedicated collections are:

     1. A statute committing the federal government to use specifically identified revenues and/or
        other financing sources that are originally provided to the federal government by a non-
        federal source only for designated activities, benefits or purposes;
     2. Explicit authority for the funds to retain revenues and/or other financing sources not used in
        the current period for future use to finance the designated activities, benefits, or purposes; and
     3. A requirement to account for and report on the receipt, use, and retention of the revenues and
        other financing sources that distinguishes the fund from the federal government’s general
        revenues.

     The following funds meet the definition of a fund from dedicated collections: AFF, U.S. Trustee
     System Fund, Antitrust Division, Crime Victims Fund, Diversion Control Fee Account, and
     Federal Prison Commissary Fund.

W.   Allocation Transfer of Appropriation

     The Department is a party to allocation transfers with other federal agencies as a transferring
     (parent) entity and/or a receiving (child) entity. Allocation transfers are legal delegations by one
     department of its authority to obligate budget authority and outlay funds to another department.
     Generally, all financial activity related to these allocation transfers (e.g., budget authority,
     obligations, outlays) is reported in the financial statements of the parent entity, from which the
     underlying legislative authority, appropriations, and budget apportionments are derived. Two
     exceptions to this general rule affecting the Department include the funds transferred from the
     Judicial Branch to the USMS, and funds transferred from the Executive Office of the President to
     OJP. Per OMB’s guidance, USMS and OJP report all activity relative to these allocation
     transfers in the respective financial statements.

     The activity related to these transfers, included as part of these financial statements, is highlighted
     below:

     OJP, as the parent, transfers funds from the Crime Victims Fund to the Department of Health and
     Human Services (HHS). This transfer is required by 42 U.S.C. §10603a {Sec. 14-4A} for Child
     Abuse Prevention and Treatment Grants. Amounts made available by section §10601(d) (2) of
     this title, for the purposes of this section, are to be obligated and expended by the Secretary of
     HHS for grants under section §5106c of this title.

                          These notes are an integral part of the financial statements.




                                                     -55-
            FY 2013 U.S. Department of Justice Annual Financial Statements

                         Notes to the Principal Financial Statements
                              (Dollars in Thousands, Except as Noted)

W.    Allocation Transfer of Appropriation (continued)

     OJP receives, as a child entity, allocation transfers of appropriations from the Executive
     Office of the President. This transfer is authorized by P.L. 111-117 and P.L. 112-74. Per
     OMB guidance OJP reports all budgetary and proprietary activity for Do Right by Youth Pilot
     transferred from the Executive Office of the President to OJP.

     The Department also allocated funds from BOP, as the parent, to the Public Health Service
     (PHS), a primary division of the Department of Health and Human Services. PHS provides a
     portion of medical treatment for federal inmates. The money is designated and expended for
     current year obligation of PHS staff salaries, benefits, and applicable relocation expenses.

     USMS, as the child, receives allocation transfers of appropriation from the Administrative Office
     of the U.S. Courts. The allocation transfers are used for costs associated with protective guard
     services - Court Security Officers at United States courthouses and other facilities housing federal
     court operations. These costs include their salaries (paid through contracts), equipment, and
     supplies. This transfer is performed on an annual basis. Per OMB guidance, the USMS reports
     all budgetary and proprietary activity transferred from the Administrative Office of the U.S.
     Courts to the USMS.

X.   Tax Exempt Status

     As an agency of the federal government, the Department is exempt from all income taxes
     imposed by any governing body whether it is a federal, state, commonwealth, local, or foreign
     government.

Y.   Use of Estimates

     The preparation of financial statements requires management to make certain estimates and
     assumptions that affect the reported amounts of assets and liabilities and the reported amounts of
     revenue and expenses during the reporting period. Actual results could differ from those
     estimates.

Z.   Reclassifications

     The FY 2012 financial statements were reclassified to conform to the FY 2013 Departmental
     financial statement presentation requirements. Changes to the presentation of the Combined and
     Combining Statements of Budgetary Resources were made, in accordance with guidance
     provided in OMB Circular A-136 and as such, activity and balances reported on the FY 2012
     Combined and Combining Statement of Budgetary Resources have been reclassified to conform
     to the presentation in the current year. Certain other prior year amounts have also been
     reclassified to conform with the current year presentation. The reclassifications have no material
     effect on total assets, liabilities, net position, change in net position or budgetary resources, as
     previously reported.



                           These notes are an integral part of the financial statements.




                                                      -56-
             FY 2013 U.S. Department of Justice Annual Financial Statements

                        Notes to the Principal Financial Statements
                              (Dollars in Thousands, Except as Noted)

AA.   Subsequent Events

      Subsequent events and transactions occurring after September 30, 2013 through the date of the
      auditors’ opinion have been evaluated for potential recognition or disclosure in the financial
      statements. The date of the auditors’ opinion also represents the date that the financial statements
      were available to be issued.




                           These notes are an integral part of the financial statements.




                                                      -57-
               FY 2013 U.S. Department of Justice Annual Financial Statements

                         Notes to the Principal Financial Statements
                                (Dollars in Thousands, Except as Noted)

Note 2. Non-Entity Assets

As of September 30, 2013 and 2012
                                                                     2013                   2012

 Intragovernmental
    Fund Balance with U.S. Treasury                           $      1,359,177          $    1,294,306
    Investments, Net                                                 1,457,380               1,516,625
      Total Intragovernmental                                        2,816,557               2,810,931

 With the Public
   Cash and Monetary Assets                                           129,621                  229,373
   Accounts Receivable, Net                                             3,244                    4,032
      Total With the Public                                           132,865                  233,405
      Total Non-Entity Assets                                       2,949,422                3,044,336
      Total Entity Assets                                          38,469,338               40,146,378
      Total Assets                                            $    41,418,760           $   43,190,714




                            These notes are an integral part of the financial statements.




                                                       -58-
                FY 2013 U.S. Department of Justice Annual Financial Statements

                          Notes to the Principal Financial Statements
                                 (Dollars in Thousands, Except as Noted)

Note 3. Fund Balance with U.S. Treasury

The Fund Balances with U.S. Treasury represent the unexpended balances on the Department=s books for
the entire Department=s Treasury Symbols.

As of September 30, 2013 and 2012
                                                                       2013                   2012
 Fund Balances
   Trust Funds                                                  $       109,777           $      100,106
   Special Funds                                                     10,398,592                9,564,996
   Revolving Funds                                                      623,703                  572,010
   General Funds                                                     12,026,880               14,447,788
   Other Fund Types                                                      67,119                   60,398
     Total Fund Balances with U.S. Treasury                     $    23,226,071           $   24,745,298

 Status of Fund Balances
   Unobligated Balance - Available                              $     3,024,593           $    2,948,354
    Unobligated Balance - Unavailable                                   970,374                1,088,078
    Obligated Balance not yet Disbursed                              13,131,115               15,040,015
    Other Funds (With)/Without Budgetary Resources                    6,099,989                5,668,851
      Total Status of Fund Balances                             $    23,226,071           $   24,745,298

Annual and multi-year budget authority expires at the end of its period of availability. During the first
through the fifth expired years, the unobligated balance is unavailable and may only be used to adjust
obligations and disbursements that were recorded before the budgetary authority expired or to meet a
legitimate or bona fide need arising in the fiscal year for which the appropriation was made. The
unobligated balance for no-year budget authority may be used to incur obligations indefinitely for the
purpose specified by the appropriation act. No-year budget authority unobligated balances are still
subject to the annual apportionment and allotment process.

Unobligated Balance - Unavailable includes amounts appropriated in prior fiscal years that are no longer
available to fund new obligations, but can be used for upward and/or downward adjustments for existing
obligations. Additionally, this line includes amounts received that are restricted to future use and as a
result are not apportioned for current use. Other restricted funds include the collections of fees in excess
of amounts budgeted for administering the Diversion Control Program. These collections may not be
used until authorized by Congress.

Other Funds (With)/Without Budgetary Resources primarily represent the net of 1) investments in short-
term securities with budgetary resources, 2) resources temporarily not available pursuant to public law,
3) custodial liabilities, and 4) miscellaneous receipts.




                              These notes are an integral part of the financial statements.




                                                         -59-
                FY 2013 U.S. Department of Justice Annual Financial Statements

                          Notes to the Principal Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 4. Cash and Monetary Assets

As of September 30, 2013 and 2012
                                                                         2013                       2012
 Cash
   Undeposited Collections                                        $            (74)          $        16,439
   Imprest Funds                                                            45,255                    14,876
   Seized Cash Deposited                                                    40,063                    82,166
   Other Cash                                                               14,994                    72,557
      Total Cash                                                           100,238                   186,038

 Monetary Assets
  Seized Monetary Instruments                                                 74,560                   74,644
     Total Monetary Assets                                                    74,560                   74,644
      Total Cash and Monetary Assets                              $        174,798           $       260,682

The majority of Other Cash consists of project-generated proceeds from undercover operations.

Note 5. Investments, Net

                                                      Unamortized
                                       Face             Premium                Interest          Investments,    Market
                                       Value           (Discount)             Receivable             Net          Value
As of September 30, 2013
 Intragovernmental
    Non-Marketable Securities
      Market Based                  $ 6,652,198        $     (1,425)      $            187       $ 6,650,960    $ 6,652,572

As of September 30, 2012
 Intragovernmental
    Non-Marketable Securities
      Market Based                  $ 6,213,792        $        (76)      $            187       $ 6,213,903    $ 6,214,504




                                These notes are an integral part of the financial statements.




                                                           -60-
               FY 2013 U.S. Department of Justice Annual Financial Statements

                         Notes to the Principal Financial Statements
                               (Dollars in Thousands, Except as Noted)

Note 6. Accounts Receivable, Net

As of September 30, 2013 and 2012
                                                                     2013                   2012
 Intragovernmental
    Accounts Receivable                                       $        452,533          $    324,425
    Allowance for Uncollectible Accounts                                  (206)                  (98)
       Total Intragovernmental                                         452,327               324,327

 With the Public
   Accounts Receivable                                                  96,219               131,503
   Allowance for Uncollectible Accounts                                (14,327)              (15,891)
      Total With the Public                                             81,892               115,612
      Total Accounts Receivable, Net                          $        534,219          $    439,939


Intragovernmental accounts receivable consists mainly of amounts due under reimbursable agreements
with federal entities for services and goods provided.

The accounts receivable with the public primarily consists of OBDs U.S. Trustee Chapter 11 quarterly
fees, FBI Non-Federal User Fee Program, FBI National Name Check Program, court mandated
restitution, and refunds due from the public.

Note 7. Inventory and Related Property, Net

As of September 30, 2013 and 2012
                                                                     2013                   2012
 Inventory
   Raw Materials                                              $          32,392         $     45,078
   Work in Process                                                       24,377               26,081
   Finished Goods                                                        36,930               53,949
   Inventory Purchased for Resale                                        18,775               19,715
   Excess, Obsolete, and Unserviceable                                   28,325               30,562
   Inventory Allowance                                                  (26,613)             (26,416)

 Operating Materials and Supplies
   Held for Current Use                                                 18,628                17,640
     Total Inventory and Related Property, Net                $        132,814          $    166,609




                            These notes are an integral part of the financial statements.




                                                       -61-
               FY 2013 U.S. Department of Justice Annual Financial Statements

                         Notes to the Principal Financial Statements
                                (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property

Equitable Sharing Payments:

The statute governing the use of the AFF (28 U.S.C. '524(c)) permits the payment of equitable shares of
forfeiture proceeds to participating foreign governments and state and local law enforcement agencies.
The statute does not require such sharing and permits the Attorney General wide discretion in determining
those transfers. Actual sharing is difficult to predict because many factors influence both the amount and
timing of disbursement of equitable sharing payments, such as the length of time required to move an
asset through the forfeiture process to disposition, the amount of net proceeds available for sharing, the
elapse of time for Departmental approval of equitable sharing requests for cases with asset values
exceeding $1 million, and appeal of forfeiture judgments. Because of uncertainties surrounding the
timing and amount of any equitable sharing payment, an obligation and expense are recorded only when
the actual disbursement of the equitable sharing payment is imminent. The anticipated equitable sharing
allocation level for FY 2014 is $387 million.

Analysis of Change in Forfeited Property:

The number of items represents quantities calculated using many different units of measure. If necessary,
the adjustments column includes property status and valuation changes received after, but properly
credited to a prior fiscal year. The valuation changes include updates and corrections to an asset’s value
recorded in a prior year.

Method of Disposition of Forfeited Property:

During FYs 2013 and 2012, $115,856 and $132,710 of forfeited property were sold, $1,038 and $2,672
were destroyed or donated, $17,081 and $10,349 were returned to owners, and $55,077 and $36,542 were
disposed of by other means, respectively. Other means of disposition include property transferred to
other federal agencies for official use or equitable sharing, or property distributed to a state or local
agency.




                             These notes are an integral part of the financial statements.




                                                        -62-
                    FY 2013 U.S. Department of Justice Annual Financial Statements

                                  Notes to the Principal Financial Statements
                                          (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

For the Fiscal Year Ended September 30, 2013

  Forfeited                                                                                                           Liens               Ending
  Property                    Beginning        Adjust-                                                 Ending          and               Balance,
  Category                     Balance         ments             Forfeitures         Disposals         Balance        Claims            Net of Liens

Financial       Number                 178               -                 275               (241)            212                -                212
Instruments     Value     $          1,329     $         -   $          45,294   $        (44,206) $        2,417 $              - $            2,417

Real            Number                 418           (2)                   445               (335)            526              -                  526
Property        Value     $         81,996     $   (987) $              86,903   $        (69,139) $       98,773 $       (1,072) $            97,701

Personal        Number               3,858               -               5,512             (5,948)          3,422                -              3,422
Property        Value     $         63,972     $         -   $          53,505   $        (75,707) $       41,770 $           (534) $          41,236

Non-Valued
  Firearms      Number              26,796               -               9,156            (11,951)         24,001                -             24,001

Total           Number              31,250           (2)                15,388            (18,475)         28,161                -             28,161
                Value     $        147,297     $   (987) $            185,702    $       (189,052) $      142,960 $       (1,606) $           141,354



For the Fiscal Year Ended September 30, 2012

  Forfeited                                                                                                           Liens               Ending
  Property                    Beginning        Adjust-                                                 Ending          and               Balance,
  Category                     Balance          ments            Forfeitures         Disposals         Balance        Claims            Net of Liens

Financial       Number                 117               -                 283               (222)            178                -                 178
Instruments     Value     $          1,730     $         -   $          25,544   $        (25,945) $        1,329 $           (658) $              671

Real            Number                 452               -                 390               (424)            418                -                418
Property        Value     $         98,008     $         -   $          64,732   $        (80,744) $       81,996 $           (977) $          81,019

Personal        Number               3,384             -                 6,156             (5,682)          3,858                -              3,858
Property        Value     $         74,846     $ (16,146) $             80,856   $        (75,584) $       63,972 $           (551) $          63,421

Non-Valued
  Firearms      Number              23,593               -              17,525            (14,322)         26,796                -             26,796

Total           Number              27,546               -              24,354            (20,650)         31,250                -             31,250
                Value     $        174,584     $ (16,146) $           171,132    $       (182,273) $      147,297 $       (2,186) $           145,111




                                      These notes are an integral part of the financial statements.




                                                                         -63-
                FY 2013 U.S. Department of Justice Annual Financial Statements

                          Notes to the Principal Financial Statements
                                (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

Analysis of Change in Seized Property:

Property seized for any purpose other than forfeiture and held by the seizing agency or a custodial agency
should be disclosed by the seizing agency. All property seized for forfeiture, including property with
evidentiary value, will be reported by the AFF/SADF. The Department has established a reporting
threshold of $1 or more for Personal Property seized for evidentiary purposes.

A seizure is the act of taking possession of goods in consequence of a violation of public law. Seized
property consists of seized cash, monetary instruments, real property and tangible personal property in the
actual or constructive possession of the seizing and the custodial agencies. The Department, until
judicially or administratively forfeited, does not legally own such property. Seized evidence includes
cash, financial instruments, non-monetary valuables, firearms, and drugs. The AFF/SADF reports
property seized for forfeiture and the FBI, DEA, and ATF report property seized for evidence.

The number of items represents quantities calculated using may different units of measure. If necessary,
the adjustments column includes property status and valuation changes received after, but properly
credited to a prior fiscal year. The valuation changes include updates and corrections to an asset’s value
recorded in a prior year.

The DEA, FBI, and ATF have custody of drugs taken as evidence for legal proceedings. In accordance
with Federal Financial Accounting and Auditing Technical Release No. 4, Reporting on Non-Valued
Seized and Forfeited Property, the Department reports the total amount of seized drugs by quantity only,
as drugs have no value and are destroyed upon resolution of legal proceedings.

Analyzed drug evidence includes cocaine, heroin, marijuana and methamphetamine and represents actual
laboratory tested classification and weight in kilograms (KG). Since enforcing the controlled substances
laws and regulations of the United States is a primary mission of the DEA, the DEA reports all analyzed
drug evidence regardless of seizure weight. However, the enforcement of these laws and regulations is
incidental to the missions of the FBI and ATF and therefore they only report those individual seizures
exceeding 1 KG in weight.

“Other” primarily consists of substances, both controlled and non-controlled as defined per the
Controlled Substances Act, other than those discussed above. “Bulk Drug Evidence” is comprised of
controlled substances housed by the DEA in secured storage facilities of which only a sample is taken for
laboratory analysis. The actual bulk drug weight may vary from seizure weight due to changes in
moisture content over time.

Unanalyzed drug evidence is qualitatively different from analyzed and bulk drug evidence because
unanalyzed drug evidence includes the weight of packaging and drug categories are based on the
determination of Special Agents instead of laboratory chemists. For these reasons, unanalyzed drug
evidence is not reported by the Department. Seized drug evidence must be analyzed and confirmed
through laboratory testing to be placed in one of the five categories of drug above.



                             These notes are an integral part of the financial statements.




                                                        -64-
                FY 2013 U.S. Department of Justice Annual Financial Statements

                          Notes to the Principal Financial Statements
                                (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

“Disposals” occur when seized property is forfeited, returned to parties with a bona fide interest, or
destroyed in accordance with federal guidelines.

Method of Disposition of Seized Property:

During FYs 2013 and 2012, $1,863,985 and $4,121,701 of seized property were forfeited, $216,945 and
$100,681 were returned to parties with a bonafide interest, and $24,997 and $40,896 were either released
to a designated party or transferred to the appropriate federal entity under forfeiture or abandonment
procedures. Non-valued property was primarily disposed of through destruction.




                             These notes are an integral part of the financial statements.




                                                        -65-
                   FY 2013 U.S. Department of Justice Annual Financial Statements

                            Notes to the Principal Financial Statements
                                      (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

For the Fiscal year Ended, September 30, 2013

                                                                                                                                  Liens            Ending
      Seized Property              Beginning           Adjust-                                                  Ending             and            Balance,
         Category                  Balance             ments               Seizures            Disposals        Balance           Claims         Net of Liens

Seized for Forfeiture

 Seized Cash            Value     $ 1,536,523    $        24,251       $ 1,738,021         $ (1,863,512) $ 1,435,283          $ (114,622) $         1,320,661
   and Monetary
   Instuments


 Financial              Number             520                   -                49                  (165)           404                -                404
 Instruments            Value     $     68,368   $               -     $      39,165       $       (61,520) $      46,013     $     (2,395) $          43,618

 Real                   Number             127                  3                227                  (217)           140                -                140
 Property               Value     $     45,084 $           (3,013) $          75,390       $       (53,678) $      63,783 $        (20,618) $          43,165

 Personal               Number           8,019                   -             6,224                (7,107)         7,136                -              7,136
 Property               Value     $    183,797   $               -     $      59,118       $       (98,493) $     144,422 $        (21,356) $         123,066

 Non-Valued
   Firearms             Number          33,572                   -            13,496               (16,787)        30,281                  -           30,281

For the Fiscal Year Ended, September 30, 2012

                                                                                                                             Liens               Ending
      Seized Property              Beginning       Adjust-                                                    Ending          and               Balance,
         Category                   Balance         ments             Seizures         Disposals              Balance        Claims            Net of Liens

Seized for Forfeiture

  Seized Cash           Value      $ 4,016,891   $           -       $ 1,587,055       $ (4,067,423) $ 1,536,523            $(125,969) $           1,410,554
   and Monetary
   Instruments

  Financial             Number             477        (135)                   328                  (150)            520            -                     520
    Instruments         Value  $        53,241   $ (33,852) $              55,920      $         (6,941) $       68,368     $ (4,851) $               63,517

  Real Property         Number             146             (2)                131                 (148)             127            -                     127
                        Value  $        48,364     $      365 $            35,139      $       (38,784) $        45,084     $ (9,710) $               35,374

  Personal Property     Number     7,477                     -           8,264             (7,722)                8,019             -                  8,019
                        Value  $ 184,003         $           -       $ 107,126         $ (107,332) $            183,797     $ (16,667) $             167,130

  Non-Valued
   Firearms             Number          36,915               -             19,716              (23,059)          33,572               -               33,572




                                 These notes are an integral part of the financial statements.




                                                                     -66-
                     FY 2013 U.S. Department of Justice Annual Financial Statements

                               Notes to the Principal Financial Statements
                                        (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

For the Fiscal Year Ended September 30, 2013

                                                                                                                          Liens          Ending
      Seized Property                Beginning         Adjust-                                            Ending           and          Balance,
         Category                    Balance           ments           Seizures          Disposals        Balance         Claims       Net of Liens
Seized for Evidence
 Seized Monetary          Value     $     50,644 $         (5,543) $       25,272    $       (19,969) $      50,404   $            -   $     50,404
   Instruments

 Personal Property        Number           1,414              35              217               (460)         1,206                -          1,206
                          Value     $     30,337   $         312     $      6,574    $        (8,755) $      28,468   $            -   $     28,468

 Non-Valued
   Firearms               Number          64,331           (1,789)         12,558            (13,488)        61,612                -         61,612
   Drug Evidence
     Cocaine              KG              53,584             846            36,340           (39,156)        51,614                -         51,614
     Heroin               KG               3,421             (20)              934              (674)         3,661                -          3,661
     Marijuana            KG              17,423             114             2,987            (4,084)        16,440                -         16,440
     Bulk Drug Evidence   KG             397,644           1,587         1,085,804        (1,228,164)       256,871                -        256,871
     Methamphetamine      KG               8,503               -             4,568            (2,364)        10,707                -         10,707
     Other                KG              21,854              45             3,315            (2,975)        22,239                -         22,239
   Total Drug Evidence    KG             502,429           2,572         1,133,948        (1,277,417)       361,532                -        361,532



For the Fiscal Year Ended September 30, 2012

                                                                                                                          Liens          Ending
      Seized Property                Beginning         Adjust-                                            Ending           and          Balance,
         Category                    Balance           ments           Seizures          Disposals        Balance         Claims       Net of Liens
Seized for Evidence

 Seized Monetary          Value     $     46,847 $         (2,185) $       33,100    $       (27,118) $      50,644 $              -   $     50,644
 Instruments

 Personal                 Number           1,421              41              323               (371)         1,414                -          1,414
 Property                 Value     $     36,379   $         (35) $         9,673    $       (15,680) $      30,337 $              -   $     30,337

 Non-Valued
   Firearms               Number    $     62,595   $        (197) $        16,088    $       (14,155) $      64,331 $              -   $     64,331
   Drug Evidence
     Cocaine              KG              56,161              421           28,033          (31,031)         53,584                -         53,584
     Heroin               KG               3,108              (50)           1,124             (761)          3,421                -          3,421
     Marijuana            KG              17,807             (321)           4,626           (4,689)         17,423                -         17,423
     Bulk Drug Evidence   KG             278,152              252          995,893         (876,653)        397,644                -        397,644
     Methamphetamine      KG               6,957               10            3,413           (1,877)          8,503                -          8,503
     Other Drugs          KG              24,763           (1,145)           3,923           (5,687)         21,854                -         21,854
   Total Drug Evidence    KG             386,948             (833)       1,037,012         (920,698)        502,429                -        502,429




                                   These notes are an integral part of the financial statements.




                                                                   -67-
                FY 2013 U.S. Department of Justice Annual Financial Statements

                           Notes to the Principal Financial Statements
                                (Dollars in Thousands, Except as Noted)

Note 9. General Property, Plant and Equipment, Net

As of September 30, 2013
                                          Acquisition          Accumulated            Net Book             Useful
                                            Cost               Depreciation            Value                Life
 Land and Land Rights                    $ 185,103             $          -          $ 185,103                   N/A
 Improvements to Land                          5,008                (1,521)                3,487              15 yrs
 Construction in Progress                    474,893                      -             474,893                  N/A
 Buildings, Improvements and
   Renovations                          10,548,557               (4,654,564)            5,893,993           2-50 yrs
 Other Structures and Facilities           902,563                 (515,672)              386,891          10-50 yrs
 Aircraft                                  478,808                 (163,709)              315,099           5-30 yrs
 Boats                                      11,138                   (4,149)                6,989           5-25 yrs
 Vehicles                                  542,048                 (327,706)              214,342           2-25 yrs
 Equipment                               1,534,212                 (970,840)              563,372           2-25 yrs
 Assets Under Capital Lease                 90,856                  (54,955)               35,901           2-30 yrs
 Leasehold Improvements                  1,618,801                 (927,884)              690,917           2-20 yrs
 Internal Use Software                   1,514,256                 (540,220)              974,036           2-10 yrs
 Internal Use Software in Development      272,300                        -               272,300               N/A
 Total                                $ 18,178,543             $ (8,161,220)         $ 10,017,323



                                                                   Federal               Public            Total
Sources of Capitalized Property, Plant and Equipment
  Purchases for FY 2013                                        $     147,390         $       793,376   $    940,766


Based upon early implementation of DOJ Financial Management Policy Memorandum (FMPM) 13-12,
Capitalization of General Property, Plant and Equipment and Internal Use Software, the Department
revised its method for reporting the capitalization of real property, personal property, and internal use
software in FY 2013 which caused a decrease in the General Property, Plant and Equipment, Net Book
Value Balance by $274,648, as described in Note 26.




                             These notes are an integral part of the financial statements.




                                                        -68-
               FY 2013 U.S. Department of Justice Annual Financial Statements

                           Notes to the Principal Financial Statements
                                (Dollars in Thousands, Except as Noted)

Note 9. General Property, Plant and Equipment, Net (continued)

As of September 30, 2012
                                          Acquisition          Accumulated            Net Book           Useful
                                            Cost               Depreciation            Value              Life
 Land and Land Rights                    $ 184,622             $          -          $ 184,622                 N/A
 Improvements to Land                           4,926               (1,187)                3,739            15 yrs
 Construction in Progress                    658,901                      -             658,901                N/A
 Buildings, Improvements and
   Renovations                          10,075,903               (4,329,867)            5,746,036         2-50 yrs
 Other Structures and Facilities           887,732                 (472,971)              414,761        10-50 yrs
 Aircraft                                  456,739                 (151,139)              305,600         5-30 yrs
 Boats                                      12,420                   (7,005)                5,415         5-25 yrs
 Vehicles                                  651,787                 (397,427)              254,360         2-25 yrs
 Equipment                               1,743,587               (1,048,695)              694,892         2-25 yrs
 Assets Under Capital Lease                 93,139                  (53,503)               39,636         2-30 yrs
 Leasehold Improvements                  1,498,657                 (834,558)              664,099         2-20 yrs
 Internal Use Software                   1,266,385                 (455,765)              810,620         3-10 yrs
 Internal Use Software in Development      403,463                        -               403,463             N/A
 Total                                $ 17,938,261             $ (7,752,117)         $ 10,186,144


                                                                   Federal               Public           Total
Sources of Capitalized Property, Plant and Equipment
  Purchases for FY 2012                                        $     230,403         $       843,795   $ 1,074,198




                             These notes are an integral part of the financial statements.




                                                        -69-
               FY 2013 U.S. Department of Justice Annual Financial Statements

                           Notes to the Principal Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 10. Other Assets

As of September 30, 2013 and 2012
                                                               2013                    2012
 Intragovernmental
    Advances and Prepayments                              $       92,355         $       266,561
    Other Intragovernmental Assets                                    15                      12
      Total Intragovernmental                                     92,370                 266,573

   Other Assets With the Public                                     4,677                    5,585
      Total Other Assets                                  $       97,047         $       272,158

The FY 2012 Advances and Prepayments include an advance to the United States District Court to initiate
the condemnation proceeding for the acquisition of a prison facility in Illinois. Other Intragovernmental
Assets include amounts due from Treasury General Fund related to ATF. Other Assets With the Public
primarily consist of farm livestock held by the BOP.

Note 11. Liabilities not Covered by Budgetary Resources

As of September 30, 2013 and 2012
                                                                                2013                     2012
 Intragovernmental
    Accrued FECA Liabilities                                             $        263,862            $    257,897
    Other Unfunded Employment Related Liabilities                                   1,542                   1,584
    Other                                                                           4,479                   5,315
      Total Intragovernmental                                                     269,883                 264,796
 With the Public
   Actuarial FECA Liabilities                                                  1,632,616                1,474,278
   Accrued Annual and Compensatory Leave Liabilities                             819,032                  830,119
   Environmental and Disposal Liabilities (Note 12)                               76,676                   74,441
   Deferred Revenue                                                              477,890                  409,396
   Contingent Liabilities (Note 16)                                               26,571                   28,551
   Capital Lease Liabilities (Note 13)                                             8,716                   16,627
   RECA Liabilities (Note 25)                                                    660,465                  731,237
  September 11th Victim Compensation Fund (Note 25)                            2,751,712                2,766,400
   Other                                                                         113,384                   99,979
      Total With the Public                                                    6,567,062                6,431,028
      Total Liabilities not Covered by Budgetary Resources                     6,836,945                6,695,824
      Total Liabilities Covered by Budgetary Resources                         8,510,048                9,246,161
      Total Liabilities                                                  $    15,346,993             $ 15,941,985



                             These notes are an integral part of the financial statements.




                                                        -70-
                FY 2013 U.S. Department of Justice Annual Financial Statements

                          Notes to the Principal Financial Statements
                                (Dollars in Thousands, Except as Noted)

Note 11. Liabilities not Covered by Budgetary Resources (continued)

Generally, liabilities not covered by budgetary resources are liabilities for which Congressional action is
needed before budgetary resources can be provided. However, some liabilities do not require
appropriations and will be liquidated by the assets of the entities holding these liabilities. Such assets
include civil and criminal debt collections, seized cash and monetary instruments, and revolving fund
operations.

Other Liabilities with the Public consists primarily of future funded energy savings performance
contracts and utilities.

Note 12. Environmental and Disposal Liabilities

Per SFFAS No. 5, Accounting for Liabilities of the Federal Government, SFFAS No. 6, Accounting for
Property, Plant, and Equipment, Technical Release No. 2 Determining Probable and Reasonably
Estimable for Environmental Liabilities in the Federal Government, Technical Release No. 10,
Implementation Guidance on Asbestos Cleanup Costs Associated with Facilities and Installed Equipment,
and Technical Release No. 11, Implementation Guidance on Cleanup Costs Associated with Equipment,
federal agencies are required to recognize liabilities for environmental clean-up costs when the future
outflow or sacrifice of resources is probable and reasonably estimable.

Firing Ranges

The BOP operates firing ranges on 67 of the sites where its institutions are located. Use of these firing
ranges generates waste consisting primarily of lead shot and spent rounds from rifles, shotguns, pistols,
and automatic weapons. At operational firing ranges, lead-containing bullets are fired and eventually fall
to the ground at or near the range. As of September 30, 2012, BOP management determined their
estimated clean-up liability to be $26,935. In FY 2013, BOP management adjusted the estimated clean-
up liability by the current U.S. inflation rate as determined by the U.S. Treasury and as such determined
that an estimated firing range clean-up liability of $27,820, based on an inflation rate of 1.7 percent,
should be recorded.

Asbestos

BOP conducted a review of 46 institutions that were built prior to 1980; the review provided an estimate
of the extent of friable and non-friable Asbestos Containing Materials (ACM) remaining in each of the
institutions as of October 30, 2009. As of September 30, 2012, BOP management determined their
estimated clean-up liability to be $37,287. As of September 30, 2013, BOP management adjusted the
clean-up liability by an overall amount of $1,118. The adjustments include a decrease in the amount of
$78 for the abatement of asbestos at two locations; and increases in the amounts of $538 due to additional
asbestos found at three locations and $658 by the current U.S. inflation rate of 1.7 percent as determined
by the U.S. Treasury. The estimated asbestos clean-up liability as of September 30, 2013 was $38,405.

The FBI operates facilities in Quantico, Virginia that contain friable and non-friable ACM. The facilities
have a useful life of 50 years. The estimated total liability of $11,613 is based on the square footage of
the facilities that may be contaminated. This value, divided by the useful life and multiplied by the

                             These notes are an integral part of the financial statements.




                                                        -71-
                  FY 2013 U.S. Department of Justice Annual Financial Statements

                          Notes to the Principal Financial Statements
                                 (Dollars in Thousands, Except as Noted)

Asbestos (continued)

number of years in service, is the estimated cleanup liability. As of September 30, 2013 and 2012, the
FBI recognized the estimated cleanup liability of $10,451 and $10,219 respectively. The estimated
asbestos cleanup liability is increased each quarter by recording future expenses for the asbestos clean-up
costs. During FY 2013, future funded expense for asbestos cleanup is $232. There are no other
potentially responsible parties to the environmental liability and there are no unrecognized amounts to
disclose as of September 30, 2013.

Note 13. Leases

Capital leases include a Federal Transfer Center (25 year lease term) in Oklahoma City, Oklahoma; and
other machinery and equipment that expire over future periods.

As of September 30, 2013 and 2012

 Capital Leases                                                    2013                       2012

 Summary of Assets Under Capital Lease
   Land and Buildings                                        $       89,625          $          89,625
   Machinery and Equipment                                            1,231                      3,514
   Accumulated Amortization                                         (54,955)                   (53,503)
      Total Assets Under Capital Lease (Note 9)              $       35,901          $          39,636

 Future Capital Lease Payments Due
                                                                 Land and            Machinery and
   Fiscal Year                                                   Buildings             Equipment              Total
      2014                                                   $         9,073         $         28         $      9,101
      2015                                                                32                   20                    52
      2016                                                                32                   19                    51
      2017                                                                32                     5                   37
      2018                                                                32                     3                   35
   After 2018                                                             32                     -                   32
      Total Future Capital Lease Payments                    $         9,233         $         75         $      9,308
   Less: Imputed Interest                                               (517)                   (7)               (524)
   Less: Executory Costs                                                   -                  (21)                  (21)
       FY 2013 Net Capital Lease Liabilities                 $         8,716         $         47         $      8,763
       FY 2012 Net Capital Lease Liabilities                 $       16,627          $        469         $     17,096

                                                                                              2013            2012

   Net Capital Lease Liabilities Covered by Budgetary Resources                      $             47     $        469
   Net Capital Lease Liabilities not Covered by Budgetary Resources                  $          8,716     $     16,627

                              These notes are an integral part of the financial statements.




                                                         -72-
                FY 2013 U.S. Department of Justice Annual Financial Statements

                          Notes to the Principal Financial Statements
                                (Dollars in Thousands, Except as Noted)


Note 13. Leases (continued)

The net capital lease liability not covered by budgetary resources primarily represents the capital lease of
the Federal Transfer Center for which the Department received Congressional authority to fund with
annual appropriations.

 Future Noncancelable Operating Lease Payments

                                                              Land and              Machinery and
   Fiscal Year                                                Buildings               Equipment              Total
      2014                                                  $    285,275            $     23,714          $   308,989
      2015                                                       304,218                  21,507              325,725
      2016                                                       317,206                   4,557              321,763
      2017                                                       314,776                   4,692              319,468
      2018                                                       309,728                   4,779              314,507
   After 2018                                                  2,818,361                        1           2,818,362
       Total Future Noncancelable Operating
            Lease Payments                                  $ 4,349,564             $        59,250       $ 4,408,814



Note 14. Seized Cash and Monetary Instruments

The Seized Cash and Monetary Instruments represent liabilities for seized assets held by the Department
pending disposition.

As of September 30, 2013 and 2012
                                                                       2013                   2012

 Investments, Net                                                 $    1,371,064         $    1,430,357
 Seized Cash Deposited                                                    40,063                 82,166
 Seized Monetary Instruments                                              74,560                 74,644
   Total Seized Cash and Monetary Instruments                     $    1,485,687         $    1,587,167




                             These notes are an integral part of the financial statements.




                                                        -73-
                FY 2013 U.S. Department of Justice Annual Financial Statements

                          Notes to the Principal Financial Statements
                                 (Dollars in Thousands, Except as Noted)

Note 15. Other Liabilities

As of September 30, 2013 and 2012
                                                                        2013                      2012

 Intragovernmental
    Other Accrued Liabilities                                      $            1             $          -
    Employer Contributions and Payroll Taxes Payable                       82,117                  205,477
    Other Post-Employment Benefits Due and Payable                            866                       23
    Other Unfunded Employment Related Liabilities                           1,542                    1,584
    Advances from Others                                                  110,038                  152,447
    Liability for Clearing Accounts                                         3,981                    2,474
    Other Liabilities                                                       5,511                    6,708
       Total Intragovernmental                                            204,056                  368,713

With the Public
   Other Accrued Liabilities                                                6,035                    5,945
   Advances from Others                                                    10,233                   11,020
   Liability for Nonfiduciary Deposit Funds
      and Undeposited Collections                                          71,872                   61,803
   Liability for Clearing Accounts                                             35                      482
   Custodial Liabilities                                                  200,744                  209,775
   Other Liabilities                                                      122,392                  166,632
      Total With the Public                                               411,311                  455,657
      Total Other Liabilities                                      $      615,367             $    824,370

The majority of Intragovernmental Other Liabilities are composed of tenant allowances for operating
leases, monies received from prisoner funds, and certain receipts of cash that are in suspense, clearing,
deposit, or general fund accounts that are owed to the Treasury.

Other Liabilities with the Public are composed of future funded energy savings performance contracts and
utilities. Other Liabilities with the Public also consists of project-generated proceeds from undercover
operations. The proceeds not subject to forfeiture will be returned to the Department of Treasury General
Fund at the conclusion of the project.

The majority of Liabilities are current with the exception of a portion that consists of capital leases and
those liabilities related to future employee related expenses, such as accrued retirement contributions, life
insurance, and retiree health benefits.




                              These notes are an integral part of the financial statements.




                                                         -74-
              FY 2013 U.S. Department of Justice Annual Financial Statements

                           Notes to the Principal Financial Statements
                                (Dollars in Thousands, Except as Noted)

Note 16. Contingencies and Commitments

                                            Accrued                      Estimated Range of Loss
                                            Liabilities                Lower                 Upper

  As of September 30, 2013

     Probable                           $        26,571            $        26,571           $    51,101
     Reasonably Possible                                                    83,310               117,481

  As of September 30, 2012

     Probable                           $        28,671            $        25,871           $    41,366
     Reasonably Possible                                                    52,860                76,131




                             These notes are an integral part of the financial statements.




                                                          -75-
                          FY 2013 U.S. Department of Justice Annual Financial Statements

                                          Notes to the Principal Financial Statements
                                                  (Dollars in Thousands, Except as Noted)

Note 17. Funds from Dedicated Collections

Funds from Dedicated Collections are financed by specifically identified revenues and are required by
statute to be used for designated activities or purposes, and must be accounted for separately from the
Government’s general revenues. See SFFAS No. 27, as amended, for the required criteria for Funds from
Dedicated Collections.

As of September 30, 2013

                                                                                                               Diversion     Federal Prison          Total
                                          Assets Forfeiture   U S Trustee        Antitrust    Crime Victims   Control Fee    Commissary           Funds from
                                                Fund          System Fund        Division         Fund          Account          Fund         Dedicated Collections
Balance Sheet
 Assets
   Fund Balance with U S Treasury          $      110,344     $     3,524    $      37,614    $ 10,133,214    $ 149,960      $  88,136        $        10,522,792
   Investments, Net                             4,697,101         231,959                -               -            -              -                  4,929,060
    Other Assets                                  145,279          46,803            1,067             182       37,595         27,399                    258,325
      Total Assets                         $    4,952,724     $   282,286    $      38,681    $ 10,133,396    $ 187,555      $ 115,535        $        15,710,177

Liabilities
   Accounts Payable                        $    2,952,453     $     8,236    $       5,712    $     20,112    $   7,495      $    10,592      $         3,004,600
   Other Liabilities                              144,504          15,457           10,931          55,643      491,552           11,250                  729,337
      Total Liabilities                    $    3,096,957     $    23,693    $      16,643    $     75,755    $ 499,047      $    21,842      $         3,733,937

Net Position
  Unexpended Appropriations                $            -     $     5,055    $      30,713    $          -    $        -     $       -        $            35,768
  Cumulative Results of Operations              1,855,767         253,538           (8,675)     10,057,641      (311,492)       93,693                 11,940,472
     Total Net Position                    $    1,855,767     $   258,593    $      22,038    $ 10,057,641    $ (311,492)    $ 93,693         $        11,976,240
     Total Liabilities and Net Position    $    4,952,724     $   282,286    $      38,681    $ 10,133,396    $ 187,555      $ 115,535        $        15,710,177


For the Fiscal Year Ended September 30, 2013

                                                                                                               Diversion     Federal Prison          Total
                                          Assets Forfeiture   U S Trustee        Antitrust    Crime Victims   Control Fee    Commissary           Funds from
                                                Fund          System Fund        Division         Fund          Account          Fund         Dedicated Collections
Statement of Net Cost
    Gross Cost of Operations               $    1,787,551     $   210,200    $ 155,191        $    705,051    $ 309,740      $ 366,668        $         3,534,401
   Less: Earned Revenues                           12,201         198,902       82,043                   -      275,553        370,123                    938,822
      Net Cost of Operations               $    1,775,350     $    11,298    $ 73,148         $    705,051    $ 34,187       $  (3,455)       $         2,595,579

Statement of Changes in Net Position
    Net Position Beginning of Period       $    1,619,856     $   262,901    $      17,693    $ 9,273,109     $ (286,360)    $    86,212      $        10,973,411

   Budgetary Financing Sources                1,831,586             6,397           77,135      1,489,583               -              -                3,404,701
   Other Financing Sources                      179,675               593              358              -           9,055          4,026                  193,707
      Total Financing Sources              $ 2,011,261        $     6,990    $      77,493    $ 1,489,583     $     9,055    $     4,026      $         3,598,408
   Net Cost of Operations                  $ (1,775,350)      $   (11,298)   $     (73,148)   $ (705,051)     $   (34,187)   $     3,455      $        (2,595,579)
   Net Change                                   235,911            (4,308)           4,345        784,532         (25,132)         7,481                1,002,829
   Net Position End of Period              $    1,855,767     $   258,593    $      22,038    $ 10,057,641    $ (311,492)    $    93,693      $        11,976,240




                                               These notes are an integral part of the financial statements.




                                                                             -76-
                          FY 2013 U.S. Department of Justice Annual Financial Statements

                                          Notes to the Principal Financial Statements
                                                  (Dollars in Thousands, Except as Noted)

Note 17. Funds from Dedicated Collections (continued)

As of September 30, 2012

                                                                                                                 Diversion     Federal Prison           Total
                                          Assets Forfeiture   U S Trustee        Antitrust    Crime Victims     Control Fee    Commissary           Funds from
                                                Fund          System Fund        Division         Fund            Account          Fund         Dedicated Collections
Balance Sheet
 Assets
   Fund Balance with U S Treasury          $       78,375     $    17,623    $      37,506     $ 9,359,797      $ 107,051      $  86,948        $         9,687,300
   Investments, Net                             4,200,767         224,210                -               -              -              -                  4,424,977
   Other Assets                                   154,634          52,124            1,587          13,666         42,699         27,298                    292,008
      Total Assets                         $    4,433,776     $   293,957    $      39,093     $ 9,373,463      $ 149,750      $ 114,246        $        14,404,285

Liabilities
   Accounts Payable                        $    2,667,843     $     9,020    $       5,871     $  19,031        $   7,543      $    14,775      $         2,724,083
   Other Liabilities                              145,546          21,648           14,830        81,323          428,094           13,259                  704,700
      Total Liabilities                    $    2,813,389     $    30,668    $      20,701     $ 100,354        $ 435,637      $    28,034      $         3,428,783

Net Position
  Unexpended Appropriations                $            -     $         -    $      25,963     $         -      $        -     $         -      $            25,963
  Cumulative Results of Operations              1,620,387         263,289           (7,571)      9,273,109        (285,887)         86,212               10,949,539
     Total Net Position                    $    1,620,387     $   263,289    $      18,392     $ 9,273,109      $ (285,887)    $    86,212      $        10,975,502
     Total Liabilities and Net Position    $    4,433,776     $   293,957    $      39,093     $ 9,373,463      $ 149,750      $ 114,246        $        14,404,285


For the Fiscal Year Ended September 30, 2012

                                                                                                                 Diversion     Federal Prison           Total
                                          Assets Forfeiture   U S Trustee        Antitrust    Crime Victims     Control Fee    Commissary           Funds from
                                                Fund          System Fund        Division         Fund            Account          Fund         Dedicated Collections
Statement of Net Cost
    Gross Cost of Operations               $    4,319,407     $   227,203    $ 156,773         $ 724,712        $ 307,498      $ 361,981        $         6,097,574
   Less: Earned Revenues                           10,585         226,566       87,461                 -          244,354        360,290                    929,256
      Net Cost of Operations               $    4,308,822     $       637    $ 69,312          $ 724,712        $ 63,144       $   1,691        $         5,168,318

Statement of Changes in Net Position
    Net Position Beginning of Period       $    1,760,544     $   259,137    $      15,219     $ 7,202,248      $ (232,162)    $    83,557      $         9,088,543

   Budgetary Financing Sources                  4,197,792           4,085           72,044         2,795,573              -              -                7,069,494
   Other Financing Sources                        (29,127)            704              441                 -          9,419          4,346                  (14,217)
     Total Financing Sources                    4,168,665           4,789           72,485         2,795,573          9,419          4,346                7,055,277
   Net Cost of Operations                      (4,308,822)           (637)         (69,312)         (724,712)       (63,144)        (1,691)              (5,168,318)
   Net Change                                    (140,157)          4,152            3,173         2,070,861        (53,725)         2,655                1,886,959
   Net Position End of Period              $    1,620,387     $   263,289    $      18,392     $ 9,273,109      $ (285,887)    $    86,212      $        10,975,502




                                               These notes are an integral part of the financial statements.




                                                                             -77-
                FY 2013 U.S. Department of Justice Annual Financial Statements

                          Notes to the Principal Financial Statements
                                (Dollars in Thousands, Except as Noted)

Note 17. Funds from Dedicated Collections (continued)

The Comprehensive Crime Control Act of 1984 established the AFF to receive the proceeds of forfeiture
and to pay the costs associated with such forfeitures, including the costs of managing and disposing of
property, satisfying valid liens, mortgages, and other innocent owner claims, and costs associated with
accomplishing the legal forfeiture of the property. Authorities of the fund have been amended by various
public laws enacted since 1984. Under current law, authority to use the fund for certain investigative
expenses shall be specified in annual appropriation acts. Expenses necessary to seize, detain, inventory,
safeguard, maintain, advertise or sell property under seizure are funded through a permanent, indefinite
appropriation. In addition, beginning in FY 1993, other general expenses of managing and operating the
Asset Forfeiture Program are paid from the permanent, indefinite portion of the fund. Once all expenses
are covered, the balance is maintained to meet ongoing expenses of the program. Excess unobligated
balances may also be allocated by the Attorney General in accordance with 28 U.S.C. §524(c)(8)(E).

The United States Trustees (UST) supervises the administration of bankruptcy cases and private trustees
in the Federal Bankruptcy Courts. The Bankruptcy Judges, UST, and Family Farmer Bankruptcy Act of
1986 (Public Law 99–554) expanded the pilot trustee program to a 21 region, nationwide program
encompassing 88 judicial districts. The UST System Fund collects user fees assessed against debtors,
which offset the annual appropriation.

The Antitrust Division administers and enforces antitrust and related statutes. This program primarily
involves the investigation of suspected violations of the antitrust laws, the conduct of civil and criminal
proceedings in the federal courts, and the maintenance of competitive conditions. The Antitrust Division
collects filing fees for pre-merger notifications and retains these fees for expenditure in support of its
programs.

The Crime Victims Fund is financed by collections of fines, penalty assessments, and bond forfeitures
from defendants convicted of federal crimes. This fund supports victim assistance and compensation
programs around the country and advocates, through policy development, for the fair treatment of crime
victims. The Office for Victims of Crime administers formula and discretionary grants for programs
designed to benefit victims, provides training for diverse professionals who work with victims, develops
projects to enhance victims' rights and services, and undertakes public education and awareness activities
on behalf of crime victims.

The Diversion Control Fee Account is established in the General Fund of the Treasury as a separate
account. Fees charged by the DEA under the Diversion Control Program are set at a level that ensures the
recovery of the full costs of operating this program. The program’s purpose is to prevent, detect, and
investigate the diversion of controlled substances from legitimate channels, while ensuring an adequate
and uninterrupted supply of controlled substances required to meet legitimate needs.

The Federal Prison Commissary Fund was created in the early 1930s to allow inmates a means to
purchase additional products and services above the necessities provided by appropriated federal funds,
e.g., personal grooming products, snacks, postage stamps, and telephone services. The Trust Fund is a
self-sustaining trust revolving fund account that is funded through sales of goods and services to inmates.



                             These notes are an integral part of the financial statements.




                                                        -78-
                             FY 2013 U.S. Department of Justice Annual Financial Statements

                                                 Notes to the Principal Financial Statements
                                                            (Dollars in Thousands, Except as Noted)

Note 18. Net Cost of Operations by Suborganization

For the Fiscal Year Ended September 30, 2013

Dollars in Thousands                               AFF/SADF        OBDs           USMS           OJP           DEA           FBI           ATF           BOP          FPI       Eliminations Consolidated

Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
   Gross Cost                                             -      175,613        80,268                  -      138,056      5,011,528         4,834             -           -      (116,086) $ 5,294,213
   Less: Earned Revenues                                  -       13,310              -                 -       44,670        473,594             -             -           -      (116,086)     415,488
   Net Cost of Operations                                 -      162,303        80,268                  -       93,386      4,537,934         4,834             -           -             -    4,878,725

Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
   Gross Cost                                      1,787,551     5,809,609      243,802   1,048,978           2,794,999     3,029,264     1,244,413         7,907           -      (945,821)    15,020,702
   Less: Earned Revenues                              12,201     1,216,551             -     11,164             720,062       343,140        75,280             -           -      (945,821)     1,432,577
   Net Cost of Operations                          1,775,350     4,593,058      243,802   1,037,814           2,074,937     2,686,124     1,169,133         7,907           -             -     13,588,125

Goal 3: Ensure and support the Fair, Impartial , Efficient and Transpaerent Administration of Justice at the Federal, State, Local, Tribal and International Levels
   Gross Cost                                                  -     530,097    2,842,469      1,655,613              -     1,053,013              -     7,615,902    647,553      (395,115)    13,949,532
   Less: Earned Revenues                                       -       6,731       57,752         27,196              -       513,384              -       419,593    614,742      (374,046)     1,265,352
   Net Cost of Operations                                      -     523,366    2,784,717      1,628,417              -       539,629              -     7,196,309     32,811       (21,069)    12,684,180

Net Cost of Operations                             $ 1,775,350 $ 5,278,727 $ 3,108,787 $ 2,666,231 $ 2,168,323 $ 7,763,687 $ 1,173,967 $ 7,204,216 $                   32,811 $     (21,069) $ 31,151,030



For the Fiscal Year Ended September 30, 2012

Dollars in Thousands                               AFF/SADF        OBDs           USMS           OJP           DEA           FBI           ATF           BOP          FPI       Eliminations Consolidated

Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
   Gross Cost                                             -      381,836         4,794                  -      111,714      5,341,870         6,419             -           -      (119,355) $ 5,727,278
   Less: Earned Revenues                                  -      116,119              -                 -       12,630        460,839             -             -           -      (119,355)     470,233
   Net Cost of Operations                                 -      265,717         4,794                  -       99,084      4,881,031         6,419             -           -             -    5,257,045

Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
   Gross Cost                                      4,319,407     8,591,116       32,637          998,795      2,837,798     2,964,275     1,278,676         7,242           -      (970,264)    20,059,682
   Less: Earned Revenues                              10,585       924,300             -           4,839        724,373       340,061        81,369             -           -      (970,264)     1,115,263
   Net Cost of Operations                          4,308,822     7,666,816       32,637          993,956      2,113,425     2,624,214     1,197,307         7,242           -             -     18,944,419

Goal 3: Ensure and support the Fair, Impartial , Efficient and Transpaerent Administration of Justice at the Federal, State, Local, Tribal and International Levels
   Gross Cost                                                  -    2,473,536   3,154,286      2,465,313              -     1,050,783              -     7,499,577    763,098     (1,883,179)   15,523,414
   Less: Earned Revenues                                       -      225,181   1,543,645         22,458              -       485,894              -       410,305    701,286     (1,858,461)    1,530,308
   Net Cost of Operations                                      -    2,248,355   1,610,641      2,442,855              -       564,889              -     7,089,272     61,812        (24,718)   13,993,106

Net Cost of Operations                             $ 4,308,822 $ 10,180,888 $ 1,648,072 $ 3,436,811 $ 2,212,509 $ 8,070,134 $ 1,203,726 $ 7,096,514 $                  61,812 $     (24,718) $ 38,194,570




                                                       These notes are an integral part of the financial statements.




                                                                                                -79-
                FY 2013 U.S. Department of Justice Annual Financial Statements

                          Notes to the Principal Financial Statements
                                (Dollars in Thousands, Except as Noted)

Note 19. Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e., non-reimbursed and under-
reimbursed) portion of the full costs of goods and services received by the Department from a providing
entity that is not part of the Department. In accordance with SFFAS No. 30, Inter-Entity Cost
Implementation Amending SFFAS No.4, Managerial Cost Accounting Concepts and Standards, the
material Imputed Inter-Departmental financing sources currently recognized by the Department include
the cost of benefits for the Federal Employees Health Benefits Program (FEHB), the Federal Employees’
Group Life Insurance Program (FEGLI), and the Federal Pension plans that are paid by other federal
entities, and any un-reimbursed payments made from the Treasury Judgment Fund on behalf of the
Department. The Treasury Judgment Fund was established by the Congress and funded at 31 U.S.C.
§1304 to pay in whole or in part the court judgments and settlement agreements negotiated by the
Department on behalf of agencies, as well as certain types of administrative awards. Interpretation of
Federal Financial Accounting Standards Interpretation No. 2, Accounting for Treasury Judgment Fund
Transactions, requires agencies to recognize liabilities and expenses when unfavorable litigation
outcomes are probable and the amount can be estimated and will be paid by the Treasury Judgment Fund.

SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires that employing agencies
recognize the cost of pensions and other retirement benefits during their employees’ active years of
service. SFFAS No. 5 requires OPM to provide cost factors necessary to calculate the cost. OPM
actuaries calculate the value of pension benefits expected to be paid in the future, and then determine the
total funds to be contributed by and for covered employees, such that the amount calculated would be
sufficient to fund the projected pension benefits. For employees covered by Civil Service Retirement
System (CSRS), the cost factors are 32.3% of basic pay for regular, 54.9% law enforcement officers,
24.6% regular offset, and 48.1% law enforcement officers offset. For employees covered by Federal
Employees Retirement System (FERS) and Federal Employees Retirement System-Revised Annuity
Employees (FERS-RAE), the cost factors are 14.2% of basic pay for regular and 30.7% for law
enforcement officers.

The cost to be paid by other agencies is the total calculated future costs, less employee and employer
contributions. In addition, other retirement benefits, which include health and life insurance that are paid
by other federal entities, must also be recorded.

For the Fiscal Years Ended September 30, 2013 and 2012
                                                                            2013                 2012
 Imputed Inter-Departmental Financing
   U.S. Treasury Judgment Fund                                        $         18,470       $     39,181
   Health Insurance                                                            505,851            572,584
   Life Insurance                                                                2,120              2,038
   Pension                                                                     275,218            264,211
      Total Imputed Inter-Departmental                                $        801,659       $    878,014




                             These notes are an integral part of the financial statements.




                                                        -80-
                FY 2013 U.S. Department of Justice Annual Financial Statements

                          Notes to the Principal Financial Statements
                                 (Dollars in Thousands, Except as Noted)

Note 19. Imputed Financing from Costs Absorbed by Others (continued)

Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, Managerial Cost Accounting
Standards and Concepts, are the unreimbursed portion of the full costs of goods and services received by
a Department component from a providing entity that is part of the Department. Recognition is required
for those transactions determined to be material to the receiving entity. The determination of whether the
cost is material requires considerable judgment based on the specific facts and circumstances of each type
of good or service provided. SFFAS No. 4 also states that costs for broad and general support need not be
recognized by the receiving entity, unless such services form a vital and integral part of the operations or
output of the receiving entity. Costs are considered broad and general if they are provided to many, if not
all, reporting components and not specifically related to the receiving entity’s output. The FPI imputed
$21,069 and $24,718 for FYs 2013 and 2012, respectively of unreimbursed costs for BOP warehouse
space used in the production of goods by the FPI and for managerial and operational services BOP
provided to FPI. These imputed costs have been eliminated from the consolidated financial statements.

Note 20. Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:

                                                                                                     Total
                                                        Direct              Reimbursable          Obligations
                                                       Obligations           Obligations           Incurred
For the Fiscal Year Ended September 30, 2013
   Obligations Apportioned Under
      Category A                                     $ 26,637,125           $    4,327,099    $        30,964,224
      Category B                                        3,743,760                  219,525              3,963,285
      Exempt from Apportionment                                 -                  574,221                574,221
   Total                                             $ 30,380,885           $    5,120,845    $        35,501,730

For the Fiscal Year Ended September 30, 2012
   Obligations Apportioned Under
      Category A                                     $ 28,500,520           $    5,919,576    $        34,420,096
      Category B                                        5,928,795                  204,702              6,133,497
      Exempt from Apportionment                                 -                  697,683                697,683
   Total                                             $ 34,429,315           $    6,821,961    $        41,251,276



The apportionment categories are determined in accordance with the guidance provided in Part 4
“Instructions on Budget Execution” of OMB Circular A-11, Preparation, Submission and Execution of
the Budget. Category A obligations represent resources apportioned for calendar quarters. Category B
obligations represent resources apportioned for other time periods; for activities, projects, and objectives
or for a combination thereof.




                              These notes are an integral part of the financial statements.




                                                         -81-
               FY 2013 U.S. Department of Justice Annual Financial Statements

                         Notes to the Principal Financial Statements
                                (Dollars in Thousands, Except as Noted)

Note 20. Information Related to the Statement of Budgetary Resources (continued)

Status of Undelivered Orders:

Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which have not been
actually or constructively received. This amount includes any orders which may have been prepaid or
advanced but for which delivery or performance has not yet occurred.

As of September 30, 2013 and 2012
                                                               2013                     2012

 UDO Obligations Unpaid                                  $     8,989,622          $    10,343,834
 UDO Obligations Prepaid/Advanced                                605,618                1,172,884
   Total UDO                                             $     9,595,240          $    11,516,718



Permanent Indefinite Appropriations:

A permanent indefinite appropriation is open-ended as to both its period of availability (amount of time
the agency has to spend the funds) and its amount. Following are the Department’s permanent indefinite
appropriations.

       28 U.S.C. '524(c)(4) authorized the Attorney General to retain AFF receipts to pay operations
        expenses, equitable sharing to state and local law enforcement agencies who assist in forfeiture
        cases, and lien holders.

       On October 5, 1990, Congress passed the Radiation Exposure Compensation Act ("RECA" or
        "the Act"), 42 U.S.C. §2210, providing for compassionate payments to individuals who
        contracted certain cancers and other serious diseases as a result of their exposure to radiation
        released during above-ground nuclear weapons tests or as a result of their exposure to radiation
        during employment in underground uranium mines. Implementing regulations were issued by the
        Department of Justice and published in the Federal Register on April 10, 1992. These regulations
        established procedures to resolve claims in a reliable, objective, and non-adversarial manner, with
        little administrative cost to the United States or to the person filing the claim. Revisions to the
        regulations, published in the Federal Register on March 22, 1999, served to greater assist
        claimants in establishing entitlement to an award. On July 10, 2000, P.L. 106-245, the Radiation
        Exposure Compensation Act Amendments of 2000 ("the 2000 Amendments") were passed. On
        November 2, 2002, the President signed the "21st Century Department of Justice Appropriation
        Authorization Act" (P.L. 107-273). Contained in the law were several provisions relating to
        RECA. While most of these amendments were "technical" in nature, some affected eligibility
        criteria and revised claims adjudication procedures. The Consolidated Appropriations Act, 2005
        provides a permanent indefinite appropriation for the OBDs’ Radiation Exposure Compensation
        Act program beginning FY 2006.



                             These notes are an integral part of the financial statements.




                                                        -82-
                FY 2013 U.S. Department of Justice Annual Financial Statements

                          Notes to the Principal Financial Statements
                                 (Dollars in Thousands, Except as Noted)

Note 20. Information Related to the Statement of Budgetary Resources (continued)

Permanent Indefinite Appropriations (continued):

       Congress established the Federal Prison Commissary Fund (Trust Fund) in 1932 to allow inmates
        a means to purchase additional products and services above the necessities provided by
        appropriated federal funds. The BOP Trust Fund is now a self-sustaining revolving account that
        is funded through the sales of goods and services, rather than annual or no-year appropriations.

       The Public Safety Officers’ Benefits Act of 1976 (the “PSOB Act”) is generally codified at 42
        U.S.C. '46 Subchapter XII.

        OJP’s PSOB appropriation supports one mandatory and two discretionary programs that provide
        benefits to public safety officers who are severely injured in the line of duty and to the families
        and survivors of public safety officers killed or mortally injured in the line of duty.
        The PSOB Program offers three types of benefits:

            1. Death Benefits, a one-time financial benefit to survivors of public safety officers whose
               deaths resulted from injuries sustained in the line of duty. Under the Hometown Heroes
               Survivors Benefit Act of 2003, survivors of public safety officers who die of a heart
               attack or stroke within 24 hours of stressful, non-routine public safety activities may also
               qualify for death benefits.

            2. Disability Benefits, a one-time financial benefit to public safety officers permanently
               disabled by catastrophic injuries sustained in the line of duty.

            3. Education Benefits, which provide financial support for higher education expenses (such
               as tuition and fees, books, supplies, and room and board) to the eligible spouses and
               children of public safety officers killed or permanently disabled in the line of duty.

Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not obligated and that
remains available for obligation under law, unless otherwise restricted. The use of unobligated balances
is restricted based on annual legislation requirements and other enabling authorities. Funds are
appropriated on an annual, multi-year, and no-year basis. Appropriated funds shall expire on the last day
of availability and are no longer available for new obligations. Unobligated balances in unexpired fund
symbols are available in the next fiscal year for new obligations unless some restrictions had been placed
on those funds by law. Amounts in expired fund symbols are unavailable for new obligations, but may be
used to adjust previously established obligations.




                              These notes are an integral part of the financial statements.




                                                         -83-
                    FY 2013 U.S. Department of Justice Annual Financial Statements

                                 Notes to the Principal Financial Statements
                                            (Dollars in Thousands, Except as Noted)

Note 20. Information Related to the Statement of Budgetary Resources (continued)

Statement of Budgetary Resources vs. Budget of the United States Government:

The reconciliation as of September 30, 2012 is presented below. The reconciliation as of September 30,
2013 is not presented, because the submission of the Budget of the United States (Budget) for FY 2015,
which presents the execution of the FY 2013 Budget, occurs after publication of these financial
statements. The Department of Justice Budget Appendix can be found on the OMB website
(http://www.whitehouse.gov/omb/budget) and will be available in early February 2014.

For the Fiscal Year Ended September 30, 2012
  (Dollars in Millions)                                                                                  Distributed
                                                                        Budgetary     Obligations        Offsetting             Net
                                                                        Resources      Incurred           Receipts             Outlays

Statement of Budgetary Resources (SBR)                              $       45,288    $    41,251    $            1,425    $      31,601

Funds not Reported in the Budget
      Expired Funds: OBDs, USMS, DEA, OJP, FBI, ATF & BOP                     (864)          (130)                    -                 -
      AFF/SADF Forfeiture Activity                                            (106)             -                     -                 -
      OCDETF Adjustments                                                       (25)           (26)                    -                 -
      USMS Court Security Funds                                               (438)          (425)                    -              (426)
      Distributed Offsetting Receipts                                            -              -                  (818)              818
      Special and Trust Fund Receipts                                            -              -                     -               609
Other                                                                          (14)            (3)                   (1)               (1)

Budget of the United States Government                              $       43,841    $    40,667    $             606     $      32,601



Other differences represent financial statement adjustments, timing differences and other immaterial
differences between amounts reported in the Department SBR and the Budget of the United States
Government.




                                         These notes are an integral part of the financial statements.




                                                                    -84-
                FY 2013 U.S. Department of Justice Annual Financial Statements

                          Notes to the Principal Financial Statements
                                (Dollars in Thousands, Except as Noted)

Note 21. Net Custodial Revenue Activity

Custodial revenue activity represents those collections of non-exchange revenue on behalf of other
recipient entities. These collections are not recorded as revenue by the Department but as activity on the
Statements of Custodial Activity. The custodial liabilities presented on the Consolidated Balance Sheets
and Note 15 represent funds held by the Department that have yet to be disbursed to the appropriate
Federal agency or individual.

The primary source of the Department’s Office of Debt Collection Management (DCM) collections
consists of civil litigated matters, e.g., student loan defaults, and health care fraud. The DCM also
processes certain payments on criminal debts as an accommodation for the BOP and the Clerks of the
U.S. District Courts. The BOP aggregates collections of inmate criminal debt by correction facility, and
the DCM sorts the collections by judicial district and disburses payments to the respective Clerks of the
U.S. Court. The DCM also accepts wire transfers or other payments on a criminal debt if a Clerk of the
U.S. Court is unable or unwilling to do so. In addition, other negligible custodial collections occur for
interest, fines, and penalties.

The OBDs collect civil fines, penalties, and restitution payments that are incidental to its mission. By
court order, the OBDs were given the investment authority and the settlement funds collected must be
invested. The OBDs invest these funds with the Treasury Bureau of the Public Debt. As of September
30, 2013 and 2012, the custodial assets and liabilities recorded by the OBDs on the Consolidated Balance
Sheets are $1,372,581 and $1,320,292, respectively. The OBDs custodial collections totaled $5,637,603
and $7,035,591 for the fiscal years ended September 30, 2013 and 2012.

For the fiscal years ended September 30, 2013 and 2012, DEA collected $101,630 and $27,595,
respectively. DEA’s collections include $15 million of the total fees collected for the Diversion Control
Program and civil monetary penalties related to violations of the Controlled Substances Act that were
incidental to DEA’s mission. Since DEA has no statutory authority to use these excess funds, DEA
transmits them to the Treasury General Fund. The DEA has a custodial liability for funds that have not
yet been transmitted to the Treasury General Fund. As of September 30, 2013 and 2012 balances for
custodial liabilities were $2,856 and $3,781, respectively.

As an agent of the federal government and as authorized by 26 U.S.C. § 6301, ATF collects fees from
firearms and explosives industries, as well as import, permit and license fees. Special Occupational Taxes
are collected from certain firearms businesses. Miscellaneous collections include project-generated
proceeds. As ATF is unable to use these collections in its operations, ATF also has the authority to
transfer these collections to the Treasury General Fund. The ATF custodial collections totaled $69,980
and $24,675 for the fiscal years ended September 30, 2013 and 2012, respectively.

The FBI collected $872 and $10,736, in September 30, 2013 and 2012, respectively, in restitution
payments, seized abandoned cash, and project generated proceeds. These collections were incidental to
the FBI’s mission. Since the FBI does not have statutory authority to use these funds, the FBI remits these
funds upon receipt to the U.S. Treasury’s General Fund. The FBI reports a custodial liability when
custodial revenues are held by the FBI, but have not yet been transmitted to the U.S. Treasury’s General
Fund. As of September 30, 2013 and 2012, balances for custodial liabilities were $5 and $0, respectively.


                             These notes are an integral part of the financial statements.




                                                        -85-
               FY 2013 U.S. Department of Justice Annual Financial Statements

                         Notes to the Principal Financial Statements
                               (Dollars in Thousands, Except as Noted)

Note 21. Net Custodial Revenue Activity (continued)

As of September 30, 2013 and 2012, the BOP collected $46 and $54, respectively, in collections of fines
and penalties, confiscated funds, found money on institution grounds, inmate’s funds whose whereabouts
are unknown and excess meal ticket collections. These collections were incidental to the BOP’s mission.
Since the BOP does not have statutory authority to use these funds, the BOP remits these funds to the
Treasury’s General Fund. As of September 30, 2013 and 2012, the BOP did not have any custodial
liabilities.




                            These notes are an integral part of the financial statements.




                                                       -86-
                 FY 2013 U. S. Department of Justice Annual Financial Statements

                            Notes to the Principal Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 22. OMB Circular A-136 Consolidated Balance Sheet Presentation

                                              U.S. Department of Justice
                                             Consolidated Balance Sheets
                                          As of September 30, 2013 and 2012
    Dollars in Thousands                                                                             2013             2012

    ASSETS
      Intragovernmental
        Fund Balance with U.S. Treasury                                                $   23,226,071       $   24,745,298
        Investments, Net                                                                    6,650,960            6,213,903
        Accounts Receivable, Net                                                              452,327              324,327
        Other Assets                                                                           92,370              266,573
      Total Intragovernmental                                                              30,421,728           31,550,101
      Cash and Other Monetary Assets                                                          174,798              260,682
      Accounts Receivable, Net                                                                 81,892              115,612
      Inventory and Related Property, Net                                                     132,814              166,609
      General Property, Plant and Equipment, Net                                           10,017,323           10,186,144
      Other Assets                                                                            590,205              911,566
    Total Assets                                                                       $   41,418,760       $   43,190,714

    LIABILITIES
      Intragovernmental
        Accounts Payable                                                              $           339,253   $      302,575
         Other Liabilities                                                                      1,645,619        1,743,663
      Total Intragovernmental                                                                   1,984,872        2,046,238

      Accounts Payable                                                                      4,203,261            4,108,056
      Federal Employee and Veteran Benefits                                                 1,632,616            1,474,278
      Environmental and Disposal Liabilities                                                   76,676               74,441
      Other Liabilities                                                                     7,449,568            8,238,972
    Total Liabilities                                                                  $   15,346,993       $   15,941,985
    NET POSITION
      Unexpended Appropriations - Funds from Dedicated Collections        $                    35,768       $       25,963
      Unexpended Appropriations - All Other Funds                                           8,649,121           10,568,815
      Cumulative Results of Operations - Funds from Dedicated Collections                  11,940,472           10,949,539
      Cumulative Results of Operations - All Other Funds                                    5,446,406            5,704,412
    Total Net Position                                                    $                26,071,767       $   27,248,729
    Total Liabilities and Net Position                                                 $   41,418,760       $   43,190,714

                                These notes are an integral part of the financial statements.




                                                       -87-
                 FY 2013 U. S. Department of Justice Annual Financial Statements

                            Notes to the Principal Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 23. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the Statement of
Financing)
For the Fiscal Years Ended September 30, 2013 and 2012

                                                                                                2013            2012
Resources Used to Finance Activities

   Budgetary Resources Obligated
      Obligations Incurred                                                                 $ 35,501,730      $ 41,251,276
      Less: Spending Authority from Offsetting Collections and Recoveries                     6,304,918         8,071,018
      Obligations Net of Offsetting Collections and Recoveries                               29,196,812        33,180,258
      Less: Offsetting Receipts                                                                 933,877         1,425,127
      Net Obligations                                                                        28,262,935        31,755,131

   Other Resources
       Donations and Forfeitures of Property                                                      185,772        120,275
       Transfers-In/Out Without Reimbursement                                                       2,080        (12,623)
       Imputed Financing from Costs Absorbed by Others (Note 19)                                  801,659        878,014
       Other                                                                                       (6,166)        (5,199)
       Net Other Resources Used to Finance Activities                                             983,345        980,467
Total Resources Used to Finance Activities                                                     29,246,280     32,735,598

Resources Used to Finance Items not Part of the Net Cost of
   Operations
       Net Change in Budgetary Resources Obligated for Goods, Services
          and Benefits Ordered but not Yet Provided                                             1,664,943      1,565,963
       Resources That Fund Expenses Recognized in Prior Periods (Note 24)                        (106,481)       (68,557)
       Budgetary Offsetting Collections and Receipts That do not
          Affect Net Cost of Operations                                                            99,050        700,546
       Resources That Finance the Acquisition of Assets                                          (905,379)    (1,069,993)
       Other Resources or Adjustments to Net Obligated Resources
          That do not Affect Net Cost of Operations                                               (15,500)        24,810
Total Resources Used to Finance Items not Part of the Net Cost
   of Operations                                                                                 736,633       1,152,769

Total Resources Used to Finance the Net Cost of Operations                                 $ 29,982,913      $ 33,888,367




                               These notes are an integral part of the financial statements.




                                                             -88-
                 FY 2013 U. S. Department of Justice Annual Financial Statements

                           Notes to the Principal Financial Statements
                                 (Dollars in Thousands, Except as Noted)

Note 23. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the Statement of
Financing) (continued)

For the Fiscal Years Ended September 30, 2013 and 2012                                        2013           2012

Components of Net Cost of Operations That Will not Require
  or Generate Resources in the Current Period

      Components Requiring or Generating Resources in Future Periods
      Components That will Require or Generate Resources in
      Future Periods (Note 24)                                                            $    260,293    $ 3,174,134
      Depreciation and Amortization                                                            854,143      1,059,391
      Revaluation of Assets or Liabilities                                                      (1,912)        35,468
      Other                                                                                     55,593         37,210
      Total Components of Net Cost of Operations That will not Require or
         Generate Resources                                                                    907,824      1,132,069

Total Components of Net Cost of Operations That Will not
    Require or Generate Resources in the Current Period                                       1,168,117     4,306,203

Net Cost of Operations                                                                    $ 31,151,030    $ 38,194,570




                              These notes are an integral part of the financial statements.




                                                     -89-
                   FY 2013 U. S. Department of Justice Annual Financial Statements

                               Notes to the Principal Financial Statements
                                      (Dollars in Thousands, Except as Noted)

Note 24. Explanation of Differences Between Liabilities not Covered by Budgetary Resources and
Components of Net Cost of Operations Requiring or Generating Resources in Future Periods

Liabilities that are not covered by realized budgetary resources and for which there is no certainty that
budgetary authority will be realized, such as the enactment of an appropriation, are considered liabilities not
covered by budgetary resources. These liabilities totaling $6,836,945 and $6,695,824 as of September 30,
2013 and 2012, respectively, are discussed in Note 11, Liabilities not Covered by Budgetary Resources.
Decreases in these liabilities result from current year budgetary resources that were used to fund expenses
recognized in prior periods. Increases in these liabilities represent unfunded expenses that were recognized in
the current period. These increases along with the change in the portion of exchange revenue receivables from
the public, which are not considered budgetary resources until collected, represent components of current
period net cost of operations that will require or generate budgetary resources in future periods. The changes
in liabilities not covered by budgetary resources and receivables generating resources in future periods are
comprised of the following:

For the Fiscal Years Ended September 30, 2013 and 2012
                                                                                                       2013            2012
 Resources that Fund Expenses Recognized in Prior Periods
   Decrease in Accrued Annual and Compensatory Leave Liabilities                                   $   (11,087)   $           -
   Other
      Decrease in Contingent Liabilities                                                               (1,980)          (40,101)
      Decrease in Unfunded Capital Lease Liabilities                                                   (7,911)           (7,314)
      Decrease in RECA Liabilities                                                                    (70,772)                -
     Decrease in September 11th Victim Compensation Fund Liabilities                                  (14,688)                -
      Decrease in Other Unfunded Employment Related Liabilities                                           (43)             (594)
      Decrease in Other Liabilities                                                                         -           (20,548)
         Total Other                                                                                  (95,394)          (68,557)
         Total Resources that Fund Expenses Recognized in Prior Periods                            $ (106,481)    $     (68,557)

 Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
   Increase in Accrued Annual and Compensatory Leave Liabilities                           $         -            $      7,228
   Increase in Environmental and Disposal Liabilities                                            2,235                   1,732
   (Increase)/Decrease in Exchange Revenue Receivable from the Public                           14,119                  21,078
   Other
      Increase in Actuarial FECA Liabilities                                                   158,338                  114,918
      Increase in Accrued FECA Liabilities                                                       5,965                   10,084
      Increase in Deferred Revenue                                                              68,494                   50,654
      Increase in RECA Liabilities                                                                   -                  195,399
      Increase in September 11th Victim Compensation Fund Liabilities                                -                2,766,400
      Increase in Other Liabilities                                                             12,569                        -
      (Increase)/Decrease in Nonexchange Receivables from the Public                                 -                      (96)
      (Increase)/Decrease in Surcharge Revenue Receivable
            from Other Federal Agencies                                                         (1,427)                   6,737
         Total Other                                                                                   243,939        3,144,096
         Total Components of Net Cost of Operations That Will Require or
           Generate Resources in Future Periods                                                    $ 260,293      $ 3,174,134


                                   These notes are an integral part of the financial statements.




                                                                 -90-
                  FY 2013 U. S. Department of Justice Annual Financial Statements

                             Notes to the Principal Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 25. Compensation Funds

Radiation Exposure Compensation Act

On October 15, 1990, Congress passed the Radiation Exposure Compensation Act (RECA), 42 U.S.C. § 2210,
providing for compassionate payments to individuals who contracted certain cancers and other serious diseases
as a result of their exposure to radiation released during above-ground nuclear weapons tests or as a result of
their exposure to radiation during employment in underground uranium mines. Implementing regulations were
issued by the Department and published in the Federal Register on April 10, 1992, establishing procedures to
resolve claims in a reliable, objective, and non-adversarial manner, with little administrative cost to the United
States or to the person filing the claim. Revisions to the regulations, published in the Federal Register on
March 22, 1999, served to greater assist claimants in establishing entitlement to an award.

On July 10, 2000, the Radiation Exposure Compensation Act Amendments of 2000, P.L. 106-245, was
enacted. Some of the widespread changes include new claimant populations, additional compensable diseases,
lower radiation exposure thresholds, modified medical documentation requirements, and removal of certain
disease restrictions. Pursuant to the 2000 Amendments, the Department was directed to issue implementing
regulations. The Department published two related rulemakings in the Federal Register to implement the
legislation.

Subsequent action by Congress required modification to those rulemakings. Therefore, the Department
published a “final” rule in the Federal Register on March 23, 2004, which went into effect on April 22, 2004.

There are now five categories of claimants: uranium miners, uranium millers, ore transporters, downwinders,
and on-site participants. Each category requires similar eligibility criteria: if claimants can demonstrate that
they contracted a compensable disease after working or residing in a designated location for a specified period
of time, they qualify for compensation.

The enactment of two pieces of legislation changed the funding sources for RECA claimants. The National
Defense Authorization Act for FY 2005 requires that RECA Section 5 claimants (uranium miners, millers, and
ore transporters) be paid out of the Department of Labor’s (Labor) Energy Employees Occupational Illness
Compensation Fund. The RECA Section 5 liability of $316,993 as of March 30, 2004, was transferred to
Labor during FY 2005. The RECA Fund began exclusively paying RECA Section 4 claimants (downwinders
and on-site participants) in FY 2005. The Consolidated Appropriations Act, 2005, contains language that
made funding for the RECA Trust Fund mandatory and indefinite beginning in FY 2006.

The OBDs recognized liabilities of $660,465 and $731,237 for estimated future benefits payable by the
Department as of September 30, 2013 and 2012, respectively, to eligible individuals under the Act through
FY 2023. The estimated liability is based on historical data. Key factors in determining future liability are
trends in the number of claims filed, trends in the percentage of claims adjudicated, and trends in the
percentage of claims approved. These estimates are then discounted in accordance with the discount rates set
by the Office of Management and Budget.



                                These notes are an integral part of the financial statements.




                                                       -91-
                 FY 2013 U. S. Department of Justice Annual Financial Statements

                            Notes to the Principal Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 25. Compensation Funds (continued)

September 11th Victim Compensation Fund

Title II of The James Zadroga 9/11 Health and Compensation Act of 2010 (Zadroga Act) P.L. 111-347,
reactivated the September 11th Victim Compensation Fund of 2001 and requires a Special Master, appointed
by the Attorney General, to provide compensation to any individual (or a personal representative of a deceased
individual) who suffered physical harm or was killed as a result of the terrorist-related aircraft crashes of
September 11, 2001, or the debris removal efforts that took place in the immediate aftermath of those crashes.
The Zadroga Act amends the Air Transportation Safety and System Stabilization Act by among other things:
Expanding the geographic zone recognized as a 9/11 crash site and providing greater consistency with the
World Trade Center Health Program by adding additional forms of proof that may be used to establish
eligibility.
The Zadroga Act requires that the total amount of Federal funds paid including compensation with respect to
claims filed on or after October 3, 2011, shall not exceed $2,775,000. Furthermore, the total amount of
Federal funds expended during the period from October 3, 2011, through October 3, 2016, may not exceed
$875,000. As of September 30, 2013, the Department of Justice received appropriations of $521,280, which
included rescissions of $720. Based on OMB guidance DOJ is to return all apportioned unobligated funds at
the end of each fiscal year via Treasury’s FMS 2108, Year-End Closing Statement. Summarized financial
information about appropriated funds received, donations received from the public, benefit payments disbursed
and payable, and the Fund balance is presented below:
As of September 30, 2013 and 2012
                                                                                      2013           2012
Appropriated Funds Received - Current Year                                        $   322,000    $         -
Appropriated Funds Received - Carryforward                                            193,788        200,000
Rescission                                                                               (720)             -
Total Funds Received                                                                  515,068        200,000

Less:  Adjudicated Benefit Claims Disbursements                                            559             -
       Salaries and Expenses Disbursements                                               7,789         6,212
       Funds Returned to Treasury                                                      497,992             -
       Total Disbursements                                                             506,340         6,212
Fund Balance with Treasury                                                        $      8,728   $   193,788

Federal Funds Available for September 11th Victim Compensation Fund $ 2,766,400                  $ 2,775,000
Less:   Change in Unpaid Obligations                                                     6,340         2,388
        Adjudicated Benefit Claims Disbursements                                           559             -
        Salaries and Expenses Disbursements                                              7,789         6,212
        Total Funded Liabilities                                                        14,688         8,600
Unfunded Liability for September 11th Victim Compensation Fund                    $ 2,751,712    $ 2,766,400


                               These notes are an integral part of the financial statements.




                                                             -92-
                        FY 2013 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Principal Financial Statements
                                            (Dollars in Thousands, Except as Noted)

Note 26. Changes in Accounting Principles

Based upon early implementation of DOJ Financial Management Policy Memorandum, (FMPM) 13-12,
Capitalization of General Property, Plant, and Equipment and Internal Use Software, most of the
Department’s components fully or partially revised their capitalization thresholds. Effective FY 2013, the
AFF, OBDs, OJP, and FBI revised capitalization thresholds for real property, personal property, and internal
use software; and the USMS, DEA, and BOP revised capitalization threshold for internal use software. DEA
has planned to fully implement the revised capitalization thresholds in FY 2014. Full implementation of
revised capitalization thresholds for components meeting the defined criteria is required by FY 2015. This
policy is preferable because it increases the efficiency and cost effectiveness of DOJ property management
efforts while maintaining a system of internal controls.

For financial statement purposes, DOJ recognized adjustments relating to the change in the capitalization
thresholds as changes to the General PP&E’s Net Book Value primarily for real property, including leasehold
improvements; personal property, and internal use software. DOJ reported the offsetting change as “Changes
in Accounting Principles” in the Statement of Changes in Net Position. For the fiscal year ended September
30, 2013, DOJ’s management has determined the adjustment to the beginning balance in the amount
of $274,648.

The adjustment by component is illustrated in the table below.

Type of Property          AFF/SADF       OBDs           USMS         OJP          DEA             FBI            BOP            Total
Real Property             $         -    $    (9,422)   N/A          $         - N/A               $ (28,890)    N/A            $      (38,312)
Personal Property         $         -    $    (3,838)   N/A          $    (1,199) N/A              $ (168,859)   N/A            $     (173,896)
Internal Use Software     $      (531)   $    (1,354)   $          - $         - $ (12,340)        $ (39,428)    $    (8,787)   $      (62,440)
Total                     $     (531)    $ (14,614)     $          - $   (1,199) $ (12,340)        $ (237,177)   $   (8,787)    $ (274,648)




                                         These notes are an integral part of the financial statements.




                                                                -93-
This page intentionally left blank.




                -94-
5HTXLUHG 6XSSOHPHQWDU\ ,QIRUPDWLRQ
           8QDXGLWHG




              -95-
                                                                                                                           U. S. Department of Justice
                                                                                                                  Combining Statement of Budgetary Resources
                                                                                                                  For the Fiscal Year Ended September 30, 2013

       Dollars in Thousands                                                                    AFF/SADF           OBDs              USMS              OJP              DEA              FBI              ATF             BOP              FPI            Combined


       Budgetary Resources

         Unobligated Balance, Net, Brought Forward, October 1                              $        762,009   $     1,127,089   $      101,959    $     177,965    $     167,398    $    1,099,469   $      46,209   $     395,915    $    158,419   $        4,036,432

         Recoveries of Prior Year Unpaid Obligations                                                 76,720           281,144            42,537          109,297          124,497          358,191          21,838           14,780              -            1,029,004
         Other Changes in Unobligated Balance                                                             -            15,854            46,940           (3,468)            (386)         (16,230)         (1,570)         (60,086)             -              (18,946)
         Unobligated Balance from Prior Year Budget Authority, Net                                  838,729         1,424,087           191,436          283,794          291,509        1,441,430          66,477          350,609        158,419            5,046,490
         Appropriations (discretionary and mandatory)                                             1,849,037         4,838,144         3,045,350        2,168,196        2,255,829        7,419,644       1,070,888        6,527,205              -           29,174,293
         Spending Authority from Offsetting Collections (discretionary and mandatory)                20,595         2,115,083            86,010          209,014          497,424        1,237,756          79,299          415,990        614,743            5,275,914
         Total Budgetary Resources                                                         $      2,708,361   $     8,377,314   $     3,322,796   $    2,661,004 $      3,044,762 $     10,098,830 $     1,216,664 $      7,293,804 $      773,162   $       39,496,697

       Status of Budgetary Resources:
         Obligations Incurred (Note 21)                                                    $      1,821,623   $     7,469,473   $     3,166,404   $    2,480,371   $    2,811,950   $    8,974,391   $   1,183,167   $    7,020,130   $    574,221   $       35,501,730
         Unobligated Balance, End of Period
             Apportioned                                                                            639,271           671,491           126,660          170,590          203,634          831,392          15,908           99,040              -            2,757,986
             Exempt from Apportionment                                                                    -                 -                 -                -                -                -               -           67,666        198,941              266,607
             Unapportioned                                                                          247,467           236,350            29,732           10,043           29,178          293,047          17,589          106,968              -              970,374
         Total Unobligated Balance - End of Period                                                  886,738           907,841           156,392          180,633          232,812        1,124,439          33,497          273,674        198,941            3,994,967
       Total Status of Budgetary Resources:                                                $      2,708,361   $     8,377,314   $     3,322,796   $    2,661,004   $    3,044,762   $   10,098,830   $   1,216,664   $    7,293,804   $    773,162   $       39,496,697

       Change in Obligated Balance:
         Unpaid Obligations
             Unpaid obligations, Brought Forward, October 1                                $       2,849,380 $       4,179,328 $        537,767 $      4,278,196 $        722,184 $       3,072,245 $       258,628 $       868,945 $       163,704 $        16,930,377
             Obligations Incurred                                                                  1,821,623         7,469,473        3,166,404        2,480,371        2,811,950         8,974,391       1,183,167       7,020,130         574,221          35,501,730
             Outlays, Gross (-)**                                                                 (1,462,508)       (8,031,666)      (3,202,913)      (2,734,354)      (2,903,259)       (9,262,651)     (1,225,296)     (7,162,998)       (619,438)        (36,605,083)
             Recoveries of Prior Year Unpaid Obligations (-)**                                       (76,720)         (281,144)         (42,537)        (109,297)        (124,497)         (358,191)        (21,838)        (14,780)              -          (1,029,004)
-96-




             Unpaid Obligations, End of Period                                                     3,131,775         3,335,991          458,721        3,914,916          506,378         2,425,794         194,661         711,297         118,487          14,798,020
         Uncollected Payments
             Uncollected Payments from Federal Sources, Brought Forward, October 1 (-)**             (8,889)         (840,730)        (160,071)          (27,583)       (185,933)         (568,468)        (67,071)         (10,038)        (21,578)         (1,890,361)
             Change in Uncollected Customer Payments from Federal Sources                             1,712           184,867          140,402           (61,396)          5,172           (49,058)         11,032            4,530         (13,805)            223,456
             Uncollected Customer Payments from Federal Sources                            $         (7,177) $       (655,863) $       (19,669) $        (88,979) $     (180,761) $       (617,526) $      (56,039) $        (5,508) $      (35,383) $       (1,666,905)
         Memorandum (non-add) Entries
             Obligated balance, Start of Period                                                   2,840,491         3,338,598          377,696         4,250,613         536,251         2,503,777         191,557         858,907         142,126           15,040,016
             Obligated balance, End of Period                                                     3,124,598         2,680,128          439,052         3,825,937         325,617         1,808,268         138,622         705,789          83,104           13,131,115
                                                                                                         U. S. Department of Justice
                                                                                           Combining Statement of Budgetary Resources - Continued
                                                                                               For the Fiscal Year Ended September 30, 2013

       Dollars in Thousands                                                     AFF/SADF           OBDs              USMS              OJP              DEA              FBI              ATF             BOP              FPI            Combined

       Budgetary Authority and Outlays, Net:
         Budgetary Authority, Gross (discretionary and mandatory)           $      1,869,632   $     6,953,227   $     3,131,360   $    2,377,210 $      2,753,253   $    8,657,400 $     1,150,187   $    6,943,195   $    614,743 $         34,450,207
         Less Actual Offsetting Collections (discretionary and mandatory)             22,306         2,299,950           226,412          147,618          502,596        1,188,698          90,331          420,520        600,938            5,499,369
         Change in Uncollected Customer Payments from Federal Sources                  1,712           184,867           140,402          (61,396)           5,172          (49,058)         11,032            4,530        (13,805)             223,456
             (discretionary and mandatory)
         Budget Authority, Net (discretionary and mandatory)                $      1 849 038   $     4 838 144   $     3 045 350   $    2 168 196   $    2 255 829   $    7 419 644   $   1 070 888   $    6 527 205   $         -    $       29 174 294

         Outlays, Gross (discretionary and mandatory)                       $      1,462,508   $     8,031,666   $     3,202,913   $    2,734,354   $    2,903,259   $    9,262,651 $     1,225,296   $    7,162,998   $    619,438   $       36,605,083
         Less Actual Offsetting Collections (discretionary and mandatory)             22,306         2,299,950           226,412          147,618          502,596        1,188,698          90,331          420,520        600,938            5,499,369
         Outlays, Net (discretionary and mandatory)                                1,440,202         5,731,716         2,976,501        2,586,736        2,400,663        8,073,953       1,134,965        6,742,478         18,500           31,105,714
         Less Distributed Offsetting Receipts                                          5 106           540 343                 -                -          345 852           (3 938)         41 520            4 994              -              933 877
         Agency Outlays, Net (discretionary and mandatory)                  $      1,435,096   $     5,191,373   $     2,976,501   $    2,586,736   $    2,054,811   $    8,077,891 $     1,093,445   $    6,737,484   $     18,500   $       30,171,837


                                                                                               `
-97-
                                                                                                                              U. S. Department of Justice
                                                                                                                     Combining Statement of Budgetary Resources
                                                                                                                     For the Fiscal Year Ended September 30, 2012

       Dollars in Thousands                                                               AFF/SADF           OBDs              USMS              OJP              DEA              FBI               ATF                  BOP               FPI            Combined


       Budgetary Resources

         Unobligated Balance, Net, Brought Forward, October 1                        $       1,088,719   $      814,323    $       90,397          187,462    $      158,292   $     947,534     $          60,967    $      379,813    $    154,816   $        3,882,323

         Recoveries of Prior Year Unpaid Obligations                                            84,186           224,583           54,620           53,296           114,289          290,427               32,746            23,388               -              877,535
         Other Changes in Unobligated Balance                                                        -            67,691           (7,632)          (2,409)               21          (53,259)             (14,933)           (1,862)              -              (12,383)
         Unobligated Balance from Prior Year Budget Authority, Net                           1,172,905         1,106,597          137,385          238,349           272,602        1,184,702               78,780           401,339         154,816            4,747,475
         Appropriations (discretionary and mandatory)                                        4,100,446         7,142,929         1,610,644        2,286,418        2,346,455        8,110,411          1,151,866           6,597,581               -           33,346,750
         Spending Authority from Offsetting Collections (discretionary and mandatory)           17,027         2,162,444         1,538,614          196,233          525,323        1,395,880             94,820             561,856         701,286            7,193,483
         Total Budgetary Resources                                                    $      5,290,378   $    10,411,970   $     3,286,643   $    2,721,000   $    3,144,380   $   10,690,993    $     1,325,466      $    7,560,776    $    856,102   $       45,287,708

       Status of Budgetary Resources:
         Obligations Incurred (Note 21)                                                      4,528,369         9,284,881         3,184,684        2,543,035        2,976,982        9,591,524    $     1,279,257           7,164,861         697,683   $       41,251,276
         Unobligated Balance, End of Period:
            Apportioned                                                                        639,541           861,850            61,752          152,618          127,526          624,435             29,929             232,512               -            2,730,163
            Exempt from Apportionment                                                                -                 -                 -                -                -                -                  -              59,772         158,419              218,191
            Unapportioned                                                                      122,468           265,239            40,207           25,347           39,872          475,034             16,280             103,631               -            1,088,078
         Total Unobligated Balance - End of Period                                             762,009         1,127,089           101,959          177,965          167,398        1,099,469             46,209             395,915         158,419            4,036,432
       Total Status of Budgetary Resources:                                          $       5,290,378   $    10,411,970   $     3,286,643   $    2,721,000   $    3,144,380   $   10,690,993    $     1,325,466      $    7,560,776    $    856,102   $       45,287,708

       Change in Obligated Balance:
         Unpaid Obligations:
           Unpaid obligations, Brought Forward, October 1                        $            1,092,300 $      4,564,149 $         648,610 $      5,025,867 $         712,030 $     3,165,268 $          245,431 $          1,051,944 $       171,054 $        16,676,653
           Obligations Incurred                                                               4,528,369        9,284,881         3,184,684        2,543,035         2,976,982       9,591,524          1,279,257            7,164,861         697,683          41,251,276
           Outlays, Gross (-)**                                                              (2,687,103)      (9,445,119)       (3,240,907)      (3,237,410)       (2,852,539)     (9,394,120)        (1,233,314)          (7,324,472)       (705,033)        (40,120,017)
-98-




           Recoveries of Prior Year Unpaid Obligations (-)**                                    (84,186)        (224,583)          (54,620)         (53,296)         (114,289)       (290,427)           (32,746)             (23,388)              -            (877,535)
           Unpaid Obligations, End of Period                                                  2,849,380        4,179,328           537,767        4,278,196           722,184       3,072,245            258,628              868,945         163,704          16,930,377
         Uncollected Payments:
           Uncollected Payments from Federal Sources, Brought Forward, October 1                (4,889)         (816,547)        (188,832)          (25,236)        (157,357)        (492,704)             (59,852)          (10,882)        (34,360)          (1,790,659)
           Change in Uncollected Customer Payments from Federal Sources                         (4,000)          (24,183)          28,761            (2,347)         (28,576)         (75,764)              (7,219)              844          12,782              (99,702)
           Uncollected Customer Payments from Federal Sources                    $              (8,889) $       (840,730) $      (160,071) $        (27,583) $      (185,933) $      (568,468) $           (67,071) $        (10,038) $      (21,578) $        (1,890,361)
         Memorandum (non-add) Entries:
           Obligated balance, Start of Period                                                1,087,411         3,747,602          459,778         5,000,631          554,673        2,672,564              185,579         1,041,062         136,694           14,885,994
           Obligated balance, End of Period                                                  2,840,491         3,338,598          377,696         4,250,613          536,251        2,503,777              191,557           858,907         142,126           15,040,016
                                                                                                                   U. S. Department of Justice
                                                                                                     Combining Statement of Budgetary Resources - Continued
                                                                                                         For the Fiscal Year Ended September 30, 2012

       Dollars in Thousands                                                      AFF/SADF           OBDs              USMS              OJP              DEA              FBI              ATF               BOP              FPI            Combined

       Budgetary Authority and Outlays, Net:
         Budgetary Authority, Gross (discretionary and mandatory)            $      4,117,473 $       9,305,373 $       3,149,258   $    2,482,651 $      2,871,778 $      9,506,291 $       1,246,686 $      7,159,437   $    701,286   $       40,540,233
         Less: Actual Offsetting Collections (discretionary and mandatory)             13,027         2,138,261         1,567,371          193,886          496,747        1,320,116            87,601          562,700        714,068            7,093,777
         Change in Uncollected Customer Payments from Federal Sources                  (4,000)          (24,183)           28,761           (2,347)         (28,576)         (75,764)           (7,219)             844         12,782              (99,702)
            (discretionary and mandatory)
         Budget Authority, Net (discretionary and mandatory)                 $      4,100,446   $     7,142,929   $     1,610,648   $    2,286,418   $    2,346,455   $    8,110,411   $     1,151,866   $    6,597,581   $         -    $       33,346,754


         Outlays, Gross (discretionary and mandatory)                        $      2,687,103   $     9,445,119   $     3,240,907   $    3,237,410   $    2,852,539   $    9,394,120   $     1,233,314   $    7,324,472   $    705,033 $         40,120,017
         Less: Actual Offsetting Collections (discretionary and mandatory)             13,027         2,138,261         1,567,371          193,886          496,747        1,320,116            87,601          562,700        714,068            7,093,777
         Outlays, Net (discretionary and mandatory)                                 2,674,076         7,306,858         1,673,536        3,043,524        2,355,792        8,074,004         1,145,713        6,761,772         (9,035)          33,026,240
         Less: Distributed Offsetting Receipts                                          3,327         1,117,582                 -               26          295,736              145             2,859            5,452              -            1,425,127
         Agency Outlays, Net (discretionary and mandatory)                   $      2,670,749   $     6,189,276   $     1,673,536   $    3,043,498   $    2,060,056   $    8,073,859   $     1,142,854   $    6,756,320   $     (9,035) $        31,601,113
-99-
This page intentionally left blank.




                -100-
Required Supplementary Stewardship Information

                  Unaudited




                  -101-
This page intentionally left blank.




                -102-
                                U.S. Department of Justice
                     Required Supplementary Stewardship Information
                           Consolidated Stewardship Investments
         For the Fiscal Years Ended September 30, 2013, 2012, 2011, 2010 and 2009


The Bureau of Justice Assistance administers the Correctional Systems and Correctional
Alternatives for Tribal Lands (CSCATL) and the Violent Offender Incarceration and Truth-In-
Sentencing (VOI/TIS) Incentive grant programs. Both programs provide grants for the purposes of
building and expanding correctional facilities and jails to increase secure confinement space for
violent offenders and implementing correctional alternatives to reduce reliance on incarceration.
VOI/TIS funds are available to any of the 50 United States, the District of Columbia, Puerto Rico,
U.S. Virgin Islands, American Samoa, Guam, the Northern Mariana Islands, and recognized Tribal
governments; while CSCATL funds are available to tribes within the 50 states. The Tribal Law and
Order Act of 2010 (Public Law 111-211) expanded the CSCATL grant program scope to include
multi-purpose justice centers. The facilities built or expanded with these funds constitute non-
federal physical property. Upon completion, the Bureau of Indian Affairs of the Department of
Interior, and/or tribal grantees are responsible for supporting, operating, and maintaining the
correctional facilities.

The CSCATL strategy broadly addresses tribal justice systems and lends support to tribes that:

 − Are interested in establishing/enhancing (tribal/non-tribal) multi-agency cooperation and
 collaborations;

 − Are committed to conducting community-wide assessment for purpose of developing a
 comprehensive master plan that encompasses the design, use, capacity, and cost of adult and/or
 juvenile justice sanctions and services;

 − Wish to explore an array of detention and correctional building options, including prototypical
 or quasi-prototypical concepts/designs for local correctional facilities, multipurpose justice
 centers, and regional facilities; and

 − Are interested in learning about/applying community-based alternatives to help control and
 prevent jail overcrowding due to growing problems involving alcohol, substance abuse, and
 methamphetamine.

CSCATL and VOI/TIS funds expended from fiscal years 2009 through September 30, 2013, are as
follows:


 Dollars in Thousands            2013          2012         2011           2010            2009
 Grants to Indian Tribes           $52,980       $97,553       $52,339        $24,768          $14,320
 Grants to States                        -            84        (1,139)           11,389        41,561
 Total                             $52,980       $97,637       $51,200        $36,157          $55,881




                                         -103-
This page intentionally left blank.




                -104-
Other Information

    Unaudited




   -105-
                                                                                                                                  U. S. Department of Justice
                                                                                                                                  Consolidating Balance Sheet
                                                                                                                         For the Fiscal Year Ended September 30, 2013

        Dollars in Thousands                                                        AFF/SADF            OBDs             USMS             OJP                DEA              FBI              ATF                BOP              FPI                Eliminations           Consolidated

        ASSETS
            Intragovernmental
                Fund Balance with U.S. Treasury                                     $     110,344   $    4,864,402   $      610,946   $   12,960,107     $     565,885    $    2,896,019   $     166,940      $    1,033,784   $      17,644      $                 - $           23,226,071
                Investments, Net                                                        6,068,165          318,275                -                -                 -                 -               -                   -         264,520                        -              6,650,960
                Accounts Receivable, Net                                                    3,322          273,984           15,992            4,857            47,032           319,723          26,418               4,348          35,262                 (278,611)               452,327
                Other Assets                                                                    -           49,978            6,052           39,907            37,257            22,779           1,021                   -               -                  (64,624)                92,370
            Total Intragovernmental                                                     6 181 831        5 506 639          632 990       13 004 871           650 174         3 238 521         194 379           1 038 132         317 426                 (343 235)            30 421 728

              Cash and Monetary Assets                                                   64,219                 46                -                -             14,983           85,326           9,681                 543               -                        -                174,798
              Accounts Receivable, Net                                                        -             43,992              130              225              4,295           24,088             296               5,053           3,813                        -                 81,892
              Inventory and Related Property, Net                                             -                  -            2,860                -              8,505            7,263               -              18,775          95,411                        -                132,814
              Forfeited Property, Net                                                   141,354                  -                -                -                  -                -               -                   -               -                        -                141,354
              General Property, Plant and Equipment, Net                                    603            143,530          281,488            7,622            352,660        2,713,644         197,183           6,239,845          80,748                        -             10,017,323
              Advances and Prepayments                                                        -              1,151                -          406,686             12,387           18,423           1,163               4,315              49                        -                444,174
              Other Assets                                                                    -                  -              184                -                  -                -              28               4 189             276                        -                  4 677
        Total Assets                                                                $ 6,388,007     $    5,695,358   $      917,652   $   13,419,404     $    1,043,004   $    6,087,265   $     402,730      $    7,310,852   $     497,723      $          (343,235) $          41,418,760



        LIABILITIES
              Intragovernmental
                 Accounts Payable                                                   $    105,395    $      176,035   $       44,845   $         21,825   $      28,681    $     188,580    $         11,830   $      36,356    $          3,476   $          (277,770) $             339,253
                 Accrued FECA Liabilities                                                      -             9,603           17,207                 24          26,949           31,303              20,828         158,816               2,135                     -                266,865
                 Custodial Liabilities                                                         -         1,171,842                -                  -           2,856                -                   -               -                   -                     -              1,174,698
                 Other Liabilities                                                           146            36,309            4,687             67,173           7,882           57,541               4,210          31,241              60,332               (65,465)               204,056
              Total Intragovernmental                                                    105 541         1 393 789           66 739             89 022          66 368          277 424              36 868         226 413              65 943              (343 235) $           1 984 872

              Accounts Payable                                                        2,847,058            292,972          213,150          20,591             80,006           323,056          38,013             347,010          41,405                        - $            4,203,261
              Accrued Grant Liabilities                                                       -            121,574                -         266,055                  -                 -               -                   -               -                        -                387,629
              Actuarial FECA Liabilities                                                      -             60,484          103,024             327            169,801           191,516         129,310             956,439          21,715                        -              1,632,616
-106-




              Accrued Payroll and Benefits                                                1,278             53,231           20,855           5,540             25,606            84,948          13,008              61,401           3,754                        -                269,621
              Accrued Annual and Compensatory Leave Liabilities                           1,726            178,487           42,572           5,958             96,571           273,017          49,123             171,578           7,337                        -                826,369
              Environmental and Disposal Liabilities                                          -                  -                -               -                  -            10,451               -              66,225               -                        -                 76,676
              Deferred Revenue                                                          141,354                  -                -               -            477,890                 -               -               2,196               -                        -                621,440
              Seized Cash and Monetary Instruments                                    1,435,283                  -                -               -                470            46,371           3,563                   -               -                        -              1,485,687
              Contingent Liabilities                                                          -              5,000                -               -              8,466             8,420               -               4,685               -                        -                 26,571
              Capital Lease Liabilities                                                       -                  -                -               -                  -                 -               -               8,716              47                        -                  8,763
              Radiation Exposure Compensation Act Liabilities                                 -            660,465                -               -                  -                 -               -                   -               -                        -                660,465
              9/11 Victim Compensation Fund                                                   -          2,751,712                -               -                  -                 -               -                   -               -                        -              2,751,712
              Other Liabilities                                                               -            200 739           15 440               -              9 886             7 669             956             176 621               -                        -                411 311
        Total Liabilities                                                           $ 4,532,240     $    5,718,453   $      461,780   $     387,493      $     935,064    $    1,222,872   $     270,841      $    2,021,284   $     140,201      $          (343,235) $          15,346,993

        NET POSITION
              Unexpended Appropriations - Funds from Dedicated Collections          $         -     $        35,768 $             -   $            -     $           - $               -   $           - $                 -   $           -      $                  -   $            35,768
              Unexpended Appropriations - All Other Funds                                     -           2,602,197         299,299        2,969,711           386,251         1,822,476         131,994             437,193               -                         -             8,649,121
              Cumulative Results of Operations - Funds from Dedicated Collections     1,855,767             244,863               -       10,057,641          (311,492)                -               -              93,693               -                         -            11,940,472
              Cumulative Results of Operations - All Other Funds                              -          (2 905 923)        156 573            4 559            33 181         3 041 917            (105)          4 758 682         357 522                         -             5 446 406
        Total Net Position                                                          $ 1,855,767     $       (23,095) $      455,872   $   13,031,911     $     107,940 $       4,864,393   $     131,889 $         5,289,568   $     357,522      $                  -   $        26,071,767

        Total Liabilities and Net Position                                          $ 6,388,007     $    5,695,358   $      917,652   $   13,419,404     $    1,043,004   $    6,087,265   $     402,730      $    7,310,852   $     497,723      $          (343,235) $          41,418,760
                                                                                                                                      U. S. Department of Justice
                                                                                                                                      Consolidating Balance Sheet
                                                                                                                             For the Fiscal Year Ended September 30, 2012

                                                                                        AFF/SADF            OBDs                USMS             OJP                 DEA              FBI              ATF            BOP              FPI             Eliminations           Consolidated

        ASSETS
              Intragovernmental
                  Fund Balance with U.S. Treasury                                   $          78,375   $    5,702,037   $         488,186   $    12,614,717     $     694,616    $    3,601,365   $    232,563   $    1,305,195   $      28,244   $                - $              24,745,298
                  Investments, Net                                                          5,631,124          310,479                   -                 -                 -                 -              -                -         272,300                    -                 6,213,903
                  Accounts Receivable, Net                                                      6,035          322,530             145,641             6,642            51,930           143,146         37,105            3,653          21,578             (413,933)                  324,327
                  Other Assets                                                                  2 339           79 029               7 093            47 203            32 442            30 187          1 514          165 000               -              (98 234)                  266 573
              Total Intragovernmental                                                       5 717 873        6 414 075             640 920        12 668 562           778 988         3 774 698        271 182        1 473 848         322 122             (512 167)               31 550 101

              Cash and Monetary Assets                                                        106,166               46                   -                 -             15,337           67,135         71,196              802               -                    -                   260,682
              Accounts Receivable, Net                                                              -           66,493                  29             4,348              5,397           27,069            352            7,361           4,563                    -                   115,612
              Inventory and Related Property, Net                                                   -              106               2,742                 -              7,588            7,310              -           19,609         129,254                    -                   166,609
              Forfeited Property, Net                                                         145,111                -                   -                 -                  -                -              -                -               -                    -                   145,111
              General Property, Plant and Equipment, Net                                        1,150          133,777             265,904            11,006            381,780        2,811,251        206,737        6,286,908          87,631                    -                10,186,144
              Advances and Prepayments                                                              -            1,132                  47           693,159             12,030           48,789            963            4,622             128                    -                   760,870
              Other Assets                                                                          -                -                 184                 -                  -                -              -            4,701             700                    -                     5,585
        Total Assets                                                                $       5,970,300   $    6,615,629   $         909,826   $    13,377,075     $    1,201,120   $    6,736,252   $    550,430   $    7,797,851   $     544,398   $         (512,167) $             43,190,714



        LIABILITIES
              Intragovernmental
                  Accounts Payable                                                  $         71,352    $      310,984   $          25,874   $          22,536   $      35,216    $     183,590    $     13,996   $      47,558    $       3,538   $         (412,069) $                302,575
                  Accrued FECA Liabilities                                                         -             9,860              16,753                  69          27,152           31,101          20,852         152,884            1,981                    -                   260,652
                  Custodial Liabilities                                                            -         1,110,517                   -                   -           3,781                -               -               -                -                    -                 1,114,298
                  Other Liabilities                                                               39            51 451              12 439             107 620          20 095           99 996          10 450          69 148           97 573             (100 098)                  368 713
              Total Intragovernmental                                                         71 391         1 482 812              55 066             130 225          86 244          314 687          45 298         269 590          103 092             (512 167)                2 046 238

              Accounts Payable                                                              2,596,491          306,823             244,011              33,317          85,690           462,174         42,947          291,709          44,894                    -                 4,108,056
              Accrued Grant Liabilities                                                             -          167,668                   -             436,451               -                 -              -                -               -                    -                   604,119
              Actuarial FECA Liabilities                                                            -           56,121              93,617                 442         158,435           176,422        116,959          853,362          18,920                    -                 1,474,278
              Accrued Payroll and Benefits                                                        151          135,398              36,317               7,910          64,151           213,448         33,917          155,218           7,399                    -                   653,909
              Accrued Annual and Compensatory Leave Liabilities                                   246          181,786              43,258               6,011          98,986           277,074         51,019          171,739           8,133                    -                   838,252
-107-




              Environmental and Disposal Liabilities                                                -                -                   -                   -               -            10,219              -           64,222               -                    -                    74,441
              Deferred Revenue                                                                145,111                -                   -                   -         409,396                 -              -            1,957               -                    -                   556,464
              Seized Cash and Monetary Instruments                                          1,536,523                -                   -                   -             450            45,262          4,932                -               -                    -                 1,587,167
              Contingent Liabilities                                                                -            3,565                   -                   -           8,968            11,788              -            4,230             120                    -                    28,671
              Capital Lease Liabilities                                                             -                -                   -                   9               -                 -            394           16,627              66                    -                    17,096
              Radiation Exposure Compensation Act Liabilities                                       -          731,237                   -                   -               -                 -              -                -               -                    -                   731,237
              9/11 Victim Compensation Fund                                                         -        2,766,400                   -                   -               -                 -              -                -               -                    -                 2,766,400
              Other Liabilities                                                                     -          209 775               8 532                   -          10 555             6 342         61 073          159 380               -                    -                   455 657
        Total Liabilities                                                           $       4,349,913   $    6,041,585   $         480,801   $         614,365   $     922,875    $    1,517,416   $    356,539   $    1,988,034   $     182,624   $         (512,167) $             15,941,985

        NET POSITION
              Unexpended Appropriations - Funds from Dedicated Collections          $               -   $        25,963 $                -   $             -     $           - $               -   $          -   $            -   $           -   $                  -   $              25,963
              Unexpended Appropriations - All Other Funds                                           -         3,355,787            259,570         3,478,217           499,366         2,151,355        175,104          649,416               -                      -              10,568,815
              Cumulative Results of Operations - Funds from Dedicated Collections           1,620,387           255,718                  -         9,273,109          (285,887)                -              -           86,212               -                      -              10,949,539
              Cumulative Results of Operations - All Other Funds                                    -        (3 063 424)           169 455            11 384            64 766         3 067 481         18 787        5 074 189         361 774                      -               5 704 412
        Total Net Position                                                          $       1,620,387   $       574,044 $          429,025   $    12,762,710     $     278,245 $       5,218,836   $    193,891   $    5,809,817   $     361,774   $                  -   $          27,248,729

        Total Liabilities and Net Position                                          $       5,970,300   $    6,615,629   $         909,826   $    13,377,075     $    1,201,120   $    6,736,252   $    550,430   $    7,797,851   $     544,398   $         (512,167) $             43,190,714
                                                                                                                  U. S. Department of Justice
                                                                                                              Consolidating Statement of Net Cost
                                                                                                         For the Fiscal Year Ended September 30, 2013
          Dollars in Thousands                    AFF/SADF             OBDs               USMS                OJP                 DEA                  FBI                ATF                 BOP               FPI                Eliminations           Consolidated

        Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
          Gross Cost - Intragovernmental           $           -   $       57,140     $        37,872    $               -   $         12,714    $      1,361,909   $                -    $             -   $              -   $         (116,086) $           1,353,549
          Gross Cost - With the Public                         -          118,473              42,396                    -            125,342           3,649,619                4,834                  -                  -                    -              3,940,664
             Subtotal Gross Costs                              -          175,613              80,268                    -            138,056           5,011,528                4,834                  -                  -             (116,086)             5,294,213

          Earned Revenues - Intragovernmental                  -           13,267                    -                   -              44,666            457,250                     -                 -                  -             (116,086)               399,097
          Earned Revenues - With the Public                    -               43                    -                   -                   4             16,344                     -                 -                  -                    -                 16,391
              Subtotal Earned Revenues                         -           13,310                    -                   -              44,670            473,594                     -                 -                  -             (116,086)               415,488
              Subtotal Net Cost of Operations     $            -   $      162,303     $        80,268    $               -   $          93,386   $      4,537,934   $            4,834    $             -   $              -   $                  -   $        4,878,725

        Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
          Gross Cost - Intragovernmental           $     501,418   $     1,850,572    $        79,516    $          59,681   $        898,217    $        829,830   $           375,869   $             -   $              -   $         (945,821) $           3,649,282
          Gross Cost - With the Public                 1,286,133         3,959,037            164,286              989,297          1,896,782           2,199,434               868,544             7,907                  -                    -             11,371,420
             Subtotal Gross Costs                      1,787,551         5,809,609            243,802            1,048,978          2,794,999           3,029,264             1,244,413             7,907                  -             (945,821)            15,020,702
          Earned Revenues - Intragovernmental            12,201            777,941                   -              11,164            439,466             342,743               74,433                  -                  -             (945,821)               712,127
          Earned Revenues - With the Public                   -            438,610                   -                   -            280,596                 397                  847                  -                  -                    -                720,450
              Subtotal Earned Revenues                   12,201          1,216,551                   -              11,164            720,062             343,140               75,280                  -                  -             (945,821)             1,432,577
              Subtotal Net Cost of Operations     $ 1,775,350      $     4,593,058    $       243,802    $       1,037,814   $      2,074,937    $      2,686,124   $         1,169,133   $         7,907   $              -   $                  -   $       13,588,125

        Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal, State, Local, Tribal, and International Levels
          Gross Cost - Intragovernmental           $           -   $      128,592     $        492,089   $          77,203   $               -   $        254,103   $                 -   $    1,671,102    $      97,638      $         (395,115) $           2,325,612
          Gross Cost - With the Public                         -          401,505            2,350,380           1,578,410                   -            798,910                     -        5,944,800          549,915                       -             11,623,920
             Subtotal Gross Costs                              -          530,097            2,842,469           1,655,613                   -          1,053,013                     -        7,615,902          647,553                (395,115)            13,949,532
          Earned Revenues - Intragovernmental                  -              6,731            52,811               26,882                   -            358,899                     -          20,950           573,233                (374,046)               665,460
-108-




          Earned Revenues - With the Public                    -                  -             4,941                  314                   -            154,485                     -         398,643            41,509                       -                599,892
              Subtotal Earned Revenues                         -              6,731            57,752               27,196                   -            513,384                     -         419,593           614,742                (374,046)             1,265,352
              Subtotal Net Cost of Operations     $            -   $      523,366     $      2,784,717   $       1,628,417   $               -   $        539,629   $                 -   $    7,196,309    $         32,811   $          (21,069) $          12,684,180



        Total Net Cost of Operations              $ 1,775,350      $     5,278,727    $      3,108,787   $       2,666,231   $      2,168,323    $      7,763,687   $         1,173,967   $    7,204,216    $         32,811   $          (21,069) $          31,151,030
                                                                                                                        U. S. Department of Justice
                                                                                                                    Consolidating Statement of Net Cost
                                                                                                               For the Fiscal Year Ended September 30, 2012

        Dollars in Thousands                          AFF/SADF              OBDs                USMS                 OJP                DEA                  FBI               ATF                BOP               FPI                Eliminations            Consolidated

        Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
           Gross Cost - Intragovernmental         $                -   $         99,284    $           4,794   $               -   $         17,534    $       1,424,724   $              -   $             -   $              -   $           (119,355) $          1,426,981
           Gross Cost - With the Public                            -            282,552                    -                   -             94,180            3,917,146              6,419                 -                  -                      -             4,300,297
              Subtotal Gross Costs                                 -            381,836                4,794                   -            111,714            5,341,870              6,419                 -                  -               (119,355)            5,727,278
           Earned Revenues - Intragovernmental                     -             87,077                    -                   -              12,630            458,969                   -                 -                  -               (119,355)              439,321
           Earned Revenues - With the Public                       -             29,042                    -                   -                   -              1,870                   -                 -                  -                      -                30,912
              Subtotal Earned Revenues                             -            116,119                    -                   -              12,630            460,839                   -                 -                  -               (119,355)              470,233
              Subtotal Net Cost of Operations     $                -   $        265,717    $           4,794   $               -   $          99,084   $       4,881,031   $          6,419   $             -   $              -   $                  -    $        5,257,045

        Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
           Gross Cost - Intragovernmental         $          382,840   $       1,804,101   $          32,637   $         45,938    $         892,256   $         790,598   $      383,250     $             -   $              -   $           (970,264) $          3,361,356
           Gross Cost - With the Public                    3,936,567           6,787,015                   -            952,857            1,945,542           2,173,677          895,426               7,242                  -                      -            16,698,326
              Subtotal Gross Costs                         4,319,407           8,591,116              32,637            998,795            2,837,798           2,964,275        1,278,676               7,242                  -               (970,264)           20,059,682
           Earned Revenues - Intragovernmental                10,585            529,236                    -               4,839            473,274             340,061              80,866                 -                  -               (970,264)              468,597
           Earned Revenues - With the Public                       -            395,064                    -                   -            251,099                   -                 503                 -                  -                      -               646,666
              Subtotal Earned Revenues                        10,585            924,300                    -               4,839            724,373             340,061              81,369                 -                  -               (970,264)            1,115,263
              Subtotal Net Cost of Operations     $        4,308,822   $       7,666,816   $          32,637   $        993,956    $       2,113,425   $       2,624,214   $    1,197,307     $         7,242   $              -   $                  -    $       18,944,419

        Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal, State, Local, Tribal, and International Levels
           Gross Cost - Intragovernmental         $                -   $       1,808,388   $         544,969   $         148,858   $               -   $         280,253   $              -   $    1,664,927    $     164,798      $          (1,883,179) $         2,729,014
           Gross Cost - With the Public                            -             665,148           2,609,317           2,316,455                   -             770,530                  -        5,834,650          598,300                          -           12,794,400
              Subtotal Gross Costs                                 -           2,473,536           3,154,286           2,465,313                   -           1,050,783                  -        7,499,577          763,098                 (1,883,179)          15,523,414
           Earned Revenues - Intragovernmental                     -             159,062           1,537,097              22,310                   -            334,507                   -           20,904          651,713                 (1,858,461)             867,132
           Earned Revenues - With the Public                       -              66,119               6,548                 148                   -            151,387                   -          389,401           49,573                          -              663,176
-109-




              Subtotal Earned Revenues                             -             225,181           1,543,645              22,458                   -            485,894                   -          410,305          701,286                 (1,858,461)           1,530,308
              Subtotal Net Cost of Operations     $                -   $       2,248,355   $       1,610,641   $       2,442,855   $               -   $        564,889    $              -   $    7,089,272    $      61,812      $             (24,718) $        13,993,106


        Total Net Cost of Operations              $        4,308,822   $      10,180,888   $       1,648,072   $       3,436,811   $       2,212,509   $       8,070,134   $    1,203,726     $    7,096,514    $         61,812   $            (24,718) $         38,194,570
                                                                                                         U. S. Department of Justice
                                                                                             Consolidating Statement of Changes in Net Position
                                                                                               For the Fiscal Year Ended September 30, 2013

        Dollars in Thousands                           AFF/SADF           OBDs                 USMS                OJP               DEA                FBI               ATF                 BOP                FPI           Eliminations           Consolidated

        Unexpended Appropriations
          Beginning Balances
             Funds from Dedicated Collections      $              -   $       25,963     $               -     $            -    $            -     $            -    $           -       $           -      $         -   $                  -   $           25,963
             All Other Funds                                      -        3,355,787               259,570          3,478,217           499,366          2,151,355          175,104             649,416                -                      -           10,568,815

          Budgetary Financing Sources
             Appropriations Received
                Funds from Dedicated Collections                  -           80,267                     -                  -                 -                  -                 -                   -               -                      -               80,267
                All Other Funds                                   -        5,162,454             2,853,383          1,625,218         2,051,904          8,276,009         1,153,575           6,920,217               -                      -           28,042,760
             Appropriations Transferred-In/Out
                Funds from Dedicated Collections                  -            5,343                     -                  -                   -                -                   -                   -             -                      -                5,343
                All Other Funds                                   -         (148,325)              436,713            (10,533)             21,557         (134,901)             (1,223)             87,214             -                      -              250,502
             Other Adjustments
                Funds from Dedicated Collections                  -           (3,419)                    -                  -                 -                  -                 -                  -                -                      -                (3,419)
                All Other Funds                                   -         (678,225)             (197,806)          (172,141)         (145,260)          (730,365)          (83,035)          (540,312)               -                      -            (2,547,144)
             Appropriations Used
                Funds from Dedicated Collections                  -           (72,386)                    -                 -                  -                 -                 -                   -               -                      -               (72,386)
                All Other Funds                                   -        (5,089,494)           (3,052,561)       (1,951,050)        (2,041,316)       (7,739,622)       (1,112,427)         (6,679,342)              -                      -           (27,665,812)
          Total Financing Sources
             Funds from Dedicated Collections                     -            9,805                     -                  -                 -                  -                 -                  -                -                      -                 9,805
             All Other Funds                                      -         (753,590)               39,729           (508,506)         (113,115)          (328,879)          (43,110)          (212,223)               -                      -            (1,919,694)

          Net Change
             Funds from Dedicated Collections                     -            9,805                     -                  -                 -                  -                 -                  -                -                      -                 9,805
             All Other Funds                                      -         (753,590)               39,729           (508,506)         (113,115)          (328,879)          (43,110)          (212,223)               -                      -            (1,919,694)

          Ending Balances
             Funds from Dedicated Collections                     -           35,768                     -                  -                 -                  -                -                   -                -                      -               35,768
             All Other Funds                                      -        2,602,197               299,299          2,969,711           386,251          1,822,476          131,994             437,193                -                      -            8,649,121
-110-




          Total All Funds                          $              -   $    2,637,965     $         299,299     $    2,969,711    $      386,251     $    1,822,476    $     131,994       $     437,193      $         -   $                  -   $        8,684,889
                                                                                                                         U. S. Department of Justice
                                                                                                       Consolidating Statement of Changes in Net Position - Continued
                                                                                                               For the Fiscal Year Ended September 30, 2013

        Dollars in Thousands                                              AFF/SADF             OBDs             USMS               OJP                 DEA             FBI                 ATF                BOP                 FPI                 Eliminations           Consolidated

        Cumulative Results of Operations
          Beginning Balances
             Funds from Dedicated Collections                         $      1,620,387     $       255,718 $             -     $    9,273,109      $     (285,887) $            -      $              -   $       86,212      $           -       $                  -   $       10,949,539
             All Other Funds                                                         -          (3,063,424)        169,455             11,384              64,766       3,067,481                18,787        5,074,189            361,774                          -            5,704,412
          Adjustments:
             Changes in Accounting Principles (Note 26)
                Funds from Dedicated Collections                                  (531)            (1,087)                 -                  -              (473)              -                     -                  -                   -                       -               (2,091)
                All Other Funds                                                      -            (13,527)                 -             (1,199)          (11,867)       (237,177)                    -             (8,787)                  -                       -             (272,557)
          Beginning Balances, as Adjusted
             Funds from Dedicated Collections                                1,619,856            254,631                  -        9,273,109            (286,360)                -                   -             86,212                   -                       -           10,947,448
             All Other Funds                                                          -         (3,076,951)        169,455               10,185              52,899     2,830,304                18,787        5,065,402            361,774                          -            5,431,855

          Budgetary Financing Sources
             Other Adjustments
                All Other Funds                                                       -           (26,000)                 -                  -                   -               -                   -                  -                   -                       -               (26,000)
             Appropriations Used
                Funds from Dedicated Collections                                      -            72,386                -                  -                   -               -                   -                  -                     -                       -               72,386
                All Other Funds                                                       -         5,089,494        3,052,561          1,951,050           2,041,316       7,739,622           1,112,427          6,679,342                     -                       -           27,665,812
             Nonexchange Revenues
                Funds from Dedicated Collections                                 5,106                1,341                -        1,489,583                     -               -                   -                  -                   -                       -            1,496,030
                All Other Funds                                                      -                                                    320                     -               2                                                                                  -                  322
             Donations and Forfeitures of Cash and Cash Equivalents
                Funds from Dedicated Collections                             1,826,480                    -                -                  -                   -               -                   -                  -                   -                       -            1,826,480
             Transfers-In/Out Without Reimbursement
                All Other Funds                                                       -           147,559                  -                  -                   -          (7,329)                  -                  -                   -                       -              140,230

          Other Financing Sources
             Donations and Forfeitures of Property
                Funds from Dedicated Collections                               185,769                    -                -                  -                   -               -                   -                  -                   -                       -              185,769
                All Other Funds                                                      -                    -                -                  -                   -               -                   -                  3                   -                       -                    3
-111-




             Transfers-In/Out Without Reimbursement
                Funds from Dedicated Collections                                 (7,273)                  -                -                 -                    -               -                   -                (7)                   -                       -                (7,280)
                All Other Funds                                                       -               4,837            1,670               110                4,762          (7,803)              5,645               139                    -                       -                 9,360
             Imputed Financing from Costs Absorbed by Others
                Funds from Dedicated Collections                                 1,179                951                -                    -               9,055            -                      -           4,033                      -                     -                 15,218
                All Other Funds                                                      -            149,419           41,674                4,074              68,340      256,974                 37,003         221,467                 28,559               (21,069)               786,441
             Other Financing Sources
                All Other Funds                                                       -                   -                -                  -                   -          (6,166)                  -                  -                   -                       -                (6,166)
          Total Financing Sources
             Funds from Dedicated Collections                                2,011,261             74,678                -          1,489,583               9,055               -                   -              4,026                     -                     -              3,588,603
             All Other Funds                                                         -          5,365,309        3,095,905          1,955,554           2,114,418       7,975,300           1,155,075          6,900,951                28,559               (21,069)            28,570,002

          Net Cost of Operations
             Funds from Dedicated Collections                                (1,775,350)           (84,446)               -          (705,051)             (34,187)             -                   -              3,455                  -                        -              (2,595,579)
             All Other Funds                                                          -         (5,194,281)      (3,108,787)       (1,961,180)          (2,134,136)    (7,763,687)         (1,173,967)        (7,207,671)           (32,811)                  21,069             (28,555,451)

          Net Change
             Funds from Dedicated Collections                                  235,911             (9,768)               -           784,532              (25,132)             -                    -             7,481                      -                       -              993,024
             All Other Funds                                                         -            171,028          (12,882)           (5,626)             (19,718)       211,613              (18,892)         (306,720)                (4,252)                      -               14,551

          Ending Balances
             Funds from Dedicated Collections                                1,855,767             244,863               -         10,057,641            (311,492)              -                     -           93,693                  -                          -           11,940,472
             All Other Funds                                                         -          (2,905,923)        156,573              4,559              33,181       3,041,917                  (105)       4,758,682            357,522                          -            5,446,406
          Total All Funds                                             $      1,855,767     $    (2,661,060) $      156,573     $   10,062,200      $     (278,311) $    3,041,917      $           (105) $     4,852,375      $     357,522       $                  -   $       17,386,878

          Net Position - Funds from Dedicated Collections                    1,855,767            280,631                -         10,057,641            (311,492)              -                  -              93,693                  -                          -           11,976,240
          Net Position - All Other Funds                                             -           (303,726)         455,872          2,974,270             419,432       4,864,393            131,889           5,195,875            357,522                          -           14,095,527
          Net Position - Total                                        $      1,855,767     $      (23,095) $       455,872     $   13,031,911      $      107,940 $     4,864,393      $     131,889      $    5,289,568      $     357,522       $                  -   $       26,071,767
                                                                                                    U. S. Department of Justice
                                                                                         Consolidating Statement of Changes in Net Position
                                                                                           For the Fiscal Year Ended September 30, 2012
        Dollars in Thousands                           AFF/SADF           OBDs               USMS                OJP                 DEA                 FBI               ATF               BOP               FPI           Eliminations           Consolidated

        Unexpended Appropriations
          Beginning Balances
             Funds from Dedicated Collections      $              -   $       21,727     $             -     $            -      $           -       $            -    $           -     $           -     $         -   $                  -   $           21,727
             All Other Funds                                      -        3,472,362             257,093          4,605,970            503,763            2,194,512          174,210           744,671               -                      -           11,952,581

          Budgetary Financing Sources
             Appropriations Received
                Funds from Dedicated Collections                  -           72,044                   -                  -                   -                   -                 -                 -              -                      -               72,044
                All Other Funds                                   -        6,848,091           1,189,000          1,638,300           2,035,000           8,117,973         1,152,000         6,641,281              -                      -           27,621,645
             Appropriations Transferred-In/Out
                All Other Funds                                   -          (28,074)            416,211               (8,470)             27,254           (60,821)          (15,067)             (562)             -                      -              330,471
             Other Adjustments
                All Other Funds                                   -          (40,561)              (2,200)          (55,000)            (10,000)                  -                 -           (45,000)             -                      -             (152,761)
             Appropriations Used
                Funds from Dedicated Collections                  -           (67,808)                  -                 -                   -                   -                 -                 -              -                      -               (67,808)
                All Other Funds                                   -        (6,896,031)         (1,600,534)       (2,702,583)         (2,056,651)         (8,100,309)       (1,136,039)       (6,690,974)             -                      -           (29,183,121)
          Total Financing Sources
             Funds from Dedicated Collections                     -            4,236                    -                 -                     -                 -                -                  -              -                      -                 4,236
             All Other Funds                                      -         (116,575)               2,477        (1,127,753)               (4,397)          (43,157)             894            (95,255)             -                      -            (1,383,766)

          Net Change
             Funds from Dedicated Collections                     -            4,236                    -                 -                     -                 -                -                  -              -                      -                 4,236
             All Other Funds                                      -         (116,575)               2,477        (1,127,753)               (4,397)          (43,157)             894            (95,255)             -                      -            (1,383,766)

          Ending Balances
             Funds from Dedicated Collections                     -           25,963                   -                  -                  -                    -                -                 -               -                      -               25,963
             All Other Funds                                      -        3,355,787             259,570          3,478,217            499,366            2,151,355          175,104           649,416               -                      -           10,568,815
          Total All Funds                          $              -   $    3,381,750     $       259,570     $    3,478,217      $     499,366       $    2,151,355    $     175,104     $     649,416     $         -   $                  -   $       10,594,778
-112-
                                                                                                                      U. S. Department of Justice
                                                                                                    Consolidating Statement of Changes in Net Position - Continued
                                                                                                            For the Fiscal Year Ended September 30, 2012
        Dollars in Thousands                                              AFF/SADF             OBDs               USMS               OJP               DEA             FBI                 ATF                BOP               FPI                Eliminations           Consolidated

        Cumulative Results of Operations
          Beginning Balances
             Funds from Dedicated Collections                         $      1,760,544     $      252,629 $                -     $    7,202,248    $    (232,162) $             -      $              -   $       83,557    $           -      $                  -   $        9,066,816
             All Other Funds                                                         -            (56,544)           165,165             13,156           87,367        2,760,450                30,179        5,092,691          390,025                         -            8,482,489

          Budgetary Financing Sources
             Other Ajustments
                All Other Funds                                                       -            (40,000)                  -                 -                  -               -                   -                -                   -                      -               (40,000)
             Appropriations Used
                Funds from Dedicated Collections                                      -            67,808                  -                  -                 -               -                   -                  -                   -                      -               67,808
                All Other Funds                                                       -         6,896,031          1,600,534          2,702,583         2,056,651       8,100,309           1,136,039          6,690,974                   -                      -           29,183,121
             Nonexchange Revenues
                Funds from Dedicated Collections                                 3,327                4,085                  -        2,795,573                   -               -                   -                -                   -                      -            2,802,985
                All Other Funds                                                      -                    -                  -              975                   -               -                   -                -                   -                      -                  975
             Donations and Forfeitures of Cash and Cash Equivalents
                Funds from Dedicated Collections                             4,194,465                    -                  -                 -                  -               -                   -                -                   -                      -            4,194,465
             Transfers-In/Out Without Reimbursement
                All Other Funds                                                       -           109,395                    -                 -                  -               -                   -                -                   -                      -              109,395

          Other Financing Sources
             Donations and Forfeitures of Property
                Funds from Dedicated Collections                               120,245                    -                  -                 -                  -               -                   -               -                    -                      -              120,245
                All Other Funds                                                      -                    -                  -                 -                  -               -                   -              30                    -                      -                   30
             Transfers-In/Out Without Reimbursement
                Funds from Dedicated Collections                              (149,908)                  -                  -                  -                  -              -                    -               -                    -                      -             (149,908)
                All Other Funds                                                      -             (36,621)                58              2,295             (1,374)         5,333               15,949         151,645                    -                      -              137,285
             Imputed Financing from Costs Absorbed by Others
                Funds from Dedicated Collections                                   536              1,145                  -                   -              9,419            -                      -           4,346                    -                    -                 15,446
                All Other Funds                                                      -            175,254             51,770               4,474             71,487      276,722                 40,346         233,672               33,561              (24,718)               862,568
             Other Financing Sources
                All Other Funds                                                       -                   -                  -                 -                  -          (5,199)                  -                -                   -                      -                (5,199)

          Total Financing Sources
             Funds from Dedicated Collections                                4,168,665             73,038                  -          2,795,573             9,419               -                   -              4,346                   -                    -              7,051,041
             All Other Funds                                                         -          7,104,059          1,652,362          2,710,327         2,126,764       8,377,165           1,192,334          7,076,321              33,561              (24,718)            30,248,175
-113-




          Net Cost of Operations
             Funds from Dedicated Collections                                (4,308,822)           (69,949)                 -          (724,712)          (63,144)              -                   -             (1,691)               -                       -              (5,168,318)
             All Other Funds                                                          -        (10,110,939)        (1,648,072)       (2,712,099)       (2,149,365)     (8,070,134)         (1,203,726)        (7,094,823)         (61,812)                 24,718             (33,026,252)

          Net Change
             Funds from Dedicated Collections                                 (140,157)              3,089                   -        2,070,861           (53,725)             -                    -              2,655                -                         -             1,882,723
             All Other Funds                                                         -          (3,006,880)              4,290           (1,772)          (22,601)       307,031              (11,392)           (18,502)         (28,251)                        -            (2,778,077)

          Ending Balances
             Funds from Dedicated Collections                                1,620,387             255,718                 -          9,273,109         (285,887)               -                     -           86,212                -                         -           10,949,539
             All Other Funds                                                         -          (3,063,424)          169,455             11,384           64,766        3,067,481                18,787        5,074,189          361,774                         -            5,704,412
          Total All Funds                                             $      1,620,387     $    (2,807,706) $        169,455     $    9,284,493    $    (221,121) $     3,067,481      $         18,787   $    5,160,401    $     361,774      $                  -   $       16,653,951

          Net Position - Funds from Dedicated Collections                    1,620,387            281,681                  -          9,273,109         (285,887)               -                  -              86,212                -                         -           10,975,502
          Net Position - All Other Funds                                             -            292,363            429,025          3,489,601          564,132        5,218,836            193,891           5,723,605          361,774                         -           16,273,227
          Net Position - Total                                        $      1,620,387     $      574,044     $      429,025     $   12,762,710    $     278,245 $      5,218,836      $     193,891      $    5,809,817    $     361,774      $                  -   $       27,248,729
                                                                                                                 U. S. Department of Justice
                                                                                                         Combining Statement of Custodial Activity
                                                                                                        For the Fiscal Year Ended September 30, 2013

        Dollars in Thousands                                               AFF/SADF           OBDs               USMS           OJP           DEA                FBI               ATF                 BOP              FPI           Combined



        Revenue Activity

        Sources of Cash Collections
           Delinquent Federal Civil Debts as Required by the Federal
              Debt Recovery Act of 1986                                $              -   $    5,595,261     $          -   $         -   $              -   $           -     $              -    $          -     $         -   $      5,595,261
           Fees and Licenses                                                          -                -                -             -             15,000               -               28,392               -               -             43,392
           Fines, Penalties and Restitution Payments - Civil                          -                -                -             -             86,630             195                   20               -               -             86,845
           Fines, Penalties and Restitution Payments - Criminal                       -           42,295                -             -                  -             260                   48               -               -             42,603
           Miscellaneous                                                              -               47                -             -                  -             417               41,520              46               -             42,030

              Total Cash Collections                                   $              -   $    5,637,603     $          -   $         -   $     101,630      $         872     $         69,980    $         46     $         -   $      5,810,131

        Accrual Adjustments                                                           -                 -               -             -              (916)                5                  (3)               -              -               (914)

        Total Custodial Revenue                                        $              -   $    5,637,603     $          -   $         -   $     100,714      $         877     $         69,977    $         46     $         -   $      5,809,217

        Disposition of Collections
           Transferred to Federal Agencies
              Library of Congress                                                     -              (509)              -             -               -                   -                -                   -              -                (509)
               U S Department of Agriculture                                          -          (136,258)              -             -               -                   -                -                   -              -            (136,258)
               U S Department of Commerce                                             -            (6,000)              -             -               -                   -                -                   -              -              (6,000)
               U S Department of the Interior                                         -           (36,174)              -             -               -                   -                -                   -              -             (36,174)
               U S Department of Justice                                              -           (99,558)              -             -               -                   -                -                   -              -             (99,558)
               U S Department of Labor                                                -            (3,897)              -             -               -                   -                -                   -              -              (3,897)
-114-




               U S Postal Service                                                     -           (26,790)              -             -               -                   -                -                   -              -             (26,790)
               U S Department of State                                                -            (2,208)              -             -               -                   -                -                   -              -              (2,208)
               U S Department of the Treasury                                         -        (2,025,807)              -             -               -                   -                -                   -              -          (2,025,807)
               Office of Personnel Management                                         -           (43,447)              -             -               -                   -                -                   -              -             (43,447)
               National Credit Union Administration                                   -                (1)              -             -               -                   -                -                   -              -                  (1)
               Federal Communications Commission                                      -              (757)              -             -               -                   -                -                   -              -                (757)
               Social Security Administration                                         -              (699)              -             -               -                   -                -                   -              -                (699)
               Smithsonian Institution                                                -                (8)              -             -               -                   -                -                   -              -                  (8)
              U S Department of Veterans Affairs                                      -          (123,179)              -             -               -                   -                -                   -              -            (123,179)
               Equal Employment Opportunity Commission                                -                (2)              -             -               -                   -                -                   -              -                  (2)
               General Services Administration                                        -           (51,966)              -             -               -                   -                -                   -              -             (51,966)
               Securities and Exchange Commission                                     -                (3)              -             -               -                   -                -                   -              -                  (3)
               Federal Deposit Insurance Corporation                                  -              (419)              -             -               -                   -                -                   -              -                (419)
               Railroad Retirement Board                                              -              (414)              -             -               -                   -                -                   -              -                (414)
               Tennessee Valley Authority                                             -              (291)              -             -               -                   -                -                   -              -                (291)
               Environmental Protection Agency                                        -          (185,060)              -             -               -                   -                -                   -              -            (185,060)
              U S Department of Transportation                                        -            (5,185)              -             -               -                   -                -                   -              -              (5,185)
               U S Department of Homeland Security                                    -          (131,067)              -             -               -                   -                -                   -              -            (131,067)
               Agency for International Development                                   -           (44,212)              -             -               -                   -                -                   -              -             (44,212)
               Small Business Administration                                          -           (14,792)              -             -               -                   -                -                   -              -             (14,792)
               U S Department of Health and Human Services                            -        (1,151,278)              -             -               -                   -                -                   -              -          (1,151,278)
               National Aeronautics and Space Administration                          -            (5,288)              -             -               -                   -                -                   -              -              (5,288)
               Export-Import Bank of the United States                                -           (13,855)              -             -               -                   -                -                   -              -             (13,855)
              U S Department of Housing and Urban Development                         -           (24,226)              -             -               -                   -                -                   -              -             (24,226)
               U S Department of Energy                                               -           (10,585)              -             -               -                   -                -                   -              -             (10,585)
               U S Department of Education                                            -           (23,219)              -             -               -                   -                -                   -              -             (23,219)
               Independent Agencies                                                   -          (114,607)              -             -               -                   -                -                   -              -            (114,607)
               Treasury General Fund                                                  -          (503,972)              -             -        (101,630)               (872)         (69,540)                (46)             -            (676,060)
               U S Department of Defense                                              -          (120,707)              -             -               -                   -                -                   -              -            (120,707)
           Transferred to the Public                                                  -          (416,166)              -             -               -                   -                -                   -              -            (416,166)
           (Increase)/Decrease in Amounts Yet to be Transferred                       -           (52,289)              -             -             916                  (5)               -                   -              -             (51,378)
           Refunds and Other Payments                                                 -          (104,397)              -             -               -                   -             (437)                  -              -            (104,834)
           Retained by the Reporting Entity                                           -          (158,311)              -             -               -                   -                -                   -              -            (158,311)
        Total Disposition Of Collections                                              -        (5,637,603)              -             -        (100,714)               (877)         (69,977)                (46)             -          (5,809,217)

        Net Custodial Activity                                         $              -   $             -    $          -   $         -   $              -   $            -    $              -    $           -    $         -   $               -
                                                                                                                U. S. Department of Justice
                                                                                                        Combining Statement of Custodial Activity
                                                                                                       For the Fiscal Year Ended September 30, 2012

        Dollars in Thousands                                               AFF/SADF           OBDs               USMS           OJP           DEA                 FBI                ATF                BOP              FPI           Combined


        Revenue Activity

        Sources of Cash Collections
           Delinquent Federal Civil Debts as Required by the Federal
              Debt Recovery Act of 1986                                $              -   $    6,995,798     $          -   $         -   $              -    $              -   $              -   $          -     $         -   $      6,995,798
           Fees and Licenses                                                          -                -                -             -             15,000                   -             21,710              -               -             36,710
           Fines, Penalties and Restitution Payments - Civil                          -                -                -             -             12,595               8,941                 18              -               -             21,554
           Fines, Penalties and Restitution Payments - Criminal                       -           39,750                -             -                  -                 146                 74              -               -             39,970
           Miscellaneous                                                              -               43                -             -                  -               1,649              2,873             54               -              4,619

              Total Cash Collections                                   $              -   $    7,035,591     $          -   $         -   $         27,595    $         10,736   $         24,675   $         54     $         -   $      7,098,651

        Accrual Adjustments                                                           -                 -               -             -             (1,418)                  -                13                -              -              (1,405)

        Total Custodial Revenue                                        $              -   $    7,035,591     $          -   $         -   $         26,177    $         10,736   $         24,688   $         54     $         -   $      7,097,246

        Disposition of Collections
           Transferred to Federal Agencies
               U S Department of Agriculture                                          -          (105,670)              -             -               -                   -                  -                  -              -            (105,670)
               U S Department of Commerce                                             -            (3,746)              -             -               -                   -                  -                  -              -              (3,746)
               U S Department of the Interior                                         -          (129,015)              -             -               -                   -                  -                  -              -            (129,015)
               U S Department of Justice                                              -           (21,085)              -             -               -                   -                  -                  -              -             (21,085)
               U S Department of Labor                                                -            (9,175)              -             -               -                   -                  -                  -              -              (9,175)
-115-




               U S Postal Service                                                     -            (7,675)              -             -               -                   -                  -                  -              -              (7,675)
               U S Department of State                                                -           (26,613)              -             -               -                   -                  -                  -              -             (26,613)
               U S Department of the Treasury                                         -          (917,662)              -             -               -                   -                  -                  -              -            (917,662)
               Office of Personnel Management                                         -          (157,714)              -             -               -                   -                  -                  -              -            (157,714)
               Federal Communications Commission                                      -              (310)              -             -               -                   -                  -                  -              -                (310)
               Social Security Administration                                         -              (921)              -             -               -                   -                  -                  -              -                (921)
               Smithsonian Institution                                                -                (8)              -             -               -                   -                  -                  -              -                  (8)
               U S Department of Veterans Affairs                                     -          (125,354)              -             -               -                   -                  -                  -              -            (125,354)
               General Services Administration                                        -          (130,087)              -             -               -                   -                  -                  -              -            (130,087)
               Securities and Exchange Commission                                     -              (411)              -             -               -                   -                  -                  -              -                (411)
               Federal Deposit Insurance Corporation                                  -               (59)              -             -               -                   -                  -                  -              -                 (59)
               Railroad Retirement Board                                              -              (288)              -             -               -                   -                  -                  -              -                (288)
               Tennessee Valley Authority                                             -                (8)              -             -               -                   -                  -                  -              -                  (8)
               Environmental Protection Agency                                        -          (189,137)              -             -               -                   -                  -                  -              -            (189,137)
               U S Department of Transportation                                       -           (13,674)              -             -               -                   -                  -                  -              -             (13,674)
               U S Department of Homeland Security                                    -           (66,585)              -             -               -                   -                  -                  -              -             (66,585)
               Agency for International Development                                   -              (511)              -             -               -                   -                  -                  -              -                (511)
               Small Business Administration                                          -            (6,371)              -             -               -                   -                  -                  -              -              (6,371)
               U S Department of Health and Human Services                            -        (1,283,167)              -             -               -                   -                  -                  -              -          (1,283,167)
               National Aeronautics and Space Administration                          -              (725)              -             -               -                   -                  -                  -              -                (725)
               Export-Import Bank of the United States                                -           (17,264)              -             -               -                   -                  -                  -              -             (17,264)
               U S Department of Housing and Urban Development                        -        (1,129,547)              -             -               -                   -                  -                  -              -          (1,129,547)
               National Archives&Records Administration                               -               (29)              -             -               -                   -                  -                  -              -                 (29)
               U S Department of Energy                                               -            (3,313)              -             -               -                   -                  -                  -              -              (3,313)
               U S Department of Education                                            -           (14,452)              -             -               -                   -                  -                  -              -             (14,452)
               Independent Agencies                                                   -           (63,619)              -             -               -                   -                  -                  -              -             (63,619)
               Treasury General Fund                                                  -          (642,790)              -             -         (27,595)            (10,736)           (24,328)               (54)             -            (705,503)
               U S Department of Defense                                              -          (217,607)              -             -               -                   -                  -                  -              -            (217,607)
           Transferred to the Public                                                  -          (508,622)              -             -               -                   -                  -                  -              -            (508,622)
           (Increase)/Decrease in Amounts Yet to be Transferred                       -          (567,495)              -             -           1,418                   -                  -                  -              -            (566,077)
           Refunds and Other Payments                                                 -          (512,825)              -             -               -                   -               (360)                 -              -            (513,185)
           Retained by the Reporting Entity                                           -          (162,057)              -             -               -                   -                  -                  -              -            (162,057)
        Total Disposition Of Collections                                              -        (7,035,591)              -             -         (26,177)            (10,736)           (24,688)               (54)             -          (7,097,246)

        Net Custodial Activity                                         $              -   $             -    $          -   $         -   $              -    $              -   $              -   $           -    $         -   $               -
